No. _______
In The

Supreme Court of the United States
-------------------------- ♦ ---------------------------

TKC AEROSPACE INC.,
v.

Petitioner,

CHARLES TAYLOR MUHS,
Respondent.
-------------------------- ♦ --------------------------

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit
-------------------------- ♦ --------------------------

PETITION FOR WRIT OF CERTIORARI
-------------------------- ♦ --------------------------

Nicholas M. DePalma
Counsel of Record
Stephen K. Gallagher (Admission Pending)
Douglas Proxmire (Admission Pending)
Kevin W. Weigand (Admission Pending)
VENABLE LLP
8010 Towers Crescent Drive, Suite 300
Tysons, Virginia 22182
(703) 760-1647
nmdepalma@venable.com
skgallagher@venable.com
dcproxmire@venable.com
kwweigand@venable.com
William B. King (Admission Pending)
VENABLE LLP
750 East Pratt Street, Suite 900
Baltimore, Maryland 21202
(410) 244-7510
wbking@venable.com
Counsel for Petitioner

Dated: September 3, 2019

THE LEX GROUPDC i 1050 Connecticut Avenue, N.W. i Suite 500, #5190 i Washington, D.C. 20036
(202) 955-0001 i (800) 856-4419 i www.thelexgroup.com

i
QUESTION PRESENTED
Under 11 U.S.C. § 523(a)(6), a debt may not be
discharged in bankruptcy if it arises from a “willful
and malicious injury by the debtor to another.” In
Kawaahua v. Geiger, 523 U.S. 57, 61-64 (1998), this
Court held that this exception to discharge only
applies when the debtor acted with “the actual
intent to cause injury” (emphasis added). Since
Geiger, this Court has offered no further guidance on
the evidence needed to meet this “actual intent”
requirement. Interpreting Geiger, nearly all circuits
considering this issue have held that a debtor’s
actions qualify as causing a “willful and malicious”
injury where he or she acted with (1) actual,
subjective intent to cause injury, or (2) “substantial
certainty” that injury would result from the debtor’s
conduct. However, circuits are split over whether
this “substantial certainty” prong requires proof of
the debtor’s subjective belief that injury was certain
or whether proof of the objective certainty that an
injury would result from the debtor’s acts satisfies
the intent requirement. At last count, three
circuits—the Fifth, the Seventh, and the Fourth (in
an opinion predating the opinion below in this case)
have held that proof of objective certainty is
sufficient. The Ninth and Tenth Circuits disagree
with that approach.
The question presented is:
Whether a debtor’s conduct qualifies as
causing a “willful and malicious” injury under
Section 523(a)(6) when the debtor’s acts were
objectively certain to result in the injury giving rise
to the debt.

ii
CORPORATE DISCLOSURE STATEMENT
Tumeq, LLC owns 100% of the stock of TKC
Aerospace, Inc.
RELATED CASES
x

TKC Aerospace, Inc. v. Muhs, No. 3:11-cv0189-HRH, United States District Court for
the District of Alaska. Judgment entered
March 7, 2016.

x

TKC Aerospace, Inc. v. Phoenix Heliparts, Inc.,
et al., No. CV 2011-018889, Superior Court of
Arizona in Maricopa County. Judgment
entered January 30, 2015.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED .......................................... i
CORPORATE DISCLOSURE STATEMENT ............ ii
RELATED CASES ...................................................... ii
TABLE OF CONTENTS............................................iii
TABLE OF AUTHORITIES ..................................... vii
INTRODUCTION ....................................................... 1
OPINIONS BELOW ................................................... 5
JURISDICTION ......................................................... 6
STATUTE INVOLVED .............................................. 6
STATEMENT OF THE CASE ................................... 7
I.

Two Courts Have Found Muhs
Liable for Willful and Malicious
Theft of Trade Secrets ................................ 7

II.

Muhs Has Sought to Discharge the
Alaska Judgment in Bankruptcy,
and the Fourth Circuit’s Latest
Decision May Allow Him To Do So .......... 11

REASONS FOR GRANTING THE PETITION ....... 13
I.

There is a Clear Circuit Split Over
Whether Conduct Objectively
“Substantially Certain” to Result in
Injury Qualifies as “Willful and
Malicious” Under Section 523(a)(6) ......... 14

iv

II.

A.

The Fifth Circuit, the Seventh
Circuit, and the Fourth
Circuit (in a Decision
Predating the Opinion Below)
Have Adopted an Objective
“Substantial Certainty” Test ......... 15

B.

The Ninth and Tenth Circuits
Disagree with Miller and the
Objective Approach and Have
Instead Required Proof that a
Debtor Subjectively Believed
Injury was “Substantially
Certain” to Occur ........................... 22

Resolving this Circuit Split in Favor
of the Objective “Substantial
Certainty” Test is of Considerable
Importance ................................................ 25

CONCLUSION ......................................................... 30
APPENDIX A:
Published Opinion and Judgment of
The United States Court of Appeals
For the Fourth Circuit
entered May 8, 2019 ...................................... 1a
APPENDIX B:
Memorandum Opinion and Order of
The United States District Court
For the Eastern District of Virginia
entered March 12, 2018 ............................... 30a

v
APPENDIX C:
Order of
The United States Bankruptcy Court
For the Eastern District of Virginia
Re: Granting Summary Judgment
entered November 3, 2017 ........................... 34a
APPENDIX D:
Memorandum Opinion and Order of
The United States District Court
For the Eastern District of Virginia
entered October 16, 2017 ............................. 38a
APPENDIX E:
Order of
The United States Bankruptcy Court
For the Eastern District of Virginia
Re: Denying Motion for Summary Judgment
entered March 15, 2017 ............................... 48a
APPENDIX F:
Order of
The United States Court of Appeals
For the Fourth Circuit
Re: Denying Petition for Rehearing En Banc
entered June 4, 2019 .................................... 50a
APPENDIX G:
Judgment of
The United States District Court
For the District of Alaska
Re: TKC Aerospace Inc. v. Muhs,
No. 3:11-cv-0189-HRH
entered March 7, 2016 ................................. 51a

vi
APPENDIX H:
Order of
The United States District Court
For the District of Alaska
Re: TKC Aerospace Inc. v. Muhs,
No. 3:11-cv-0189-HRH
entered October 22, 2015 ............................. 54a
APPENDIX I:
Opinion of
The Superior Court of Arizona
Re: TKC Aerospace Inc. v. Phoenix
Heliparts Inc., CV 2011-018889
entered January 30, 2015 ............................ 73a

vii
TABLE OF AUTHORITIES
Page(s)
CASES
Gerard v. Gerard,
780 F.3d 806 (7th Cir. 2015) .......................... 19
In re Abell,
No. 17-00314, 2018 WL 3624462
(Bankr. D. Md. July 26, 2018) .................. 20-21
In re Anderson,
CV TDC-18-0977, 2019 WL 1227925
(D. Md. Mar. 15, 2019) ................................... 20
In re Ausley,
507 B.R. 234 (Bankr. W.D. Tenn. 2014) .......... 2
In re Cardin,
11-52077, 2013 WL 1092118
(Bankr. E.D. Tenn. Jan. 31, 2013)................. 26
In re Cassidy,
595 B.R. 507 (Bankr. W.D. Va. 2019) ............ 20
In re Englehart,
229 F.3d 1163 (10th Cir. 2000) .......... 23, 24, 25
In re Margulies,
566 B.R. 318 (S.D.N.Y. 2017), aff’d,
721 Fed. Appx. 98 (2d Cir. 2018) ..................... 3
In re Markowitz,
190 F.3d 455 (6th Cir. 1999) .......................... 25
In re Miller,
156 F.3d 598 (5th Cir. 1998) .................. passim

viii
In re Monson,
661 Fed. Appx. 675 (11th Cir. 2016) ............... 3
In re Parks,
91 Fed. Appx. 817 (4th Cir. 2003) ..... 19, 20, 21
In re Patch,
526 F.3d 1176 (8th Cir. 2008) ........................ 25
In re Peterson,
No. 17-10066, 2018 WL 5883913
(Bankr. M.D.N.C. Nov. 6, 2018) .................... 28
In re Rezykowski,
493 B.R. 713 (Bankr. E.D. Pa. 2013) ............. 26
In re Shcolnik,
670 F.3d 624 (5th Cir. 2012) .............. 18, 19, 21
In re Shelmidine,
519 B.R. 385 (Bankr. N.D.N.Y. 2014) ........... 21
In re Smithey,
03-64290, 2005 WL 6490601
(Bankr. N.D. Ga. Feb. 9, 2005) ........................ 3
In re Su,
290 F.3d 1140 (9th Cir. 2002) .................. 22, 23
In re Swasey,
488 B.R. 22 (Bankr. D. Mass. 2013) .............. 21
In re Vollbracht,
276 Fed. Appx. 360 (5th Cir. 2007) ............... 18
In re White,
551 B.R. 814 (Bankr. S.D. Ohio 2016)........... 21

ix
In re Williams,
337 F.3d 504 (5th Cir. 2003) .................... 17, 18
Kawaahua v. Geiger,
523 U.S. 57 (1998) .................................. passim
La Bella Dona Skin Care, Inc. v.
Harton (In re Harton),
Ch. 13 Case No. 12-36221-KRH,
Adv. No. 13-03028-KRH,
2013 WL 5461832
(Bankr. E.D. Va. Oct. 1, 2013) ................. 28, 29
STATUTES
11 U.S.C. § 523(a)(2) ................................................. 11
11 U.S.C. § 523(a)(4) ........................................... 11, 29
11 U.S.C. § 523(a)(6) ......................................... passim
28 U.S.C § 1334......................................................... 11
28 U.S.C. § 1254(1) ..................................................... 6
Ariz. Rev. Stat. Ann. § 44-403(B) ............................... 9
OTHER AUTHORITY
Kenneth J. Vandevelde, A History of Prima
Facie Tort: The Origins of a General Theory of
Intentional Tort, 19 Hofstra L. Rev. 447 (1990) ...... 17

1
PETITION FOR WRIT OF CERTIORARI
TKC Aerospace, Inc. (“TKCA”) respectfully
petitions this Court for a writ of certiorari to review
the judgment of the United States Court of Appeals
for the Fourth Circuit in this case.
INTRODUCTION
Under 11 U.S.C. § 523(a)(6), a debt “for willful
and malicious injury by the debtor to another” is
nondischargeable in bankruptcy. In the case at bar,
the debtor inflicted injury on TKCA when the debtor
“willfully and maliciously” stole TKCA trade secrets
as part of a scheme to take TKCA’s business.
Despite the debtor’s willful and malicious theft in
violation of the Uniform Trade Secrets Act, the
Fourth Circuit relied on this Court’s prior ruling in
Kawaahua v. Geiger, 523 U.S. 57, 61-64 (1998) to
find that the debtor may not have had the required
intent to injure to render the debt nondischargeable.
In Geiger, this Court held that the exception
to dischargeability under Section 523(a)(6) covers
only “acts done with the actual intent to cause
injury” and not “debts arising from recklessly or
negligently inflicted injuries” (emphasis added).
In the twenty years since Geiger, courts have
struggled to define the scienter necessary for “actual
intent.” Nearly all circuits considering this issue
post-Geiger have held that an action qualifies as
“willful and malicious” for purposes of Section
523(a)(6) where a debtor acted with (1) actual,
subjective intent to cause injury, or (2) certainty or
“substantial certainty” that injury would result.
While formulations of this test vary between the

2
circuits in a number of respects,1 an intractable
circuit split has arisen with respect to one critical
issue—whether the “substantial certainty” prong
requires proof of the debtor’s subjective thought
process (i.e., requiring subjective belief that injury is
“substantially certain”) or whether proof of the
objective certainty that the debtor’s conduct would
cause injury is sufficient to meet the willful and
malicious threshold.
The Fifth Circuit has held in In re Miller, 156
F.3d 598, 603 (5th Cir. 1998), and confirmed in
numerous subsequent opinions, that the “substantial
certainty” test does not require proof of subjective
intent to injure, but can be satisfied where injury is
objectively certain to result from a debtor’s actions,
based on the totality of the circumstances. The
Fourth Circuit, in an opinion predating the
judgment below, has adopted the Miller test. The
Seventh Circuit, although not citing Miller
specifically, has also announced that it follows an
objective approach. In contrast, the Ninth and
Tenth Circuits disagree with Miller and have instead
held that proof of the debtor’s subjective intent to
injure is required.
Indeed, while not the subject of this petition, courts are also
divided as to whether “willful” and “malicious” should be
treated as separate elements. See, e.g., In re Ausley, 507 B.R.
234, 240 (Bankr. W.D. Tenn. 2014) (observing that
“[s]ubsequent to Geiger, the Circuits are split as to whether the
‘willful and malicious’ requirements are to be addressed
separately, or whether the § 523(a)(6) inquiry is an integrated
test.”). This question is secondary to the more fundamental
issue of whether Geiger demands proof of subjective intent to
cause harm, or is satisfied where harm is objectively certain to
result from the debtor’s actions.
1

3
This growing circuit split has been recognized
for years at both the circuit court and district court
levels. See, e.g., In re Monson, 661 Fed. Appx. 675,
684 (11th Cir. 2016) (“As we recently noted, our
sister Circuits are split as to whether the
‘substantially certain’ prong of the standard requires
a subjective or objective standard.”); In re Margulies,
566 B.R. 318, 329 (S.D.N.Y. 2017), aff’d, 721 Fed.
Appx. 98 (2d Cir. 2018) (“[T]here is a long-standing
Circuit split regarding the ‘substantial certainty’
test, and whether it ought be judged subjectively or
objectively . . . . That split persists.”); In re Smithey,
03-64290, 2005 WL 6490601, at *4 (Bankr. N.D. Ga.
Feb. 9, 2005) (“A post-Geiger split amongst Circuit
and Bankruptcy Courts illustrates that the scope of
the requisite intent needed to establish willful
conduct continues to be unclearly defined.”).
For debtors and creditors litigating whether a
debt is dischargeable, the stakes are considerable.
Debtors found liable for egregious acts, like those
involved in the instant case (i.e., the theft or misuse
of trade secrets), routinely seek to discharge in
bankruptcy what amounts to millions of dollars of
debts owed for injuries flowing from the debtors’
wrongful conduct. As the law currently stands,
bankruptcy courts tasked with resolving disputes
over the dischargeability of those debts must
navigate a web of inconsistent precedent. Courts
within those circuits that have not yet weighed in on
the subjective/objective debate face even greater
uncertainty, as some district courts within nearly all
of those circuits have been forced to decide whether a
debt is dischargeable without a defined standard to
guide those courts through the adjudication process.

4
In the case at bar, two courts—the United
States District Court for the District of Alaska and
the Superior Court of Arizona in Maricopa County—
found that Respondent Charles Taylor Muhs
(“Muhs”) willfully and maliciously stole trade secrets
from his employer, Petitioner TKC Aerospace, Inc.
(“TKCA”), as part of a plan to divert on-going
contracting opportunities to a competitor. Based
upon the findings that Muhs willfully and
maliciously stole trade secrets, a judgment in excess
of $20 million was entered against him. Departing
from the Fifth Circuit, the Seventh Circuit, and its
own prior precedent, and ignoring a mountain of
facts detailing Muhs’ betrayal of his employer’s trust
and brazen use of TKCA trade secrets to aid a
competitor and harm TKCA, the Fourth Circuit
granted Muhs’ appeal and held it was not clear that
Muhs’ theft of TKCA’s trade secrets and assisting a
competitor constituted inflicting a “willful and
malicious” injury upon TKCA sufficient to render his
debt non-dischargeable. In its ruling, the court
declined to consider whether Muhs’ conduct satisfied
the objective “substantial certainty” test, although it
was objectively certain that injury to TKCA would
result from Muhs’ theft of TKCA trade secrets and
his handing them to a competitor. In granting Muhs’
appeal and requiring TKCA to establish Muhs’
subjective intent to injure, despite the objective
certainty that injury to TKCA would result from
Muhs’ misappropriation of TKCA trade secrets, the
Fourth Circuit deepened the circuit split over the
measure of proof needed to establish the intent to
cause a “willful and malicious injury” under the
Bankruptcy Code.

5
Moreover, the decision below constitutes an
unprecedented attack on the Uniform Trade Secrets
Act (“UTSA”) and the Bankruptcy Code’s protections
for creditors who have suffered a willful and
malicious misappropriation of trade secrets. Until
the Fourth Circuit’s decision that is the subject of
this appeal, no court had held that that a debtor
found liable for a willful and malicious theft of trade
secrets under the UTSA could escape the
Bankruptcy Code’s prohibition on discharging debts
arising from a “willful and malicious injury by the
debtor to another”.
As a result, the Fourth Circuit’s opinion
threatens to undermine the UTSA and make it more
difficult for victims of trade secret misappropriation
to protect their rights.
An objective test for
“willfulness” is necessary in order to prevent debtors
like Muhs, whose well-documented actions against
his employer would undoubtedly create an objective
“substantial certainty” of harm, from discharging
judgments against them in bankruptcy. In both
reasoning and result, the Fourth’s Circuit’s decision
is flawed.
This Court should not allow that decision to
stand. The writ should be granted, and the Fourth
Circuit’s judgment should be reversed.
OPINIONS BELOW
The Fourth Circuit’s decision below is
reported at 923 F.3d 377 and reproduced at App. 1a.
The Order of the United States Bankruptcy Court
for the Eastern District of Virginia, granting TKCA’s
motion for summary judgment on the issue of
nondischargeability, is reproduced at App. 34a, and

6
the opinion of the United States District Court for
the Eastern District of Virginia, affirming that
decision on appeal (before it was reversed by the
Fourth Circuit), is reproduced at App. 30a.
While not the subject of this petition, a prior
Order of the bankruptcy court and opinion of the
district court in this case—in which the district court
ultimately ruled that the doctrine of collateral
estoppel barred re-litigation of the facts in the
Alaska case and, therefore, that any decision as to
nondischargeability of the judgment against Muhs
should be made based on the record in those earlier
proceedings—are reproduced at App. 48a and App.
38a, respectively. The district court opinion is also
available at 2017 WL 4638588.
The Fourth Circuit’s judgment denying
rehearing in this case is reproduced at App. 50a.
JURISDICTION
The Fourth Circuit entered judgment on May
8, 2019.
Petitioner filed a timely petition for
rehearing en banc, which was denied on June 4,
2019. This Court’s jurisdiction is invoked under 28
U.S.C. § 1254(1).
STATUTE INVOLVED
11 U.S.C. § 523(a)(6) provides as follows:
(a) A discharge under section
727, 1141, 1228(a), 1228(b), or 1328(b)
of this title does not discharge an
individual debtor from any debt . . . . .

7
(6) for willful and malicious
injury by the debtor to another entity or
to the property of another entity.
STATEMENT OF THE CASE
I.

Two Courts Have Found Muhs Liable for
Willful and Malicious Theft of Trade
Secrets.

Two courts, the United States District Court
for the District of Alaska and the Superior Court of
Arizona in Maricopa County, found that Muhs
willfully and maliciously stole trade secrets from his
employer, TKCA, as part of a plan to divert on-going
contracting opportunities to a competitor.
From TKCA’s inception in 2005 until 2011,
Muhs acted as TKCA’s Vice President of Business
Development. TKCA specialized in aircraft
procurement, logistics, and support. App. 3a–4a. In
that role, Muhs had access to TKCA’s proprietary
information, which enabled TKCA to pursue and win
aviation-related contracts with the Department of
State (“DoS”). Id. Given his key role and access to
confidential information, TKCA and Muhs agreed to
a non-disclosure/non-compete agreement prohibiting
him from disclosing TKCA proprietary information
to third parties and competing against TKCA. Id.
In disregard of his agreement with TKCA,
Muhs secretly began working with a competitor of
TKCA, Phoenix Heliparts, Inc. (“PHP”), funneling
confidential TKCA information and documents to
enable PHP to steal TKCA work. Id. Ultimately, in
September 2011, Muhs and PHP used TKCA

8
information to win a $24 million DoS Dash 8
(Aircraft) Contract that DoS would have awarded to
TKCA absent Muhs’ theft of TKCA trade secrets and
Muhs’ efforts to thwart TKCA’s attempts to bid for
that work. App. 139a–140a.
Upon discovering the Muhs/PHP scheme,
TKCA filed two lawsuits in the fall of 2011: one
against Muhs, individually, in the District of Alaska
and a second against PHP in the Superior Court of
Arizona in Maricopa County. App. 4a–5a. In both
actions, TKCA sought relief under the UTSA, as
adopted by Arizona and Alaska, arising from Muhs
and PHP’s misappropriation of TKCA’s trade secrets.
Id. In response to TKCA’s suit, Muhs moved to stay
the Alaska action, in favor of the Arizona state court
action, arguing that both cases sought identical
relief and involved the same factual and legal
issues—the “fundamental linchpin of both being the
alleged wrongdoing of Muhs” (i.e., through his
misuse of TKCA confidential information to assist a
competitor). App. 56a–57a. If TKCA prevailed in
the Arizona case against PHP, Muhs admitted, “then
[he] would be collaterally estopped from arguing
differently” in the Alaska case. App. 5a. Despite
TKCA’s opposition to the motion to stay the action
against Muhs, the Alaska court decelerated its
schedule to allow the Arizona court to proceed to
trial on whether PHP and Muhs conspired to steal
TKCA trade secrets and take TKCA’s work. Id.
Following a 40-day bench trial, the Arizona
state court entered judgment in favor of TKCA and
against PHP on the Arizona UTSA claim. App. 6a.
The court entered Judgment in the total amount of
$20,295,782.58,
including
$13,530.521.72
in

9
exemplary damages on account of the court’s finding
that PHP engaged in “willful and malicious
misconduct,” and “willfully and maliciously
misappropriated TKCA’s trade secrets” to pursue
and win the $24 million DoS Dash 8 contracting
opportunity.2 Id. Among other findings, the Arizona
court held that “PHP formed an agency
relationship” with Muhs and “[b]ecause of th[is
relationship], this court will attribute [Muhs’]
acts to PHP.” Id. (emphasis added). It was Muhs,
PHP’s agent, who “acted with an evil mind intending
to injure TKCA by intentionally interfering with
TKCA’s contracts and opportunities, and then using
TKCA’s proprietary information to misappropriate
those opportunities.” App. 9a (emphasis in original).
He was the one with access to TKCA’s trade secrets,
and he was the one who passed those trade secrets
on to PHP to enable PHP to take TKCA’s business.
The Arizona court did not stop there as it
detailed Muhs’ plan to misappropriate TKCA trade
secrets so that PHP could steal TKCA work. The
evidence
established
that
Muhs
uploaded
approximately 1600 TKCA documents, including
many that had been marked “strictly confidential,”
onto PHP’s server, including:
• TKCA proposals to DoS
• TKCA Business Plans
• TKCA pricing information
• TKCA statements of work
• TKCA Evaluation Notices
The Arizona statute specifically provides that exemplary
damages are available only “[i]f willful and malicious
misappropriation exists.” App. 6a, n. 2 (quoting Ariz. Rev. Stat.
Ann. § 44-403(B)).

2

10
App. 80a–90a, 143a–144a, 149a–150a. On at least
one occasion, Muhs diverted a signed letter of intent
sent to TKCA by an aircraft manufacturer (which
contained confidential information about DoS needs,
the aircraft that met those needs, pricing, terms, and
conditions) to PHP. App. 79a–80a. Through the use
of the information contained in these documents,
PHP was able to successfully bid on a $24 million
DoS contract that it never could have otherwise won.
Id. As part of the plan to assist TKCA’s new
competitor, PHP, Muhs also “withheld vital
information from TKCA so that PHP could establish
a material and temporal advantage [over TKCA]
in preparing a successful proposal in response to
the DoS solicitation.” App. 149a. The Arizona
court even found that PHP, through its agent
Muhs, “acted with an evil mind intending to
injure TKCA by intentionally interfering with
TKCA’s contracts and opportunities and then
using TKCA’s proprietary information to
misappropriate those opportunities.” App. 9a.
(emphasis added).3 As was evident from the detailed
findings in the Arizona court’s sixty-one page
decision, Muhs and PHP successfully schemed to use
TKCA trade secrets to allow PHP to steal the DoS
Dash 8 contracting opportunity, which naturally
“harmed” TKCA. App. 140a–156a.
On October 22, 2015, after reviewing the
Arizona court’s record, the Alaska court applied
collateral and equitable estoppel to grant TKCA’s
motion for summary judgment, holding that Muhs
The record detailed countless additional acts of misconduct by
Muhs and his confederates at PHP, including destruction of
documents. App. 96a–100a.
3

11
stole TKCA trade secrets, and then awarded
exemplary damages to TKCA under the Alaska
UTSA, based on Muhs’ willful and malicious
misappropriation of TKCA trade secrets. App.
10a, 51a-53a.
II.

Muhs Has Sought to Discharge the
Alaska Judgment in Bankruptcy, and the
Fourth Circuit’s Latest Decision May
Allow Him To Do So.

On July 1, 2016, and shortly after the Alaska
Judgment had been domesticated in Fairfax County,
Virginia, Muhs filed a bankruptcy petition under
Chapter 7 of Title 11 of the United States Code in
the Bankruptcy Court for the Eastern District of
Virginia in an effort to discharge the Alaska
judgment. App. 11a. On October 11, 2016, TKCA
filed an adversary proceeding against Muhs alleging
that the Alaska Judgment is not dischargeable in
Bankruptcy under 11 U.S.C. §§ 523(a)(2), (4), and
(6).4
App. 11a–12a. In its complaint, TKCA
represented that the Alaska and Arizona courts’
findings—including a finding that Muhs willfully
and maliciously misappropriated trade secrets in
violation of the UTSA—precluded Muhs from
discharging the judgment in Bankruptcy.
On November 3, 2017, after an interlocutory
appeal to the district court, the bankruptcy court
entered summary judgment in TKCA’s favor, holding
that Muhs’ debt to TKCA is nondischargeable under
11 U.S.C. § 523(a)(6). App. 34a–37a. The court held:
The bankruptcy court had jurisdiction over that adversary
proceeding pursuant to 28 U.S.C § 1334.

4

12
The Alaska court, adopting the findings
of the Superior Court of Arizona,
necessarily
found
that
[Muhs’]
misappropriation of trade secrets rose
to the level of willful and malicious
when it awarded exemplary damages
under its version of the Uniform Trade
Secrets Act. Necessary to proving
nondischargeability
under
Section
523(a)(6) is that the plaintiff prove the
injury resulted from willful and
malicious conduct.
Id. at 36a.
On March 12, 2018, the United States District
Court for the Eastern District of Virginia affirmed
the bankruptcy court’s ruling, holding that the
nondischaregeability determination was “entirely
consistent with the facts underlying the Alaska
judgment, with the findings of the United States
District Court for the District of Alaska, with the law
of the case, with the mandate of this Court, and with
applicable bankruptcy law.” App. 33a. Muhs
subsequently appealed that ruling to the Fourth
Circuit, and on May 8, 2019, a Fourth Circuit panel,
contrary to the rulings of a United States District
Judge, a United States Bankruptcy Judge, and an
Arizona state court, reversed the district court’s
ruling. The Fourth Circuit panel held that it was not
clear that Muhs’ conduct was “willful and malicious,”
rendering his debt to TKCA nondischargeable in
bankruptcy,
because
“whether
Appellant
specifically had the requisite intent to injure
TKCA was neither actually decided in, nor
essential to, the Alaska Action.” App. 26a

13
(emphasis added). The court remanded this case for
further proceedings, which will likely now involve a
trial to re-litigate the facts already found in the
Arizona and Alaska actions.
Petitioner subsequently filed a petition for
rehearing en banc, which the Fourth Circuit denied
on June 4, 2019. App. 50a.
REASONS FOR GRANTING THE PETITION
In the twenty years since Geiger, courts have
struggled to define the state of mind that must be
proven in order to establish that a debtor’s conduct
was “willful and malicious” for purposes of
nondischargeability under Section 523(a)(6) of the
Bankruptcy Code. Three circuits—the Fifth Circuit,
the Seventh Circuit, and the Fourth Circuit (in an
opinion predating the decision below) have held that
it is sufficient to prove harm was objectively
“substantially certain” to result from debtor’s
conduct. The Ninth and Tenth Circuits disagree
with that approach, instead requiring proof of the
debtor’s subjective intent to cause harm or subjective
belief that injury was “substantially certain” to
result from his or her conduct in order for a
judgment to be nondischargeable. This Court’s
intervention is needed to resolve an intractable
division between the circuits on this question of
significant economic and legal importance.
Moreover, this Court’s intervention is needed
in order to protect the rights of victims of “willful
and malicious” trade secret thefts. The Fourth
Circuit’s decision makes plain that adoption of a
purely subjective test for “willfulness” under Section
523(a)(6) allows Muhs and others like him, whose

14
brazen misconduct created an objective “substantial
certainty” of harm, to still seek discharge because
the debtor’s state of mind was not detailed in the
trial court’s finding of a “willful and malicious” trade
secret misappropriation.
Had the Fourth Circuit applied the objective
test adopted by the Fifth Circuit, the Seventh
Circuit, and its own prior precedent, Muhs’ debt
would certainly have been classified as the result of
a “willful and malicious” injury and, therefore,
nondischargeable under Section 523(a)(6), as there is
no objective doubt as to whether the willful and
malicious theft of TKCA’s trade secrets to assist a
TKCA competitor constituted a “willful and
malicious injury” under Bankruptcy Code Section
523(a)(6). Because of the egregiousness of Muhs’
conduct, the deepening of this circuit split, and the
Fourth Circuit’s refusal to reconsider its position,
this is an ideal case in which to settle this ongoing
dispute, and resolve the split in authority.
Certiorari should be granted.
I.

There is a Clear Circuit Split Over
Whether Conduct Objectively
“Substantially Certain” to Result in
Injury Qualifies as “Willful and
Malicious” Under Section 523(a)(6).

Nearly all circuits have held that a debtor’s
conduct qualifies as “willful and malicious” for
purposes of Section 523(a)(6) where he or she acted
with (1) actual, subjective intent to cause injury, or
(2) certainty or “substantial certainty” that injury
would result. However, the circuits are sharply
divided as to whether the “substantial certainty”

15
prong requires proof of the debtor’s subjective beliefs
(i.e., requiring subjective belief that injury is
“substantially certain”) or whether proof of the
objective certainty that the debtor’s conduct would
cause injury is sufficient. This split has been widely
acknowledged, has deepened, and requires this
Court’s intervention.
A.

The Fifth Circuit, the Seventh Circuit,
and the Fourth Circuit (in a Decision
Predating the Opinion Below) Have
Adopted an Objective “Substantial
Certainty” Test.

Three circuits—the Fifth Circuit, the Seventh
Circuit, and the Fourth Circuit (in a decision
predating the opinion below) have adopted an
objective test for “willful and malicious injury” under
Section 523(a)(6).
1. The Fifth Circuit in In re Miller, 156 F.3d 598,
606 (5th Cir. 1998) was the first circuit to formally
adopt an objective test for “willfulness” under
Section 523(a)(6), and that decision remains one of
the most thorough discussions of the issue by any
Circuit Court of Appeals. Similar to Muhs, Miller
was
found
liable
in
state
court
for
“misappropriate[ing] proprietary information or
misus[ing] trade secrets” of his former employer, and
a $1 million judgment was entered against him in
favor of that company. Id. at 601. When Miller
sought to discharge his debt in bankruptcy, his
former employer initiated an adversary proceeding
seeking a determination that the judgment was
nondischargeable under Section 523(a)(6), among
other grounds. Id. The bankruptcy court granted

16
the employer’s motion for summary judgment,
holding that the debt was nondischargeable,
although not under Section 523(a)(6) specifically. Id.
On appeal, the district court held that the debt was
also nondischargeable under Section 523(a)(6),
reasoning that the “the jury’s finding that Miller had
misappropriated proprietary information or misused
trade secrets for his own advantage to the detriment
of [his employer]” qualified as a “willful and
malicious injury” for purposes of that section, and
that Miller was collaterally estopped from arguing
otherwise. Id.
The matter was then appealed to the Fifth
Circuit. As Geiger had been decided only months
earlier, the Fifth Circuit took this opportunity to
opine on the post-Geiger mental state that must be
proven for a debtor’s conduct to qualify as “willful
and malicious.”
Noting that Geiger “certainly
eliminates the possibility that ‘willful’ encompasses
negligence or recklessness,” but rather requires
“actual intent” to cause injury, the court went on to
consider three options. Id. at 603. The court
reasoned that “[t]he standard might be met by any
tort generally classified as an intentional tort,
by any tort substantially certain to result in
injury, or any tort motivated by a desire to
inflict injury.” Id. (emphasis added). The court
rejected the possibility that all “intentional torts”
should be considered “willful” under Geiger,
explaining that the label “intentional tort” has
grown too broad and encompasses acts which,
although wrongful, are not always certain to result
in harm. Id. at 604. “[R]ather than allow the
general classification of a tort to be a talisman,” the
court wisely chose to adopt a two-part test which had

17
itself served as an early definition of “intentional
tort.” Id. (citing Kenneth J. Vandevelde, A History
of Prima Facie Tort: The Origins of a General Theory
of Intentional Tort, 19 Hofstra L. Rev. 447, 447
(1990)). That test, which the court thus adopted, is
as follows: “an injury is ‘willful and malicious’ where
there is either an objective substantial certainty of
harm or a subjective motive to cause harm.” Id. at
606. As for Miller, the court held that the state court
jury failed to find either the “objective substantial
certainty of harm” or “subjective motive to cause
harm” needed to sustain the district court’s
judgment. Id.5 The matter was remanded for
further proceedings. Id.
The Fifth Circuit has reaffirmed its
commitment to an objective “substantial certainty”
test in numerous decisions following In re Miller. In
In re Williams, 337 F.3d 504, 511-12 (5th Cir. 2003)
the Fifth Circuit held, among other issues on appeal,
that a judgment against the debtor Williams for
“purposefully and willfully” violating a court’s Agreed
Final Judgment and Decree was nondischargeable in
bankruptcy. The court confirmed that conduct that
is objectively “substantially certain” to cause harm,
regardless of subjective intent, satisfies the test
for nondischargeability under Section 523(a)(6),
reasoning that “[e]ven if Williams did not intend to
injure the Union, the Agreed Judgment made him
In contrast, an Arizona judge issued a sixty-one page opinion
thoroughly detailing Muhs’ misconduct, and the harms that
befell TKCA as a direct and reasonably foreseeable result.
Under the objective “substantial certainty” test, those findings
undoubtedly qualify Muhs’ conduct as “willful and malicious,”
and
therefore
render
the
judgment
against
him
nondischargeable as a matter of law.

5

18
substantially certain that his acts would inflict
injury. The bankruptcy court properly found that
Williams’s violation of the Agreed Judgment resulted
in a willful and malicious injury.” Id. at 512.
Likewise, the Fifth Circuit confirmed the
objective “substantial certainty” test in In re
Vollbracht, 276 Fed. Appx. 360, 361 (5th Cir. 2007).
There, the court considered whether a judgment
against the debtor for civil assault was
nondischargeable under Section 523(a)(6). Id. The
bankruptcy court held that it was dischargeable, but
specifically failed to consider whether the debtor’s
conduct satisfied the “objective” test. Id. at 362. The
district court affirmed, but the Fifth Circuit reversed
the judgment below and remanded the case for
consideration of the “objective test,” explaining that
“[e]ven if Vollbracht subjectively did not intend any
harm, his conduct may still be objectively willful and
malicious.” Id. at n.6.
More recently, the Fifth Circuit has applied
the objective “substantial certainty” test in In re
Shcolnik, 670 F.3d 624, 630 (5th Cir. 2012). In that
case, the court considered whether a $50,000
judgment against the debtor Shcolnik for attorneys’
fees, pursuant to a Texas statute authorizing an
award of attorneys’ fees by an arbitrator, was
nondischargeable in bankruptcy under Section
523(a)(6). While the bankruptcy court granted
summary judgment for the debtor, holding as a
matter of law that the debt was dischargeable, the
Fifth Circuit, applying Miller, reversed and
remanded the case for further proceedings. Even
though “Texas law may allow the arbitrator to assess
attorneys’ fees in favor of a party without specifically

19
finding a willful and malicious injury,” the court held
that was not conclusive and Shcolnik may still have
“acted so as to create ‘an objective substantial
certainty of harm.’ ” Id. at 629-630.
2. The Seventh Circuit in Gerard v. Gerard, 780
F.3d 806, 811 (7th Cir. 2015), although not citing
Miller specifically, has also adopted an objective test
for “willful and malicious” injury under Section
523(a)(6). In Gerard, the court announced that
“willfulness is judged by an objective standard: it
‘can be found either if the ‘debtor’s motive was to
inflict the injury, or the debtor’s act was
substantially certain to result in injury.’’” Id. The
issue before the court in Gerard was whether a
judgment against the debtor for slander of title was
nondischargeable under Section 523(a)(6). Id. at
811-12. While both the bankruptcy court and the
district court held that “the state court jury’s slander
of title findings preclusively established” that the
debtor acted “willfully” under Section 523(a)(6), the
Seventh Circuit remanded the case for further
proceedings because there was a possibility that the
jury’s verdict was based on the debtor’s mere
“negligence.” Id.
3. The Fourth Circuit in In re Parks, 91 Fed.
Appx. 817, 819 (4th Cir. 2003), an unpublished
opinion predating the decision below in this case,
specifically adopted the Miller test for “willful and
malicious” conduct under Section 523(a)(6). The
debtor in that case, Parks, was found liable for
tortiously injuring (shooting) a man who entered his
store. Id. A money judgment was entered against
Parks, which he subsequently sought to discharge in
bankruptcy. Id. The bankruptcy court held that the

20
judgment was nondischargeable under Section
523(a)(6), the district court vacated that judgment,
then the Fourth Circuit vacated the judgment of the
district court and remanded the case with
instructions to reinstate the bankruptcy court’s
order. Id. at 819-820. The Fourth Circuit considered
all of the facts in the record surrounding Parks’
conduct, including that “Parks never claimed that
the shooting was a mistake or an accident” and that
that the victim’s mother “testified that her other son
[victim’s brother] had a hostile encounter with Parks
sometime before the shooting, suggesting a possible
motive.” It ultimately determined that the victim
satisfied the test for “willful and malicious” conduct
under Miller, and that the judgment against Parks
was therefore nondischargeable. Id.
Since Parks, courts within the Fourth Circuit
have accepted as settled law that the Fourth Circuit
follows the two-part subjective intent and objective
substantial certainty test set out in Miller, including
as recently as this year. See In re Anderson, CV
TDC-18-0977, 2019 WL 1227925, at *10 (D. Md.
Mar. 15, 2019); In re Cassidy, 595 B.R. 507, 513–14
(Bankr. W.D. Va. 2019). As explained by the United
States Bankruptcy Court for the District of
Maryland in In re Abell, No. 17-00314, 2018 WL
3624462, at *7 (Bankr. D. Md. July 26, 2018):
“Subsequently, the Fourth Circuit has
adopted the so-called “objective
substantial certainty test” or
“subjective motive” test. In sum, the
test “is whether the debtor acted with
‘substantial certainty [that] harm
[would result] or a subjective motive to

21
cause harm.’ ” In re Parks, 91 Fed.
Appx. at 819 (citations omitted;
emphasis added).
In its opinion below, the Fourth Circuit panel
in this case did not follow the two-part test
announced in Parks, ignoring the objective certainty
test adopted in that decision, despite the detailed
record evidence here that Muhs’ behavior would
satisfy the objective certainty test. In reversing the
district court and the bankruptcy court, the panel
employed a limited definition of willfulness that fails
to address the objective element adopted in Parks
and followed by courts in the Fourth Circuit. For
these and other reasons discussed herein, that
decision is flawed.
4. Although no other circuits have directly
adopted an objective test for “wilfullness” under
Section 523(a)(6), numerous district courts within
those Circuits have opted to follow the objective test.
See, e.g., In re White, 551 B.R. 814, 822 (Bankr. S.D.
Ohio 2016) (“‘[A]n injury is willful and malicious
where there is either an objective substantial
certainty of harm or a subjective motive to cause
harm.’ ”) (quoting In re Shcolnik); In re Shelmidine,
519 B.R. 385, 392 (Bankr. N.D.N.Y. 2014) (“To
establish that a debt is one that arises from a willful
injury, a plaintiff must make a showing of debtor’s
subjective intent to cause injury or debtor’s objective
knowledge that his acts were substantially certain to
cause injury.”); In re Swasey, 488 B.R. 22, 38 (Bankr.
D. Mass. 2013) (“In the First Circuit, many courts,
including this Court, have adopted the objective test
without recognizing the split of authority among
several circuits.”).

22
B.

The Ninth and Tenth Circuits
Disagree with Miller and the Objective
Approach and Have Instead Required
Proof that a Debtor Subjectively
Believed Injury was “Substantially
Certain” to Occur.

In contrast, two circuits—the Ninth and
Tenth Circuits—have directly rejected the objective
test, holding instead that a debtor’s conduct only
qualifies as “willful and malicious” for purposes of
Section 523(a)(6) if a debtor (1) subjectively intended
to cause harm or (2) subjectively believed that injury
was “substantially certain” to result from his or her
conduct.
1. The Ninth Circuit’s decision in In re Su, 290
F.3d 1140, 1145–46 (9th Cir. 2002) is one of the few
published opinions to specifically reject the objective
approach followed by the Fifth Circuit and others.
The debtor Su in that case had injured another
driver after running a red light. Id. at 1141. A jury
found that he was liable for negligence and “malice
by clear and convincing evidence” and entered a
money judgment against him in favor of the injured
driver. Id. The issue before the court was whether
the judgment against Su was nondischargeable
under Section 523(a)(6) of the Bankruptcy Code.
There had been some confusion among the
lower courts as to the standard for “willfulness”
applied in the Ninth Circuit for purposes of Section
523(a)(6). In In re Su, the Ninth Circuit confirmed
that it follows a purely subjective test for
“willfulness” under Section 523(a)(6), and provided
limited explanation for its rejection of the objective

23
approach. In the opinion of the Ninth Circuit,
“§ 523(a)(6) renders debt nondischargeable when
there is either a subjective intent to harm, or a
subjective belief that harm is substantially
certain.” Id. at 1144. “By its very terms,” the court
reasoned, “the objective standard disregards the
particular debtor’s state of mind and considers
whether an objective, reasonable person would have
known that the actions in question were
substantially certain to injure the creditor.” Id. at
1145. According to the Ninth Circuit, the objective
standard resembles too closely the “reckless
disregard” standard used in negligence, which is not
intended to fall within the scope of Section 523(a)(6).
Id. at 1145-46. “The subjective standard,” the court
has explained, “correctly focuses on the debtor’s state
of mind and precludes application of § 523(a)(6)’s
nondischargeability provision short of the debtor’s
actual knowledge that harm to the creditor was
substantially certain.” Id. at 1146. The Ninth
Circuit remanded the case for further consideration
in light of this newly articulated subjective standard.
2. The Tenth Circuit, in the unpublished opinion
In re Englehart, 229 F.3d 1163 (10th Cir. 2000), has
likewise expressed disagreement with the objective
test. According to the Tenth Circuit, “the ‘willful
and malicious injury’ exception to dischargeability in
§ 523(a)(6) turns on the state of mind of the debtor,
who must have wished to cause injury or at least
believed it was substantially certain to occur . . . .
[w]hen injury was ‘neither desired nor in fact
anticipated by the debtor,’ it is outside the scope of
the statute.” Id.

24
The Tenth Circuit in Englehart concluded that
those courts adopting the objective test are “not only
at odds with . . . Geiger,” but also “internally
inconsistent.” Id. The court expressed its opinion
that the Fifth Circuit in Miller misinterpreted the
traditional definition of “intentional torts”—which
the Fifth Circuit cited and adopted as its test for
“willfulness” under Section 523(a)(6)—suggesting
that it is in fact a subjective test, not an objective
test. Id. However, the court provided no basis for
this contention and offered no further justification as
to why a purely subjective test is more desirable
than the objective test or more in keeping with the
spirit of the Bankruptcy Code or this Court’s Geiger
opinion.
The Englehart opinion further illustrates the
fundamental weakness of a purely subjective
approach: rendering “substantial certainty” a purely
subjective inquiry essentially collapses that second
prong of the “willfulness” test into the first prong—
subjective intent to injure. The debtor in that case
had failed to pay her husband’s substantial medical
expenses despite having received insurance proceeds
for such expenses. Id. The question before the court
was whether her resultant debt to the local medical
center was nondischargeable in bankruptcy under
Section 523(a)(6). Id. The bankruptcy court held
that it was dischargeable because the debtor lacked
subjective intent to cause harm. The court failed to
even consider the second prong of the “willfulness”
inquiry
post-Geiger—whether
there
was
a
“substantial certainty” of harm. Id. The Tenth
Circuit, because it had classified that second prong
as a subjective inquiry, essentially conceded in its
opinion that the second prong was, therefore,

25
redundant of the first and affirmed the decision of
the district court, affirming the bankruptcy court.
See id. (“[W]hile the bankruptcy court did not
specifically address the question of substantial
certainty, given the subjective character of that
inquiry, the court’s broad findings regarding
the absence of evidence concerning state of
mind suffice to settle that question as well.”)
(emphasis added).
3. While not specifically rejecting the objective
approach, or even discussing the circuit split, the
Sixth Circuit in In re Markowitz, 190 F.3d 455, 464
(6th Cir. 1999) and the Eighth Circuit in In re Patch,
526 F.3d 1176, 1180–81 (8th Cir. 2008) have also
articulated their own form of purely subjective tests
for “willfulness” under Section 523(a)(6).
II.

Resolving this Circuit Split in Favor of
the Objective “Substantial Certainty”
Test is of Considerable Importance

Individuals found liable for committing
egregious acts, including theft of trade secrets,
routinely seek to discharge what amounts to millions
of dollars in judgments entered against them
through bankruptcy. As the law currently stands,
bankruptcy courts tasked with resolving disputes
over the dischargeability of those debts must
navigate a web of inconsistent precedent. Courts
within those circuits that have not weighed in on the
subjective/objective debate face even greater
uncertainty, as some district courts within nearly all
of those circuits have issued conflicting decisions
identifying the proof needed to find that the debtor’s
acts caused a willful and malicious injury.

26
The question before this Court is profoundly
important, as it will directly impact victims suffering
a loss arising from a debtor’s willful and malicious
acts. Courts across the country have observed that
whether a subjective or objective test applies in the
“willful and malicious” analysis under Section
523(a)(6) has the potential to directly affect the
outcome of dischargeability determinations. See,
e.g., In re Rezykowski, 493 B.R. 713, 722 n.16
(Bankr. E.D. Pa. 2013) (“The use of a subjective
standard, as opposed to an objective standard, may
materially effect the outcome of a dischargeability
proceeding.”); In re Cardin, 11-52077, 2013 WL
1092118, at *8 (Bankr. E.D. Tenn. Jan. 31, 2013)
(“Whether the substantial certainty test is an
objective or subjective inquiry can determine the
outcome of a dischargeability determination.”).
Here, Muhs’ scheme to steal business directly
from TKCA—the details of which were thoroughly
documented in a sixty-one page opinion issued by the
Arizona state court—would qualify as “substantially
certain” to cause injury to TKCA under an objective
analysis, and would therefore be nondischargeable
under Section 523(a)(6). As set forth above, Muhs
uploaded to a competitor’s network approximately
1600 TKCA documents, including many that had
been marked “strictly confidential,” including TKCA
proposals to DoS, TKCA Business Plans, TKCA
pricing information, TKCA statements of work, and
TKCA Evaluation Notices. App. 80a–90a, 143a–
144a, 149a–150a. Through the use of the information
contained in these documents and through Muhs’
assistance in preparing the PHP proposal to DoS,
PHP was able to win a $24 million DoS contract. Id.
As part of the plan to assist TKCA’s new competitor,

27
PHP, Muhs also “withheld vital information from
TKCA so that PHP could establish a material and
temporal advantage [over TKCA] in preparing a
successful proposal in response to the DoS
solicitation.” App. 149a. But, because the Fourth
Circuit panel determined that the record below
didn’t sufficiently detail Muhs’ intent to injure
TKCA when he stole TKCA trade secrets to steer a
$24 million contract to a competitor, that ruling
might allow Muhs to wipe away this debt forever.
The case before this Court is also considerably
important because the decision below constitutes an
unprecedented attack on the Uniform Trade Secrets
Act and, in particular, the Bankruptcy Code’s
protections for creditors who have suffered a willful
and malicious misappropriation of trade secrets.
Neither counsel, nor any of the lower courts, have
identified any published opinions by any bankruptcy
court holding that a debtor who was found liable for
willful and malicious trade secret misappropriation
may discharge that debt in bankruptcy.
The bankruptcy court below (affirmed by
the district court, but later reversed by the
Fourth Circuit) correctly found that the “Alaska
court’s
findings
satisfy
the
standard
for
nondischargeability” under Section 523(a)(6). App.
35a. The Alaska court found that Muhs injured
TKCA
through
a
willful
and
malicious
misappropriation of trade secrets when it awarded
TKCA exemplary damages. That ruling is consistent
with all other rulings from the Fourth Circuit, and
beyond, holding that a finding of willful and
malicious misappropriation prevents discharge
under Section 523(a)(6).

28
The decision of the United States Bankruptcy
Court for the Middle District of North Carolina in In
re Peterson, No. 17-10066, 2018 WL 5883913, at *7
(Bankr. M.D.N.C. Nov. 6, 2018) is instructive. In
that case, under facts very similar to those here, the
court held that a debt arising from a willful and
malicious theft of trade secrets was not
dischargeable. The debtor in Peterson was found
liable by a Maryland court for conducting a business
in direct competition with his employer, in violation
of North Carolina’s version of the UTSA. Id. at 1-2.
The court awarded the employer (Evapco) exemplary
damages “as the Defendants had willfully and
maliciously violated the North Carolina Trade
Secrets Act.” Id. at 2. Following entry of judgment
against him, the debtor then filed for bankruptcy in
North Carolina. Id. Because “the findings of the
Maryland Judgment [we]re sufficient to establish
that the Defendant’s conduct was both willful and
malicious with respect to the $993,950 award of
punitive damages for purposes of § 523(a)(6),” the
North Carolina Bankruptcy Court held that the
debtor was collaterally estopped from arguing
otherwise and ordered that the debt was
nondischargeable. Id. at 7.
Similarly, the Eastern District of Virginia
reached the same conclusion in La Bella Dona
Skin Care, Inc. v. Harton (In re Harton), Ch. 13
Case No. 12-36221-KRH, Adv. No. 13-03028-KRH,
2013 WL 5461832, at *4 (Bankr. E.D. Va. Oct. 1,
2013). Like this case, Harton was an adversary
proceeding that addressed the dischargeability of a
judgment stemming from willful and malicious
misappropriation of trade secrets under the UTSA.

29
Id. at 1. In Harton, the court applied collateral
estoppel to a larceny claim under Section 523(a)(4),
while acknowledging that Harton’s conduct “shares
all of the elements of the kind excepted from
discharge under 11 U.S.C. § 523(a)(6),” on account of
Harton’s “willful and malicious” conduct, which was
“actually litigated in State Court.” Id. at 4. The
court held that the judgment was nondischargeable.
As in Harton, the Alaska court’s finding in this
matter that Muhs willfully and maliciously
misappropriated trade secrets should prevent
discharge under Section 523(a)(4) and (6).
The Fourth Circuit’s opinion, reversing the
bankruptcy court and district court, breaks with this
well-established line of cases and threatens to
undermine the UTSA’s protections for victims of the
theft of trade secrets. Judgment creditors should not
be required to prove that a debtor subjectively
intended to cause harm or subjectively believed harm
was certain to follow his or her actions in order for a
judgment to be ruled nondischargeable under section
523(a)(6) in cases where it was objectively certain
that harm would result from the debtor’s actions.
An objective test for “willfulness” provides a
bright-line test and is necessary in order to prevent
debtors like Muhs, whose well-documented actions
against his employer would undoubtedly pose an
objective “substantial certainty” of harm, from
discharging judgments against them in bankruptcy.
If not, the second prong of the “willfulness” test,
adopted by nearly all courts post-Geiger, would be
rendered virtually meaningless.

30
In both reasoning and result, the Fourth’s
Circuit’s decision is fatally flawed. This Court
should reverse the decision of the Fourth Circuit
below and resolve the circuit split in favor of the
objective “substantial certainty” analysis adopted by
the Fifth Circuit in Miller, the Seventh Circuit, and
the Fourth Circuit in its own prior opinion. Because
of the egregiousness of Muhs’ conduct here, the
deepening of this circuit split, and because the
Fourth Circuit has refused to reconsider its position,
this is an ideal case in which to settle this ongoing
dispute.
CONCLUSION
For the foregoing reasons, the petition for a
writ of certiorari should be granted.
Respectfully submitted,
NICHOLAS M. DEPALMA
COUNSEL OF RECORD
STEPHEN K. GALLAGHER (ADMISSION PENDING)
DOUGLAS PROXMIRE (ADMISSION PENDING)
KEVIN W. WEIGAND (ADMISSION PENDING)
VENABLE LLP
8010 TOWERS CRESCENT DRIVE, SUITE 300
TYSONS, VIRGINIA 22182
PHONE: (703) 760-1647
FAX: (703) 821-8949
nmdepalma@venable.com
skgallagher@venable.com
dcproxmire@venable.com
kwweigand@venable.com

31
WILLIAM B. KING (ADMISSION PENDING)
VENABLE LLP
750 EAST PRATT STREET, SUITE 900
BALTIMORE, MARYLAND 21202
PHONE: (410) 244-7510
FAX: (410) 244-7742
wbking@venable.com
Counsel for Petitioner
September 3, 2019

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
Page
APPENDIX A:
Published Opinion and Judgment of
The United States Court of Appeals
For the Fourth Circuit
entered May 8, 2019 ...................................... 1a
APPENDIX B:
Memorandum Opinion and Order of
The United States District Court
For the Eastern District of Virginia
entered March 12, 2018 ............................... 30a
APPENDIX C:
Order of
The United States Bankruptcy Court
For the Eastern District of Virginia
Re: Granting Summary Judgment
entered November 3, 2017 ........................... 34a
APPENDIX D:
Memorandum Opinion and Order of
The United States District Court
For the Eastern District of Virginia
entered October 16, 2017 ............................. 38a
APPENDIX E:
Order of
The United States Bankruptcy Court
For the Eastern District of Virginia
Re: Denying Motion for Summary Judgment
entered March 15, 2017 ............................... 48a

iia
APPENDIX F:
Order of
The United States Court of Appeals
For the Fourth Circuit
Re: Denying Petition for Rehearing En Banc
entered June 4, 2019 .................................... 50a
APPENDIX G:
Judgment of
The United States District Court
For the District of Alaska
Re: TKC Aerospace Inc. v. Muhs,
No. 3:11-cv-0189-HRH
entered March 7, 2016 ................................. 51a
APPENDIX H:
Order of
The United States District Court
For the District of Alaska
Re: TKC Aerospace Inc. v. Muhs,
No. 3:11-cv-0189-HRH
entered October 22, 2015 ............................. 54a
APPENDIX I:
Opinion of
The Superior Court of Arizona
Re: TKC Aerospace Inc. v. Phoenix
Heliparts Inc., CV 2011-018889
entered January 30, 2015 ............................ 73a

1a
[ENTERED: May 8, 2019]
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-1372
In re: CHARLES TAYLOR MUHS,
Debtor.
-----------------------------TKC AEROSPACE INC.,
Plaintiff - Appellee,
v.
CHARLES TAYLOR MUHS,
Defendant - Appellant.
Appeal from the United States District Court for the
Eastern District of Virginia, at Alexandria. Liam
O’Grady, District Judge. (1:17-cv-01304-LO-TCB)
Argued: March 19, 2019

Decided: May 8, 2019

Before MOTZ, KING, and THACKER, Circuit Judges.

2a
Reversed and remanded by published opinion. Judge
Thacker wrote the opinion, in which Judge Motz and
Judge King joined.
ARGUED: Richard George Hall, Annandale,
Virginia, for Appellant. Douglas Clark Proxmire,
VENABLE LLP, Tysons Corner, Virginia, for
Appellee. ON BRIEF: Stephen K. Gallagher, Kevin
W. Weigand, VENABLE LLP, Tysons Corner,
Virginia, for Appellee.
THACKER, Circuit Judge:
At the root of this appeal is a provision in the
United States Bankruptcy Code stating that a debt
“for willful and malicious injury by the debtor
to another entity” is nondischargeable in Chapter
7 bankruptcy. 11 U.S.C. § 523(a)(6) (emphasis
supplied). In 2016, Charles Taylor Muhs (“Appellant”)
filed for Chapter 7 bankruptcy and attempted to
discharge a judgment in excess of $20 million entered
by an Alaska district court against him and in favor
of TKC Aerospace, Inc. (“TKCA”). TKCA, however,
claims that the judgment is nondischargeable because
the damages award was based on Appellant’s willful
and malicious misappropriation of TKCA’s trade
secrets.
The bankruptcy court, applying collateral
estoppel principles, concluded that Alaska’s award of
damages to TKCA necessarily meant that Appellant
willfully and maliciously injured TKCA for purposes
of § 523(a)(6), granted summary judgment in favor of
TKCA, and determined that the entire judgment

3a
award was nondischargeable. The district court
affirmed.
We reverse. The Supreme Court has held that
§ 523(a)(6) requires “a deliberate or intentional
injury, not merely a deliberate or intentional act that
leads to injury.” Kawaauhau v. Geiger, 523 U.S. 57,
61 (1998) (emphases in original). Likewise, this court
has held that a creditor challenging dischargeability
under § 523(a)(6) must prove that the debtor had an
“inten[t] to injure.” In re Duncan, 448 F.3d 725, 730
(4th Cir. 2006). Because neither the Alaska district
court, nor the bankruptcy court, determined the
precise issue of whether Appellant intended to injure
TKCA, collateral estoppel and summary judgment
were inappropriate. Therefore, we remand to the
district court with instructions to remand to the
bankruptcy court for further proceedings.
I.
A.
Background
In 2007, Appellant became Vice President of
Business Development for TKCA, an Alaska
corporation specializing in aircraft procurement,
logistics, and support. In that capacity, Appellant
had access to TKCA’s proprietary information, and
his contract with TKCA prohibited him from
disclosing confidential information to any third party
or competing with TKCA for six months after his
employment terminated. From 2009 to 2011, TKCA
competed for and won Department of State (“DOS”)
contracts for Bombardier Dash 8 aircrafts, modified
to meet DOS needs. As part of this process, TKCA

4a
would -- with the help of Appellant -- submit proposals
to DOS describing how it would perform such
modifications.
On March 28, 2011, Appellant left his position
with TKCA to accept a position with Knowledge
International in Alexandria, Virginia, although he
continued to work for TKCA on a part-time basis.
Appellant also began to work closely with Phoenix
Heliparts, Inc. (“PHP”), an Arizona corporation and
(at the time) a competitor of TKCA, to secure aircraft
and develop bids for possible DOS solicitation. On
August 5, 2011, DOS issued a solicitation for up to two
more Dash 8 aircrafts, and PHP submitted a proposal.
DOS awarded the contract to PHP.
B.
The Alaska and Arizona Actions
1.
Parallel Litigation
On September 26, 2011, TKCA filed a lawsuit
in the District of Alaska against Appellant, alleging
breach of contract, breach of implied covenant of good
faith and fair dealing, breach of fiduciary duty, unjust
enrichment, tortious interference with prospective
business, fraud, and violation of the Alaska Uniform
Trade Secrets Act (the “Alaska Action”). See Compl.,
TKC Aerospace, Inc. v. Muhs, No. 3:11-cv-189 (D.
Alaska filed Sept. 26, 2011), ECF No. 1, at 12–17.
Specifically, the complaint alleged that Appellant
“stole a corporate business opportunity from TKCA
and delivered it to a competitor, using TKCA
proprietary information.” Id. at 2.

5a
On October 20, 2011, TKCA filed a parallel suit
against PHP in the Superior Court for Maricopa
County, Arizona, alleging misappropriation of trade
secrets under the Arizona Uniform Trade Secrets Act,
intentional interference with business expectancy,
unfair competition, and conversion.
See TKC
Aerospace, Inc. v. Phoenix Heliparts, Inc., No.
CV2011-128889 (Ariz. Sup. Ct. filed Oct. 20, 2011)
(the “Arizona Action”). Although he was a witness in
the Arizona Action, Appellant was not named as a
party. The Alaska Action and the Arizona Action
carried on simultaneously.
On February 21, 2012, Appellant filed a motion
to stay the Alaska Action. In support of the motion,
Appellant’s counsel -- the same counsel representing
PHP in the Arizona Action -- stated that the Arizona
Action “involv[ed] the same plaintiff . . . and same
factual and legal issues as those in the Alaska
Action,” and “[t]he underlying factual allegations in
[both complaints] are virtually verbatim, the
gravamen of the claims are identical, and the relief
requested is virtually identical.” J.A. 193.1 The
request for stay also stated, “this pending action is . . .
substantially similar to and significantly parallels the
Arizona Action,” id. at 199, and “[i]f TKCA prevails in
the Arizona Action, . . . then [Appellant] would be
collaterally estopped from arguing differently in this
Court,” id. at 214 n.3 (alterations omitted). The
Alaska court denied the motion to stay. After granting
summary judgment on some claims, however, on
March 8, 2013, the Alaska court deferred further
scheduling until the Arizona Action was complete.
Citations to the “J.A.” refer to the Joint Appendix filed
by the parties in this appeal.
1

6a
2.
The Arizona Judgment
Meanwhile, from March 2012 to October 2013,
the Arizona state court conducted a bench trial for
over 40 days on the issue of PHP’s liability regarding
TKCA’s trade secrets and PHP’s misconduct.
Ultimately, on January 30, 2015, the Arizona state
court entered judgment in favor of TKCA and against
PHP on the Arizona Uniform Trade Secrets Act claim,
the tortious interference claim, and the common law
unfair competition claim, in the total amount of
$20,295,782.58. This amount was broken down as
follows: $2,883,055.86 in lost profits; $3,882,205 in
research and development costs; and $13,530,521.72
in exemplary damages. As to the latter, the Arizona
state court stated, “PHP [must] pay exemplary
damages pursuant to A.R.S. § 44–403(B)[2] in an
amount double awarded to TKCA for its lost profit
and research and development costs.” J.A. 105. The
Arizona court found that PHP engaged in “willful and
malicious misconduct,” id. at 59, and “PHP willfully
and maliciously misappropriated TKCA’s trade
secrets,” id. at 66. It also found that “PHP formed an
agency relationship with [Appellant],” and “[b]ecause
of th[is relationship], this court will attribute
[Appellant’s] acts to PHP.” Id. at 74, 75.
But even though the Arizona state court
attributed Appellant’s actions to PHP, the Arizona
This statute provides, “If willful and malicious
misappropriation exists, the court may award exemplary
damages in an amount not exceeding twice any award [for actual
loss from misappropriation and unjust enrichment].” Ariz. Rev.
Stat. Ann. § 44-403(B).
2

7a
Action was not based solely on the actions of
Appellant. Indeed, the Arizona court also found the
following regarding Tina Cannon, president of PHP at
the relevant time, and her husband Darrin Cannon,
who was vice-president:
• “[T]he
Cannons
wiped
their
computers after receiving a litigation
hold letter and after trial started.
The court has rarely, if ever in a civil
matter, witnessed a party engage in
such flagrant misconduct and act
with such disregard for the truth and
such profound disrespect for the law.”
J.A. 60;
• “This court finds that Darrin Cannon
installed and ran CCleaner with the
intent to delete any evidence that
PHP had misappropriated TKCA’s
trade secrets and proprietary and
confidential information and also to
conceal PHP’s efforts to delete
relevant and material evidence of its
misconduct.” J.A. 60–61;
• “During trial, Tina Cannon and
[Appellant] provided improbable
explanations when confronted with
overwhelming evidence of PHP’s
efforts to secure the award of the
D[O]S contract.” J.A. 65; and
• Tina Cannon “induced [Appellant] to
violate his non-compete agreement
with TKCA and disclose TKCA trade

8a
secrets in further breach of his
employment contract.” J.A. 80.
Accordingly,
when
assessing
whether
exemplary damages were appropriate pursuant to
A.R.S. § 44–403(B) for willful and malicious
misappropriation, the Arizona court stated the
following, inter alia:
Attempts to conceal wrongful conduct
with respect to trade secrets provide
evidence of willful and malicious
misappropriation. . . .
[T]he following are just a few examples
that establish PHP willfully and
maliciously engaged in misconduct.
Despite knowing [Appellant’s] contract
with TKCA had a non- compete clause,
the Cannons induced [Appellant] to
misappropriate TKCA’s trade secrets in
order to compete directly with TKCA.
[Appellant], on behalf of PHP, withheld
vital information from TKCA so that
PHP could establish a material and
temporal advantage in preparing a
successful proposal in response to the
D[O]S solicitation. Tina Cannon knew
that [Appellant] had uploaded TKCA
proprietary documents to PHP’s servers
and PHP knowingly used the uploaded
documents to prepare its bid. PHP
further knew that using the uploaded
documents would harm TKCA. . . .
PHP intentionally wip[ed] company
servers after learning of a subpoena,

9a
erasing company laptops in the evening
and early morning hours before courtordered forensic imaging started. . . .
J.A. 87. After awarding exemplary damages, the
Arizona court noted that TKCA also satisfied its
burden of proof on punitive damages, explaining,
“This court finds by clear and convincing evidence
that PHP engaged in outrageous conduct and acted
with an evil mind intending to injure TKCA by
intentionally interfering with TKCA’s contracts and
opportunities and then using TKCA’s proprietary
information to misappropriate those opportunities.”
Id. at 88–89 (emphases supplied). The court made no
specific finding, however, that Appellant (who, again,
was not a party to the Arizona Action) intended to
injure TKCA.3
3.
The Alaska Judgment
Based on the Arizona judgment, on June 12,
2015, TKCA filed a motion for summary judgment in
the Alaska Action. Without holding a hearing, the
Alaska court granted the motion on October 22, 2015.
It reasoned that, even though Appellant was not a
party to the Arizona Action, the Arizona court’s
conclusion and award of damages were based on
“findings that [Appellant] worked with PHP to
compete for the D[O]S contract, that [Appellant]
provided TKCA documents to PHP, and that
PHP filed for Chapter 11 bankruptcy on September 18,
2015, staying any potential appeal of the Arizona Action. See 11
U.S.C. § 362(a)(1) (bankruptcy petition acts as a stay to the
“continuation . . . of a judicial . . . proceeding against the debtor”
that was commenced before bankruptcy).
3

10a
[Appellant] worked on PHP’s D[O]S Dash 8 proposal.”
J.A. 30–31. Then the Alaska court applied principles
of equitable estoppel and quasi-estoppel to reach the
conclusion that “[Appellant] agreed to be bound by the
decision in the Arizona Action and thus he was in
privity with PHP. Because [Appellant] was in privity
with PHP, [he] is collaterally estopped from
relitigating TKCA’s claims against him.” Id. at 38.
Accordingly, the Alaska court held that TKCA
was entitled to judgment against Appellant for breach
of contract, breach of implied covenant of good faith
and fair dealing, breach of fiduciary duty, tortious
interference with prospective economic benefit, and
violation of the Alaska Trade Secrets Act. Per the
Alaska court, TKCA was entitled to the following:
a. Lost Profits: $2,883,055.86
b. Research
and
$3,882,205.00

Development:

c. Exemplary Damages: $13,530,521.72.
J.A. 42.
Thus, Appellant was liable for
$20,295,782.58, the same amount imposed on PHP in
the Arizona Action.
As noted above under “c.,” the Alaska court
awarded exemplary damages in the amount of
$13,530,521.72 to TKCA.
In awarding these
damages, the Alaska court dropped a footnote that
stated, “Per AS 45.50.915(b),” with no further
analysis. J.A. 42 n.37. Section 45.50.915(b) is part of
the Alaska Uniform Trade Secrets Act and provides:
(a) In addition to or in lieu of injunctive
relief, a complainant may recover

11a
damages for the actual loss caused by
misappropriation. A complainant also
may recover for the unjust enrichment
caused by misappropriation that is not
taken into account in computing
damages for actual loss.
(b)
If
wilful
and
malicious
misappropriation exists, the court may
award exemplary damages in an amount
not exceeding twice the damages
awarded under (a) of this section.
AS § 45.50.915 (emphasis supplied). Like the Arizona
court, the Alaska court made no specific finding that
Appellant intended to injure TKCA.4
C.
Federal Bankruptcy Proceedings
On July 1, 2016, Appellant filed a petition for
Chapter 7 bankruptcy in the Bankruptcy Court for
the Eastern District of Virginia and sought to
discharge the Alaska judgment. See Petition, In re
Muhs, No. 16-12288 (Bankr. E.D. Va. filed July 1,
2016), ECF No. 1. TKCA then filed an adversary
complaint in the bankruptcy court, alleging that
the Alaska judgment was nondischargeable pursuant
to 11 U.S.C. § 523(a)(2) (any debt for “money . . .
to the extent obtained by . . . false pretenses [or]
actual fraud” is nondischargeable in Chapter 11
proceedings); § 523(a)(4) (same for any debt “for fraud
The Alaska judgment has been appealed to the Court
of Appeals for the Ninth Circuit, but the appeal was
administratively closed in May 2017 pending bankruptcy
proceedings.
4

12a
or defalcation while acting in a fiduciary capacity,
embezzlement, or larceny”); and § 523(a)(6) (same for
any debt “for willful and malicious injury by the
debtor to another entity or to the property of another
entity”).
See Compl., In re Muhs, No. 16-01192
(Bankr. E.D. Va. filed Oct. 11, 2016).
1.
TKCA’s First Motion
On December 19, 2016, TKCA filed a motion for
judgment on the pleadings based on the Alaska
judgment. It contended:
This court should estop [Appellant] from
re-litigating the same facts and issues
that two other courts have already
addressed. To do so, the Court should
apply collateral estoppel to the findings
of the Arizona and Alaska Courts and
hold that [Appellant’s] debt from the
Alaska Judgment is not dischargeable
under 11 U.S.C. §§ 523(a)(2) [false
pretenses or fraud], (a)(4) [fraud or
defalcation in a fiduciary capacity,
embezzlement, or larceny], and (a)(6)
[willful and malicious injury].
Mot. J. Pleadings, In re Muhs, No. 16-01192 (Bankr.
E.D. Va. filed Dec. 19, 2016), ECF No. 7, at 9. The
bankruptcy court held a hearing on this motion.
There, TKCA contended, “[The] Alaska and Arizona
[courts] awarded exemplary damages, which under
their statutes . . . exemplary damages can only be
awarded if there is willful and malicious
misappropriation.” Trans., In re Muhs, No. 16-01192

13a
(Bankr. E.D. Va. March 9, 2017), ECF No. 22, at 10–
11.
The bankruptcy court denied the motion,
explaining in open court:
[T]his is a Court of equity, so I am going
to use my power to apply equitable
estoppel in this case in order for a trial
to go on. I’m not saying that [Appellant]
has a prayer of winning. What I am
saying is that it is clear by the judgment
in the Arizona Court that [Appellant’s]
attorney was not working in the best
interests from time to time of either of
its clients, PHP or [Appellant]. . . . I
think that there definitely are some
disputed facts, and I want to know what
they are. I want to hear both sides.
Id. at 37–38.
TKCA then moved for leave to appeal the
bankruptcy court’s interlocutory order to the district
court. See Mot. Leave to Appeal, TKC Aerospace, Inc.,
No. 1:17-cv-372 (E.D. Va. Mar. 29, 2017), ECF No. 1.
The district court granted the motion for leave to
appeal and reversed the bankruptcy court, explaining
that it erred in “finding that collateral estoppel did
not apply to [the Alaska court’s] grant of summary
judgment.” J.A. 222. The district court explained that
the issues in the Alaska Action and bankruptcy
proceeding were “identical,” but it did not determine
whether the Alaska court found that Appellant had
an intent to injure TKCA. Id. at 227. Instead, the
district court made the general proclamation that a
judgment “resulting from . . . willful and malicious
injury against another [is] barred from discharge in a

14a
bankruptcy proceeding.” Id. (citing 11
Thus, it concluded “[t]he doctrine
estoppel bars re-litigation of the facts
case.” Id. at 229. The district court
further proceedings.

U.S.C. § 523).
of collateral
in the Alaska
remanded for

2.
TKCA’s Second Motion
On November 2, 2017, in the bankruptcy court
once again, TKCA filed a renewed motion for
judgment on the pleadings. The very next day, the
bankruptcy court entered an order granting summary
judgment to TKCA, concluding that the Alaska
judgment was nondischargeable pursuant to
§ 523(a)(6) only. It explained, “With the district
court’s guidance in mind, applying principles of
collateral estoppel, this Court finds that the Alaska
court’s
findings
satisfy
the
standard
for
nondischargeability under 11 U.S.C. § 523(a)(6).” J.A.
236. It did not address § 523(a)(2) or (a)(4).
Appellant appealed to the district court. See
Notice of Appeal, Muhs v. TKC Aerospace Inc., 1:17cv-1304 (E.D. Va. filed Nov. 16, 2017), ECF No. 1. The
district court affirmed the bankruptcy court as to
nondischargeability under § 523(a)(6). It held that
because the Alaska judgment “awarded exemplary
damages to [TKCA] for Appellant’s violation of
Alaska’s Uniform Trade Secrets Act,” which are “only
for willful and malicious conduct,” then the Alaska
judgment is nondischargeable under § 523(a)(6). J.A.
310. Appellant timely noted this appeal. We possess
jurisdiction pursuant to 28 U.S.C. § 1291 and § 158(d).

15a
II.
This court “review[s] the judgment of a district
court sitting in review of a bankruptcy court de novo,
applying the same standards of review that were
applied in the district court.” In Re Biondo, 180 F.3d
126, 130 (4th Cir. 1999). Specifically, we review the
factual findings of the bankruptcy court for clear
error, while we review questions of law de novo. See
id. “Although collateral estoppel may well preclude a
bankruptcy court from relitigating previously-decided
issues, the ultimate issue of dischargeability is a legal
issue, and exceptions to discharge are narrowly
construed.” In re McNallen, 62 F.3d 619, 625 (4th Cir.
1995) (citations omitted).
III.
In this appeal, we are asked to decide whether
Appellant is collaterally estopped from arguing in
bankruptcy court that the Alaska judgment is
dischargeable under § 523(a)(6), because the Alaska
court awarded exemplary damages to TKCA based on
willful and malicious misappropriation under Alaska
law. As the party challenging the dischargeability of
a debt, TKCA bears the burden of proving the debt
nondischargeable by a preponderance of the evidence.
See Grogan v. Garner, 498 U.S. 279, 287, 291 (1991).
TKCA contends that the “Alaska court’s
findings satisfy all the requisite elements for ‘willful
and malicious’ injury to TKCA under 11 U.S.C.
§ 523(a)(6),” and “[t]here is no meaningful difference in
the definition of ‘willful and malicious’ under Alaska
law and [§ 523(a)(6)].” Appellee’s Br. 9–10. Appellant,
however, maintains that “in a proceeding involving 11
U.S.C. § 523(a)(6), ‘willful and malicious’ conduct

16a
requires a finding of a specific intent to injure,” and
there was no such finding made in the Alaska Action.
Appellant’s Br. 9. We agree with Appellant.
A.
Collateral Estoppel
In Grogan v. Garner, the Supreme Court
concluded that principles of collateral estoppel apply
in dischargeability proceedings in bankruptcy. 498
U.S. at 284 & n.11. But we must first address which
jurisdiction’s estoppel rules apply. As a general
matter, “[t]he preclusive effect of a federal-court
judgment is determined by federal common law.”
Taylor v. Sturgell, 553 U.S. 880, 891 (2008). When a
federal court exercises diversity jurisdiction over a
state law claim, as in the Alaska Action, the federal
rule “is to apply ‘the law that would be applied by
state courts in the State in which the federal diversity
court sits’ as long as the state rule is not ‘incompatible
with federal interests.’” Hately v. Watts, 917 F.3d 770,
777 (4th Cir. 2019) (quoting Semtek Int’l, Inc. v.
Lockheed Martin Corp., 531 U.S. 497, 509 (2001)).
Finding no reason why Alaska collateral estoppel law
would be incompatible with federal interests, we
apply the following test:
Collateral estoppel prohibits relitigation
of issues actually decided in earlier
proceedings where: (1) the party against
whom the preclusion is employed was a
party to or in privity with a party to the
first action; (2) the issue precluded from
relitigation is identical to the issue
decided in the first action; (3) the issue
was resolved in the first action by a final

17a
judgment on the merits; and (4) the
determination of the issue was essential
to the final judgment.
Strong v. Williams, 435 P.3d 872, 875 (Alaska 2018)
(emphases supplied). Accordingly, first, we will
assess the issue Appellant wants to litigate in the
bankruptcy court (i.e., whether the debt is for a willful
and malicious injury for purposes of § 523(a)(6)).
Next, we will evaluate whether collateral estoppel
precludes litigation of that issue in bankruptcy court.
B.
Bankruptcy Requirement: Intent to Injure
The statue at issue here -- § 523(a)(6) -provides that a debt is not dischargeable in a Chapter
7 proceeding if it is a debt “for willful and malicious
injury by the debtor to another entity or to the
property of another entity.” 11 U.S.C. § 523(a)(6).
The Supreme Court and this court have decided that
a debt arising from an injury attributable to mere
negligent or reckless conduct does not satisfy the
“willful and malicious” requirement of (a)(6); in
addition, it is not enough that the conduct underlying
the injury was intentional. Rather, the debtor must
have engaged in such conduct with the actual intent
to cause injury. See Kawaauhau v. Geiger, 523 U.S.
57, 61 (1998); In re Duncan, 448 F.3d 725, 729 (4th
Cir. 2006).
1.
Kawaauhau v. Geiger
In Geiger, Margaret Kawaauhau sought
treatment from Dr. Paul Geiger for a foot injury. See

18a
523 U.S. at 59. Dr. Geiger knew intravenous
penicillin would be most effective to decrease the risk
of infection, but he prescribed oral penicillin because
Kawaauhau wished to keep the cost down. Then, he
left town and placed her in the care of other
physicians, who decided she should be transferred to
a specialist. But when Dr. Geiger returned, he
disagreed and cancelled her transfer because he
thought the infection had subsided; however,
Kawaauhau’s condition worsened, resulting in the
amputation of her right leg below the knee. See id.
Kawaauhau and her husband sued Dr. Geiger
for malpractice, and a jury awarded them $355,000 in
damages. Dr. Geiger did not carry malpractice
insurance and ended up filing for bankruptcy and
seeking to discharge the judgment against him under
§ 523(a)(6). See Geiger, 523 U.S. at 59–60. The
bankruptcy
court
decided
the
debt
was
nondischargeable because the doctor’s “treatment fell
far below the appropriate standard of care and
therefore ranked as ‘willful and malicious.’” Id. at 60.
The Eighth Circuit, sitting en banc, reversed
the bankruptcy court and held that the debt was
dischargeable, and the Supreme Court affirmed. The
Supreme Court explained:
We confront this pivotal question
concerning the scope of the “willful
and malicious injury” exception: Does
§ 523(a)(6)’s compass cover acts, done
intentionally, that cause injury (as [the
Kawaauhaus] urge), or only acts done
with the actual intent to cause injury (as
the Eighth Circuit ruled)? The words of

19a
the statute strongly support the Eighth
Circuit’s reading.
Geiger, 523 U.S. at 61 (emphasis supplied). The Court
reasoned, “The word ‘willful’ in (a)(6) modifies the
word ‘injury,’ indicating that nondischargeability
takes a deliberate or intentional injury, not merely
a deliberate or intentional act that leads to injury.”
Id. (emphases supplied).
Moreover, “the (a)(6)
formulation triggers in the lawyer’s mind the category
‘intentional torts,’ as distinguished from negligent or
reckless torts. Intentional torts generally require
that the actor intend ‘the consequences of an act,’
not simply ‘the act itself.’” Id. at 61–62 (quoting
Restatement (Second) of Torts § 8A) (emphasis in
Geiger). The Court rejected the notion that a willful
and malicious injury should encompass “a wide range
of situations in which an act is intentional, but injury
is unintended, i.e., neither desired nor in fact
anticipated by the debtor,” such as a “knowing breach
of contract.”
Id. at 62.
In the end, “to be
nondischargeable, the judgment debt must be for
willful and malicious injury,” and “[n]egligent or
reckless acts . . . do not suffice to establish that a
resulting injury is willful and malicious.” Id. at 63–
64 (emphasis in original).
2.
In re Duncan
This court has applied the Geiger principle in
only one published decision, In re Duncan, 448 F.3d
725 (4th Cir. 2006). There, a mother (“Jacqueline”)
was found liable for the wrongful death of her adopted
child, after her child drowned in the bathtub while in
Jacqueline’s care. Because the child had subdural

20a
hemorrhaging and cerebral edema, the wrongful
death lawsuit filed by the child’s father alleged that
Jacqueline either abused and assaulted the child and
then left her in the bathtub unattended to drown, or
intentionally drowned her to obscure evidence of the
abuse. See id. at 727. The jury in the wrongful death
suit awarded the child’s estate (the “Estate”) $15,000
in compensatory damages, and $500,000 in punitive
damages, which was later reduced. See id. Because
the jury awarded punitive damages, it necessarily
decided that Jacqueline engaged in “willful and
wanton” conduct, which was defined as:
acting consciously in disregard of [the
child] or acting with a reckless
indifference to the consequences to [the
child] when the Defendant is aware of
her conduct and is also aware, from her
knowledge of existing circumstances and
conditions, that her conduct would
probably result in injury to [the child].
Id. at 729 (emphasis supplied).
Jacqueline thereafter filed a Chapter 7
bankruptcy petition and listed the wrongful death
award as a dischargeable debt. See Duncan, 448 F.3d
at 727.
The Estate argued that it was not
dischargeable under § 523(a)(6), and, based on the
wrongful death judgment and punitive damages
award, Jaqueline was collaterally estopped from
arguing that the injury was not willful or malicious.
See id.
Applying Virginia law (because the wrongful
death judgment originated in Virginia state court), we
held that collateral estoppel did not apply to the

21a
willful and malicious issue because whether
Jacqueline “intended to injure” her daughter was
neither identical to, nor necessary to, the issue
litigated in the wrongful death proceedings. Duncan,
448 F.3d at 730. Indeed, Virginia law allowed for
an award of punitive damages for conscious disregard
or reckless indifference, neither of which rose to
the level of intent to injure under Geiger. And
because the Estate was not required “to prove that
Jacqueline Duncan intended to injure [the child] . . . ,
the wrongful death judgment did not involve an
identical issue to the controlling issue here.” Id. at
730. We concluded, “At bottom, neither the wrongful
death nor the punitive damages award in the state
court involved the issue of whether Jacqueline
Duncan intended to injure [the child] that controls
resolution of this adversary proceeding.” Id. Thus,
we held that collateral estoppel did not apply in the
bankruptcy proceedings.
Therefore, based on this case law, the
controlling issue in the adversary bankruptcy
proceeding has to be whether Appellant intended to
injure TKCA. With this in mind, we turn to an
analysis of the Alaska court’s decision.
C.
Alaska Judgment
We now determine whether, based on the
Alaska judgment, Appellant is collaterally estopped
in the adversary proceeding from arguing that the
debt to TKCA is not for a willful and malicious injury
for purposes of § 523(a)(6). Under Alaska law,
collateral estoppel prohibits relitigation of an issue
“actually decided in earlier proceedings” if TKCA can

22a
demonstrate that (1) Appellant was a party to the
Alaska Action; (2) the issue precluded from
relitigation is identical to the issue decided in the
Alaska Action; (3) the issue was resolved by a final
judgment on the merits; and (4) the determination of
the issue was essential to the final judgment. Strong,
435 P.3d at 875. Because Appellant was a party in
Alaska, and the Alaska judgment was final, we turn
to an analysis of whether the issues are identical,
were actually decided in Alaska, and were essential to
the Alaska judgment.
1.
Identical Issues
First, Alaska law requires that the issue to be
precluded from relitigation “is identical to the issue
decided in the first action.” Strong, 435 P.3d at 875.
However, TKCA has not demonstrated -- and we
cannot conclude -- that the meaning of “willful and
malicious” under Alaska law is identical to the
meaning of “willful and malicious” under the
Bankruptcy Code.
As explained above, § 523(a)(6) requires intent
to injure, and does not encompass mere negligent or
reckless conduct. Alaska has adopted the Uniform
Trade Secrets Act (“UTSA”), and neither Alaska’s
version of the UTSA, nor the UTSA itself, defines the
terms willful and malicious. We cannot conclude that
just because the words are the same, the meaning is
also the same. In fact, many states adopting the
UTSA have developed definitions of willful and
malicious that fall below the Geiger standard. See,
e.g., Mattern & Assocs., L.L.C. v. Seidel, 678 F. Supp.
2d 256, 271 (D. Del. 2010) (analyzing award of

23a
exemplary damages under the Delaware UTSA,
explaining, “Delaware courts have defined willfulness
as an awareness, either actual or constructive, of one’s
conduct and a realization of its probable
consequences, and malice as ill-will, hatred or intent
to cause injury.” (citation and internal quotation
marks omitted) (emphases supplied)); Mangren
Research & Dev. Corp. v. Nat’l Chem. Co., 87 F.3d 937,
946 (7th Cir. 1996) (analyzing award of exemplary
damages under the Illinois UTSA, reasoning that the
definition of willful and malicious “surely must
include an intentional misappropriation as well as a
misappropriation resulting from the conscious
disregard of the rights of another” (emphasis
supplied)); 12 Pa. C.S.A. § 5302 (Pennsylvania UTSA
defining “willful and malicious” as “[s]uch intentional
acts or gross neglect of duty as to evince a reckless
indifference to the rights of others on the part of the
wrongdoer, and an entire want of care so as to raise
the presumption that the person at fault is conscious
of the consequences of his carelessness” (emphasis
supplied)); see also HTS, Inc. v. Boley, 954 F. Supp. 2d
927, 959 (D. Ariz. 2013) (noting that the Arizona
UTSA does not define “willful and malicious” but
adopting Pennsylvania’s definition, explaining “the
Court considers as instructive decisions from other
jurisdictions that have adopted substantially the
same provision of the UTSA”).
Indeed, TKCA’s attempts to define “willful and
malicious” in Alaska’s version of the UTSA as
identical to § 523(a)(6) fall short of its burden. It
refers to an Alaska Supreme Court decision stating,
“[a]n act is willful if it is done intentionally and
purposefully,
rather
than
accidentally
or
inadvertently.” Walt’s Sheet Metal v. Debler, 826 P.2d

24a
333, 336 (Alaska 1992). It then contends that the
Alaska court necessarily determined that Appellant
“intentionally and purposefully misappropriated
TKCA’s trade secrets, which is sufficient to meet the
Fourth Circuit standard for willfulness.” Appellee’s
Br. 11. But Geiger and Duncan specifically instruct
that it is not enough to have “a deliberate or
intentional act that leads to injury.” Geiger, 523 U.S.
at 61. Rather, a bankruptcy court must specifically
find a deliberate and intentional injury. Therefore,
even if TKCA is correct that the Alaska court decided
Appellant
intentionally
and
purposefully
misappropriated TKCA’s trade secrets, that is still
not enough. It must have taken the additional step of
finding that Appellant, in so doing, intended for
TKCA to be injured by that misappropriation.
Therefore, we simply cannot affirm the district
court and bankruptcy court’s conclusion that the issue
Appellant seeks to argue in bankruptcy court is
identical to the issue presented in the Alaska Action.
2.
Actually Decided and Essential
Moreover, the issue of whether Appellant
intended to injure TKCA was neither “actually
decided in,” nor “essential to” the Alaska Action.
Strong, 435 P.3d at 875. The Alaska court never
decided whether Appellant intended to injure TKCA,
as required by Geiger and Duncan. Indeed, the only
critical determination the Alaska court made was
that Appellant was in privity with PHP based on
equitable and quasi-estoppel, and therefore, he was
collaterally estopped from “relitigating TKCA’s
claims against him” in Alaska. J.A. 38. TKCA

25a
maintains that the Alaska court necessarily made a
determination of willfulness and maliciousness in its
award of exemplary damages, indicated in a footnote
with no analysis. But as mentioned above, the Alaska
court made no decision whatsoever that it based those
damages on a finding that Appellant intended to
injure TKCA. Indeed, the district court’s decision on
appeal here recognizes this fact. It states that the
Alaska judgment awarded exemplary damages for
violation of Alaska’s UTSA, which can “only [be
awarded] for willful and malicious conduct.” J.A. 310
(emphasis supplied). As explained above, Appellant’s
conduct is not the issue; rather, it is his intent to
injure that matters.
TKCA also points to a portion of the Arizona
court’s decision regarding the award of punitive
damages, which states, “This court finds by clear and
convincing evidence that PHP engaged in outrageous
conduct and acted with an evil mind intending to
injure TKCA by intentionally interfering with
TKCA’s contracts and opportunities and then using
TKCA’s proprietary information to misappropriate
those opportunities.” J.A. 88–89 (emphasis supplied).
Then, TKCA contends that although Appellant was
not a party to the Arizona Action, this “evil mind” is
attributable solely to Appellant because in the Alaska
Action, Appellant’s counsel acknowledged “TKCA’s
claims of wrongdoing by PHP are entirely based on the
alleged wrongdoing of [Appellant].” Appellee’s Br. 16
n.2 (quoting J.A. 200 (motion to stay Alaska Action)).
But crucially, the Alaska court did not take the
additional step of finding that Appellant had the
requisite intent to injure (or was estopped from
arguing to the contrary) in the Alaska Action. Nor

26a
would such a finding have been essential to the
Alaska court’s decision that Appellant was in privity
with PHP and thus, he was collaterally estopped from
relitigating the issues determined in the Arizona
Action.
Therefore, whether Appellant specifically had
the requisite intent to injure TKCA was neither
actually decided in, nor essential to, the Alaska
Action.
3.
For these reasons, collateral estoppel was
inappropriate in this case. We reverse the district
court and bankruptcy court’s reliance on collateral
estoppel to determine the nondischargeability of the
Alaska judgment, and remand for further
proceedings.5
TKCA argues in its response brief that we could affirm
based on other nondischargeability provisions in the Bankruptcy
Code, specifically, § 523(a)(2) and (a)(4). These arguments were
raised to the bankruptcy court; however, the bankruptcy and
district courts relied only on (a)(6) in the immediate judgments
on appeal. These are determinations best left to the bankruptcy
court in the first instance. See In re FirstPay, Inc., 391 F. App’x
259, 269 n.7 (4th Cir. 2010) (“Whether FirstPay converted and
misappropriated some of its clients’ funds in order to make
payments to the IRS on behalf of other clients, among other
issues, will have to be determined by the bankruptcy court in the
first instance.”); In re Biondo, 180 F.3d 126, 134 (4th Cir. 1999)
(“The Biondos’ state of mind is a question of fact to be determined
in the first instance by the bankruptcy court . . . .”); In re Pucci
Shoes, Inc., 120 F.3d 38, 42 (4th Cir. 1997) (remanding to
bankruptcy court for determination of the value of a line of credit
because “neither this court nor the district court is authorized to
make . . . factual determinations in the first instance”). On
remand, the bankruptcy court is free to entertain these
possibilities.
5

27a
IV.
For the foregoing reasons, we reverse the
judgment of the district court, with instructions to
remand to the bankruptcy court for proceedings
consistent with this opinion.
REVERSED AND REMANDED

28a
[ENTERED: May 8, 2019]
FILED: May 8, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-1372
(1:17-cv-01304-LO-TCB)
(16-12288)
(16-01192)
In re: CHARLES TAYLOR MUHS
Debtor
-----------------------------TKC AEROSPACE INC.
Plaintiff - Appellee
v.
CHARLES TAYLOR MUHS
Defendant - Appellant
J U D G M E N T
In accordance with the decision of this court,
the judgment of the district court is reversed. This
case is remanded to the district court for further
proceedings consistent with the court’s decision.

29a
This judgment shall take effect upon issuance
of this court’s mandate in accordance with Fed. R.
App. P. 41.
/s/ PATRICIA S. CONNOR, CLERK

30a
[ENTERED: March 12, 2018]
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division
CHARLES TAYLOR MUHS,
Appellant,
v.
TKC AEROSPACE, INC.,
Appellee.

)
)
)
)
) Civil Action No.
) 1:17-cv-01304
)
)
)
)
)

MEMORANDUM OPINION AND ORDER
This matter comes before the Court on appeal
from the United States Bankruptcy Court for the
Eastern District of Virginia. The appeal is fully
briefed and the Court dispensed with oral arguments.
For the reasons below and for good cause shown, the
Court AFFIRMS the bankruptcy court.
Appellant assigns error to the bankruptcy
court’s summary judgment ruling that Appellee’s
judgment against Appellant, obtained in the District
Court for the District of Alaska (the Alaska
judgment), is non-dischargeable under 11 U.S.C.
§ 523(a)(6). This Court has jurisdiction under 28
U.S.C. §§ 158(a)(3) and 158(c)(1).
These parties were previously before this Court
in October 2017. In that matter, TKC Aerospace

31a
appealed from the Bankruptcy Court’s denial of
summary judgment in its favor. TKC Aerospace, Inc.
v. Muhs, 2017 WL 4638588 (E. D. Va. Oct. 16, 2017).
The Court incorporates here the recitation of facts in
that decision. In its October order, the Court reversed
the bankruptcy court and held that the bankruptcy
court improperly peered behind the Alaska judgment.
In the Alaska judgment, the district court held that
Appellant was estopped from re-litigating issues
resolved by an Arizona state court proceeding. Id. at
*2-3. In this Court’s ruling, it instructed the
bankruptcy Court to look solely at the Alaska
judgment and the findings in support of that
judgment in order to analyze dischargeability of the
judgment under 11 U.S.C. § 523. Id.
In this appeal, Appellant implicitly seeks this
Court to overturn its own prior ruling in this case,
arguing that the § 523 analysis must examine in
detail the decision in the Arizona state court case and
applicable Arizona law. Appellant contends that
1) the Arizona judgment used a definition of ‘“willful
and malicious” that does not squarely fit § 523’s
definition; 2) the bankruptcy court based its ruling on
an incorrect assumption that the damages awarded
under the Arizona judgment were for violation of
Arizona’s trade secrets act; and 3) the Arizona
judgment did not contain sufficient findings of fact to
support a conclusion that Appellant’s conduct was
willful and malicious so as to bar dischargeability
under § 523.
Appellant’s arguments are refuted on the face
of the record. In the ruling at issue, the bankruptcy
court found that “‘[t]he Alaska court, adopting the
findings of the Superior Court of Arizona, necessarily

32a
found that [Muhs’] misappropriation of trade secrets
rose to the level of willful and malicious when it
awarded exemplary damages under [Alaska’s] version
of the Uniform Trade Secrets Act.” Appellee’s App’x
K. This finding serves as the foundation for the
bankruptcy court’s holding that the Alaska judgment,
arising from willful and malicious trade secret
violation, is non-dischargeable under § 523. Id. Thus,
the bankruptcy court, following the law of the case
and the mandate of this Court, never examined
Arizona’s definition of ““willful and malicious,” never
made an assumption at all about why certain
damages were awarded in the Arizona case, and never
examined the findings of fact in the Arizona case.
Appellant assigns error to findings the bankruptcy
court never made.
As the bankruptcy court correctly observed,
the Alaska judgment awarded exemplary damages
to Appellee for Appellant’s violation of Alaska’s
Uniform Trade Secrets Act. As this Court noted in
its October 17. 2017 order, exemplary damages
under that statute are awardable only for willful
and malicious conduct. See ALASKA STAT. ANN.
§ 45.50.915(b) (West 2017). The District Court for the
District of Alaska made this plain in its summary
judgment order. TKC Aerospace, Inc. v. Muhs, 2015
WL 6394481, at *7 n. 37 (D. Alaska Oct. 22, 2015)
(footnoting the court’s exemplary damages award
with “Per 45.50.915(b)”). This Court can find no
evidence and Appellant has not contended that the
“willful and malicious” standard applicable under
ALASKA STAT. ANN. § 45.50.915(b) is inconsistent with
Duncan v. Duncan, 448 F.3d 725, 729 (4th Cir. 2006).
The bankruptcy court then correctly concluded that
the Alaska judgment arose from Appellant’s willful

33a
and malicious conduct and was thus nondischargeable under § 523. See, e.g. In re Harton, No.
12-36221-KRH, 2013 WL 5461832, at *1 (Bankr. E.D.
Va. Oct. 1, 2013) (judgment arising from willful and
malicious appropriation of trade secrets nondischargeable under § 523).
The Court finds no error with the bankruptcy
court’s decision. It is entirely consistent with the facts
underlying the Alaska judgment, with the findings of
the United States District Court for the Di strict of
Alaska, with the law of the case, with the mandate of
this Court, and with applicable bankruptcy law. For
these reasons and for good cause shown, the ruling by
the bankruptcy court is AFFIRMED.
It is so ORDERED.
/s/
Liam O’Grady
United States District Judge
March 12, 2018
Alexandria, Virginia

34a
[ENTERED: November 3, 2017]
UNITED STATES BANKRUPTCY COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division
In re:
CHARLES TAYLOR MUHS,
Debtor.
TKC AEROSPACE, INC.,
Plaintiff,
vs.
CHARLES TAYLOR MUHS,
Defendant.

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

Case No.
16-12288-KHK
(Chapter 7)

Adv. Proc. No.
16-01192

ORDER
This CASE is before the Court pursuant to a
Memorandum Opinion and Order of the District
Court for the Eastern District of Virginia reversing
this Court’s Order Denying Summary Judgment in
the above captioned adversary proceeding, and
remanding to this Court for further disposition
consistent with that Opinion. In particular, this
Court must decide whether the findings of fact
foundational to the judgment in the Alaska case
satisfy the standard for nondischargeability under 11
U.S.C. § 523(a)(6). This Order assumes familiarity
with the facts ofthe case as laid out in the District

35a
Court’s Memorandum Opinion and Order. [Docket
No. 39].
With the District Court’s guidance in mind,
applying principles of collateral estoppel, this Court
finds that the Alaska court’s findings satisfy the
standard for nondischargeability under 11 U.S.C.
§ 523(a)(6).
Summary judgment is appropriate where there
is no genuine dispute as to any material fact, and the
moving party is entitled to judgment as a matter of
law. Fed. R. Bankr. P. 7056. The moving party has the
initial burden of showing that there are no material
facts in dispute and that it is entitled to judgment as
a matter of law. Celotex Corp. v. Catrett, 477 U.S. 317,
322-24 (1986). When the moving party has met its
initial burden, the burden then shifts to the nonmoving party to present specific facts demonstrating
that there is a genuine issue for trial. Matsushita
Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S.
574,586-87 (1986). Whether a fact is material or not
depends on the substantive law at issue in the case.
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248
(1986). “Only disputes over facts that might affect the
outcome of the suit under the governing law will
properly preclude the entry of summary judgment.
Factual disputes that are irrelevant or unnecessary
will not be counted.” Id.
With the District Court having held that
collateral estoppel bars re-litigation of the facts in the
Alaska case, the only question before this Court is
whether the findings in the Alaska case satisfy the
standard under 11 U.S.C. § 523(a)(6). For the reasons
stated below, this Court finds that they do.

36a
The Alaska court, adopting the findings of the
Superior Court of Arizona, necessarily found that
Defendant’s misappropriation of trade secrets rose to
the level of willful and malicious when it awarded
exemplary damages under its version of the Uniform
Trade
Secrets
Act.
Necessary
to
proving
nondischargeability under section 523(a)(6) is that
the plaintiff prove the injury resulted from willful and
malicious conduct. 11 U.S.C. § 523(a)(6). Bankruptcy
Courts in the Eastern District of Virginia and
numerous other districts have acknowledged that a
finding of willful and malicious misappropriation of
trade secrets under the Uniform Trade Secrets Act
satisfies the standard for nondischargeability under
11 U.S.C. § 523(a)(6). See La Bella Dona Skin Care,
Inc. v. Harton (In re Harton), 2013 Bankr. LEXIS
4113, *11, 2013 WL 5461832 (Bankr. E.D. Va. Oct. 1,
2013) (acknowledging that willful and malicious
appropriation of trade secrets under the Virginia
version of the Uniform Trade Secrets Act satisfies the
standard under 11 U.S.C. § 523(a)(6); see also Read &
Lundy, Inc. v. Brier (In re Brier), 274 B.R. 37, 45
(Bankr. D. Mass. 2002) (acknowledging that
numerous courts have held that a finding of willful
and malicious injury under the Uniform Trade
Secrets Act satisfy the nondischargeability standard
of 11 U.S.C. § 523(a)(6)); see also Clearview Designs,
Inc. v. Angelilli (In re Angelilli), 463 B.R. 37, 45
(Bankr. N.D. Ohio 2012) (granting summary
judgment for 523(a)(6) action for a debt that arose
from willful and malicious appropriation under Ohio’s
version of the Uniform Trade Secrets Act).
Accordingly, this Court finds that the
Defendant’s debt to the Plaintiff was the product of
willful and malicious injury within the meaning of

37a
section 523(a)(6) of the Bankruptcy Code and it is
ORDERED:
1.

Summary Judgment is GRANTED in
favor of the Plaintiff.

2.

Defendant’s debt to Plaintiff is
nondischargeable pursuant to 11 U.S.C.
§ 523(a)(6).

DONE at Alexandria, Virginia, this 3rd day of
November.
Nov 3 2017 /s/ Klinette Kindred
Klinette H. Kindred
United States Bankruptcy Judge
Entered on Docket:
November 3, 2017
Copies to:
Stephen K. Gallagher
Lindsay Ruffner Heitger
Richard G. Hall

38a
[ENTERED: October 16, 2017]
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division

TKC AEROSPACE, INC.,
Appellant,
v.
CHARLES TAYLOR MUHS,
Appellee.

)
)
)
)
)
)
)
)
)
)
)

Civil Action No.
1:17-cv-00372

MEMORANDUM OPINION AND ORDER
This matter comes before the Court on appeal
from the United States Bankruptcy Court for the
Eastern District of Virginia. Appellant assigns error
to the bankruptcy court’s denial of Appellant’s motion
for judgment on the papers. That denial was based on
the bankruptcy court’s finding that collateral estoppel
did not apply to a district court’s grant of summary
judgment that led to the final judgment at issue
before the court. For the reasons stated below, the
Court finds that collateral estoppel applies.
Accordingly, the decision of the Bankruptcy Court for
the Eastern District of Virginia is REVERSED and
REMANDED for further disposition consistent with
this opinion.

39a
I. BACKGROUND
In September 2011, TKC Aerospace, Inc. (TKC)
sued Charles Taylor Muhs, a former employee, in
United States District Court in the District of Alaska
(the Alaska case) for theft of trade secrets. Appellant
Br. 4. In October 2011, TKC sued Phoenix Heliparts,
Inc. (PHP) in the Superior Court of Arizona for
Maricopa County (the Arizona case), based on Muhs’
provision of those trade secrets to PHP, his new
employer. Id. at 5. Muhs moved for and was granted
a stay in the Alaska case until the Arizona case was
resolved, asserting that the cases raised the same
factual and legal issues, claims, and prayers for relief,
and would ultimately collaterally estop the Alaska
case. Id.
The Arizona case resolved in favor of TKC, with
the court finding that PHP had willfully and
maliciously misappropriated TKC’s trade secrets
through Muhs. Id. at 6. The Arizona case resolved,
the district court in Alaska found that Muhs was
equitably estopped from denying the preclusive effect
of the Arizona case because of his assertions in his
motion to stay. Consequently, the court found Muhs
collaterally estopped from re-litigating the Arizona
case, granted summary judgment for TKC, and
entered a judgment against Muhs in the amount of
$20,726,198.35, a figure that included exemplary
damages. Id. Specifically, the district court found
Muhs liable for breach of contract, breach of implied
covenant of good faith and fair dealing, breach of
fiduciary duty, tortious interference with prospective
economic benefits, and violation of the Alaska
Uniform Trade Secrets Act. Appellant Br. Ex. E, at

40a
17. The court dismissed counts for unjust enrichment
and common-law fraud. Id.
Importantly, by applying collateral estoppel to
the Alaska case, the district court adopted the
findings of the Superior Court of Arizona. Appellant
Br. Ex. E, at 15. These included findings that Muhs
committed conversion by stealing TKC confidential
documents and uploading them to PHP servers, and
that the trade secret theft clearly and convincingly
rose to the level of “willful and malicious” under the
Uniform Trade Secret Act, justifying an award of
exemplary damages. Appellant Br. Ex. F.
Shortly after the district court entered the
judgment against Muhs, Muhs filed for Chapter 7
bankruptcy protection and attempted to discharge the
judgment. TKC timely filed an adversary complaint
against Muhs to preclude discharge of the judgment,
arguing that 11 U.S.C. § 523 bars discharge of a
judgment that resulted from a) fraud, b) breach of
fiduciary duty, or c) willful and malicious conduct.
Appellant Br. Ex. A. TKC moved for judgment on the
pleadings/summary judgment on the basis that Muhs
is collaterally estopped from re-litigating the facts
underlying the judgment and that the findings of the
District Court for the District of Alaska settle the
question of whether the judgment stemmed from
conduct barring discharge under 11 U.S.C. § 523.
Appellant Br. Ex. 1.
In his response to the Motion for Summary
Judgment, Muhs attacked the performance of his
counsel in the Arizona case and the application of
collateral estoppel by the district court, arguing that
the district court erred in estopping Muhs from re-

41a
litigating issues settled by the Arizona case.
Appelllant Br. Ex. J. Muhs also denied that any of the
bars enumerated in 11 U.S.C. § 523 were applicable.
Id.
On March 9, 2017, the bankruptcy court held a
hearing on TKC’s Motion for Judgment on the
Pleadings/Summary Judgment. The court denied the
motion. In ruling from the bench, the Court stated:
... [T]his is a Court of equity, so I am
going to use my power to apply equitable
estoppel in this case in order for a trial
to go on. I’m not saying that Mr. Muhs
has a prayer of winning. What I am
saying is that it is clear by the judgment
in the Arizona Court that Mr. Muhs’s
attorney was not working in the best
interests from time to time of either of
its clients, PHP or Mr. Muhs. I think
that there are facts that are in dispute
here, and they cannot be addressed at
this stage on a Summary Judgment
motion, so I think we should just proceed
as though we’re going to have a trial. . .
I think that there definitely are some
disputed facts, and I want to know what
they are.
Appellant Br. Ex. C, at 96-97. The court subsequently
issued a written order denying summary judgment,
citing to the reasons stated in the record. Appellant
Br. Ex. D.
TKC has timely appealed the bankruptcy
court’s denial to this Court. The appeal is proper
under 28 U.S.C. §§ 158(a)(3) and (c)(1) and Rules 8002

42a
and 8004 of the Federal Rules or Bankruptcy
Procedure.
II. STANDARD OF REVIEW
Bankruptcy courts’ legal conclusions are
reviewed de novo and findings of fact are reviewed ror
clear en·or. Wells Fargo Bank, N.A. v. AMH Roman
Two NC, LLC, 859 F.3d 295, 299 (4th Cir. 20 17).
Application of collateral estoppel is a question of law.
L&R Assocs. v. Curtis, 194 B.R. 407, 409 (E.D. Va.
1996); see also Reliance Ins. Co. v. Miller, 144 Fed.
Appx. 966, 973 (4th Cir. 2005).
III. DISCUSSION
The bankruptcy court was presented with two
questions -- first, whether a judgment rendered in the
District of Alaska met the collateral estoppel rules so
as to bar Appellee’s attempt to re-litigate the same
issues, and second, whether that judgment met the
criteria enumerated in 11 U.S.C. § 523 to bar
discharge. The bankruptcy court, by holding that the
Alaska case did not preclude re-litigation, never
reached the second question. For the reasons set forth
below, this holding was in error and the case is now
remanded for the bankruptcy court to narrowly
consider whether the findings of fact foundational to
the judgment in the Alaska case fit the criteria in 11
U.S.C. § 523 so as to bar the discharge of the
judgment.
As a matter of law, it was improper for the
bankruptcy court to look behind the Alaska case and
opine on whether the Arizona case should have had a
preclusive effect on the outcome of the Alaska case.
That question was not before the bankruptcy court

43a
and was not an unanswered question - the district
court in the Alaska case had already conducted that
collateral estoppel analysis and found that the
Arizona case precluded re-litigation. Before the
bankruptcy court was the narrow question of whether
the Alaska case had preclusive effect on the discharge
proceeding. A bankruptcy court’s collateral estoppel
analysis must apply the estoppel rules of the state in
which the earlier judgment was rendered - here,
Alaska. See In re Duncan, 448 F.3d 725, 728 (4th Cir.
2006). Alaska’s collateral estoppel rules give
preclusive effect to final judgments on the merits
where the precluded issue is essential to the final
judgment and is identical to the issue in the action at
bar. Stewart v. Elliott, 239 P.3d 1236, 1241-42 (Alaska
2010). The party against whom the issue is being
asserted must have been a party to or in privity with
a party to the earlier action. Id. at 1240.
Bankruptcy law bars the discharge of
judgments that arise from defalcation in breach of
fiduciary duty or from willful and malicious conduct
against the person or property of another. 11 U.S.C.
§ 523 (2010). Defalcation in breach of fiduciary duty
occurs when a fiduciary appropriates company
property to his benefit. See United Va. Bank v.
Fussell, 15 B.R. 1016, 1020 (E.D. Va. 1981). Willful
and malicious conduct against the person or property
of another is established where the claim that gave
rise to the judgment establishes “deliberate or
intentional injury, not merely a deliberate or
intentional act that leads to injury.” Duncan, 448 F.3d
at 729 (quoting Kawaauhau v. Geiger, 523 U.S. 57. 61
(1998)). Where a judgment required a finding of
willful and malicious conduct. that is sufficient under

44a
11 U.S.C. § 523(a)(4) to bar discharge. See Duncan,
448 F.3d at 728.
Applying the facts at hand to Alaska’s
collateral estoppel framework, Muhs was the
defendant in the Alaska case, mooting the question of
privity. The district court’s decision, a grant of
summary judgment, was a final judgment on the
merits. See. e.g. Lyman v. Slate, 824 P.2d 703, 705
(Alaska 1992) (holding that summary judgment was
a final judgment on the merits, even while pending
appeal). The question of whether Muhs defalcated in
breach of a fiduciary duty and/or engaged in willful
and malicious conduct was essential to that
judgment, since the district court found Muhs liable,
infer alia, for breach of fiduciary duty (Count III of the
suit) and for violating the Alaska Uniform Trade
Secrets Act (Count VII of the suit) with an award of
exemplary damages. See Pet. Br. Ex. E, 18; see also,
ALASKA STAT. ANN. § 45.50.915(b) (West 2017)
(exemplary damages only available for violations of
the Alaska Trade Secrets Act where defendant
engaged in willful and malicious misappropriation of
trade secrets). Finally. the issues are identical, since
judgments resulting from defalcations by a fiduciary
and willful and malicious injury against another are
barred from discharge in a bankruptcy proceeding.
See 11 U.S.C. § 523 (2010).
By inquiring into the preclusive effect of the
Arizona case, the bankruptcy court substituted its
fact finding and judgment for those of the District
Court of the District of Alaska. In peering behind the
Alaska judgment, the bankruptcy court engaged in an
improper and apparently de novo review of the di
strict court’s conclusive findings. The proper avenue

45a
for review or the district court’s analysis would be
through direct appeal to the Ninth Circuit, not
through a collateral attack via a bankruptcy court.
The bankruptcy court is bound to recognize that the
preclusive effect of the Arizona case had already been
decided and that the only issue before the court was
the preclusive effect of the Alaska case. With such a
properly narrowed focus, the court should have
engaged in the equitable estoppel analysis under
Alaska law - an analysis for which no additional facts
are required. The court treated the judgment of the
District Court for the District of Alaska as an advisory
opinion. C.f Appellant Br. Ex. C, at 37 (the
Bankruptcy Court questioning the performance of
Muhs’ counsel in the Arizona case) with Appellant Br.
Ex. E, at 12-13 (the District Court for the District of
Alaska rejecting Muhs’ arguments on the same point).
Rationalizing this review of the preclusive
effect of the Arizona case. the bankruptcy court then
cited to the doctrine of equitable estoppel. Equitable
estoppel will bind a party where (1) that party had
actual or constructive knowledge of the truth of a
matter; (2) that party misrepresented or concealed
material facts to another party; (3) that party
intended or expected the other party to rely upon
those misrepresentations or concealments; (4) that
the other party did so act; and (5) that the other
party’s reliance was both reasonable and detrimental.
Sari v. America’s Home Place, Inc., 129 F. Supp. 3d
317, 328 (E.D. Va. 2015). The Court finds no legal or
factual foundation in the record for applying equitable
estoppel to bar the application of collateral estoppel.
The only equitable estoppel properly raised in this
case was where the District Court for the District of
Alaska found Muhs equitably estopped from both

46a
moving for a stay on the grounds that the Arizona
case would settle all the issues in the Alaska case and
then denying the preclusive effect of the Arizona case
after it resolved in TKC’s favor. See Appellant Br. 2224; Appellant Br. Ex. E, at 12-14.
Appellee concedes the bankruptcy court’s
reference to equitable estoppel is unclear. See
Appellee Br. 8 (reasoning, “whether the Bankruptcy
Court used the correct term for its decision, equitable
estoppel, instead of judicial estoppel, or the Court’s
broad equitable power under 11 U.S.C. 105(a), or
whether the Court was referring to the necessary
element of privity which must be proven before for
the application of collateral estoppel. the result was
based ... “). However, a bankruptcy court’s equitable
powers are limited. See Educ. Credit Mgmt. Corp. v.
Pulley, 532 B.R. 12, 26 (E.D. Va. 2015) (finding that
“the contours of [a bankruptcy court’s] decision are
confined to the provisions of the Bankruptcy Code and
related jurisprudence”); Law v. Siegel, 134 S. Ct.
1188, 1197 (2014) (“Equitable considerations [do not]
permit a bankruptcy court to contravene express
provisions of the Code.”); see also Norwest Bank
Worthington v. Ahlers, 485 U.S. 197, 206 (1988)
(“[W]hatever equitable powers remain in the
bankruptcy court must and can only be exercised
within the confines of the Bankruptcy Code.”).
IV. CONCLUSION
The Court finds that the doctrine of collateral
estoppel bars re-litigation of the facts in the Alaska
case. Accordingly, the decision of the United States
Bankruptcy Court for the Eastern District of Virginia
is REVERSED. As the bankruptcy court never

47a
reached an analysis of whether the Alaska court’s
findings implicate the statutory discharge bars in 11
U.S.C. § 523, the Court REMANDS the case to the
bankruptcy court for further proceedings consistent
with this opinion and the opinion of the District Court
for the District of Alaska in rendering its final
judgment in the estopping matter, including findings
in the Arizona case that the district court necessarily
adopted in rendering its judgment.
It is so ORDERED.
/s/
Liam O’Grady
United States District Judge
October 16, 2017
Alexandria, Virginia

48a
[ENTERED: March 15, 2017]
UNITED STATES BANKRUPTCY COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division
In re:
CHARLES TAYLOR MUHS,
Debtor.
TKC AEROSPACE, INC.,
Plaintiff,
vs.
CHARLES TAYLOR MUHS,
Defendant.

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

Case No.
16-12288-KHK
(Chapter 7)

Adv. Proc. No.
16-1192

ORDER DENYING MOTION FOR SUMMARY
JUDGMENT AND CONTINUING PRE-TRIAL
THIS CASE was before the court on March 9,
2017, on the Plaintiffs Motion for Summary
Judgment (Docket Entry 7). For the reasons stated
on the record, it is:
ORDERED:
1. The motion be and is hereby denied.
2. PRE-TRIAL CONFERENCE. The pretrial conference will be continued to September 11,
2017, at 9:30 a.m.

49a
3. DISCOVERY. Initial disclosures shall be
made no later than 25 days from entry of this order.
The parties shall make expert witness disclosures no
later than 75 days from entry of this order. Rebuttal
expert witness disclosures shall be made no later than
105 days from entry of this order. All discovery shall
be concluded by July 28, 2017.
4. EXHIBITS, FINAL WITNESS LIST AND
OBJECTIONS THERETO. All exhibits and witness
lists shall be filed and exchanged on or before August
17, 2017. All exhibits shall be properly bound, tabbed,
indexed, and the pages numbered. The parties should
provide the court with the original and two (2) copies.
The plaintiff’s exhibits shall be numbered. The
defendant’s exhibits shall be lettered. Objections to
exhibits shall be filed on or before August 24, 2017.
Any exhibit not objected to shall be admitted into
evidence except upon good cause shown. (See Local
Bankruptcy Rule 9070-1).
DONE at Alexandria, Virginia, this 9th day of
March, 2017.
Mar 15 2017 /s/ Klinette Kindred
Klinette H. Kindred
United States Bankruptcy Judge
Entered on Docket:
November 3, 2017
Copies electronically to:
Stephen K. Gallagher
Richard G. Hall

50a
[ENTERED: June 4, 2019]
FILED: June 4, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-1372
(1:17-cv-01304-LO-TCB)
(16-12288)
(16-01192)
In re: CHARLES TAYLOR MUHS
Debtor
-----------------------------TKC AEROSPACE INC.
Plaintiff - Appellee
v.
CHARLES TAYLOR MUHS
Defendant - Appellant
O R D E R
The petition for rehearing en banc was
circulated to the full court. No judge requested a poll
under Fed. R. App. P. 35. The court denies the petition
for rehearing en banc.
For the Court
/s/ Patricia S. Connor, Clerk

51a
[ENTERED: March 7, 2016]
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ALASKA
TKC AEROSPACE, INC.,

)
)
Plaintiff,
)
)
vs.
)
No.
) 3:11-cv-0189-HRH
CHARLES TAYLOR MUHS,
)
)
Defendant. )
)
Judgment in a Civil Case
This action came before the court. The issues
have been duly considered and a decision has been
rendered.
IT IS ORDERED AND ADJUDGED:
that plaintiff TKC Aerospace, Inc. have
judgment against and recover from defendant
Charles Muhs as follows:
1.

As to TKCA’s claims under Count I
(breach of contract), Count II (breach of
implied covenant of good faith and fair
dealing), Count III (breach of fiduciary
duty), and Count V (tortious interference
with prospective economic benefit),
TKCA is entitled to judgment against

52a
Muhs for lost profits in the amount of
$2,883,055.86.1
2.

As to TKCA’s Count IV (unjust
enrichment) and Count VI (fraud), the
court has entered summary judgment in
favor of Muhs,2 and these claims are
dismissed with prejudice.

3.

As to TKCA’s Count VII (Alaska Trade
Secret Acts), TKCA is entitled to
judgment against Muhs in the amount
of:
a. Lost Profits: $2,883,055.86
b. Research
and
$3,882,205.00

Development:

c. Exemplary Damages: $13,530,521.72.3
4.

In order to avoid double recovery,
plaintiff shall recover the judgment
entered herein on Counts I, II, III, and V
only in the event that the judgment
entered on Count VII is vacated.

5.

TKCA is entitled to attorneys’ fees in
the amount of $430,415.77, for a total
judgment against Muhs of $20,726,198.35.

1 TKCA’s prayer for relief did not include a request for
punitive damages.
2

Docket No. 195.

3

Per AS 45.50.915(b).

53a
6.

The judgment shall bear interest at the
rate of .66% per annum from the entry
hereof until paid.

7.

The court retains jurisdiction of this case
for purposes of reviewing the court’s
order of October 22, 20154 and this
judgment in the event that the judgment
in favor of TKCA in the Arizona Action
is reversed on appeal.

DATED at Phoenix, Arizona, this 7th day of
March, 2016.
/s/ H. Russel Holland
United States District Judge

4

Docket No. 296.

54a
[ENTERED: October 22, 2015]
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ALASKA
TKC AEROSPACE, INC.,

)
)
Plaintiff,
)
)
vs.
)
No.
) 3:11-cv-0189-HRH
CHARLES TAYLOR MUHS,
)
)
Defendant. )
)
ORDER
Motion for Summary Judgment and Sanctions
Plaintiff moves for summary judgment or in
the alternative for sanctions.1
This motion is
2
opposed. Oral argument has not been requested and
is not deemed necessary.
Facts
Plaintiff is TKC Aerospace, Inc. (TKCA).
Defendant is Charles Taylor Muhs.
TKCA, an Alaska Native Corporation 8(a)
contractor, specializes in aircraft procurement and
leasing and aerospace logistics support and
professional staffing for government and private
1

Docket No. 286.

2

Docket No. 292.

55a
concerns. Muhs was employed by TKCA as its Vice
President of Business Development. During Muhs’
employment, TKCA supplied six Dash 8 aircraft to
the Department of State (DoS). Muhs was
significantly involved in all six Dash 8 sales.
In March 2011, Muhs resigned his employment
with TKCA to begin working for Knowledge
International. Muhs later agreed to continue to work
part-time for TKCA. During this general time frame,
Muhs learned that there might be another DoS Dash
8 solicitation. Muhs began working with Phoenix
Heliparts, Inc. (PHP) to find aircraft and develop a bid
for this possible solicitation. After the DoS issued the
solicitation, Muhs continued to help PHP and PHP
eventually was the successful bidder. TKCA was
unable to submit a bid because it did not have an
aircraft to propose and because by the time the bid
was due, it knew Muhs was working with PHP.
On September 26, 2011, TKCA commenced this
action. TKCA asserted seven claims against Muhs in
its complaint: 1) breach of contract, 2) breach of the
implied covenant of good faith and fair dealing, 3)
breach of fiduciary duties, 4) unjust enrichment, 5)
interference with prospective business relationships,
6) fraud, and 7) misappropriation of trade secrets.
TKCA also moved for a preliminary injunction,3
which was granted on October 14, 2011.4 The
preliminary injunction generally enjoined Muhs from
assisting PHP with the Dash 8 solicitation.

3

Docket No. 7.

4

Docket No. 43.

56a
On October 20, 2011, TKCA commenced an
action against PHP in Arizona State court. Although
filed later, the Arizona Action progressed far more
rapidly than this case.
On February 21, 2012, Muhs moved to stay this
case pending resolution of the Arizona Action.5 At
this time, Muhs was represented in this matter by the
same counsel that was representing PHP in the
Arizona Action.6
In the memorandum in support of his motion to
stay, Muhs stated that the Arizona Action “involve[d)
the same plaintiff ... and [the] same factual and legal
issues as those in the Alaska Action” and that “[t]he
underlying factual allegations in the respective
Verified Complaints in the two actions are virtually
verbatim, the gravamen of the claims are identical,
and the relief requested is virtually identical.”7 Muhs
further stated “this pending action is so substantially
similar to and significantly parallels the Arizona
Action [as] reflected in the overwhelming overlap of
TKCA’s factual and legal arguments in the Arizona
Action Preliminary Injunction(‘PI’) Hearing Brief and
its Summary Judgment (‘SJ’) Motion Brief in this
court-the fundamental linchpin of both being the

5

Docket No. 61.

6 Muhs avers that he “was never fully advised of the
conflict of interest, the risks of joint representation and never
signed a written waiver.” Declaration of Charles Taylor Muhs
at 4,118, Exhibit 1, Defendant’s Response in Opposition to
Plaintiff TKC Aerospace, Inc.’s Motion for Summary Judgment,
Docket No. 292.

Memorandum of Law in Support of Defendant’s Motion
for a Temporary Stay at 2, Docket No. 62.
7

57a
alleged wrongdoing of Muhs.”8 Muhs stated that it
was “a distinction without a difference” that he was
the “sole defendant” because “TKCA’s claims of
wrongdoing by PHP are entirely based on the alleged
wrongdoing of Muhs.”9 Muhs also pointed out that
“all parties in the two cases have entered into a
stipulation and agreed that any discovery and trial
testimony from the Arizona Action can be used as
evidence in this case,” which Muhs suggested was
further evidence of “the substantial similarity
between the two cases....”10 In his reply brief, Muhs
stated that “[a] resolution of the Arizona Action in
TKCA’s favor will dispose of any remaining liability
and damage questions in the Alaska Action (again,
but for the $20,000 wage claim).”11 Muhs also stated
“[i]f TKCA prevails in the Arizona Action, ... then
Muhs would be collaterally estopped from arguing
differently in this Court.”12
On March 8, 2012, the court denied Muhs’
motion for a stay.13 In doing so, however, the court
observed that “Muhs’ relationship to TKC[A] and his
conduct as regards PHP is the keystone to all of the
claims of substance in both the Alaska federal suit
and the Arizona state suit.”14 The court also observed
that
8

Id. at 8 (internal citations omitted).

9

Id. at 9.

10

Id. at 10, n.4.

11 Reply Memorandum of Law in Support of Defendant’s
Motion for a Temporary Stay at 9-10, Docket No. 75.
12

Id. at 6, n.3.

13

Docket No. 76.

14

Order re Motion for Stay at 2, Docket No. 76.

58a
it is reasonably clear that the Arizona]
litigation will not necessarily resolve the
whole of this litigation. That said, the
Arizona litigation has the prospect of
materially affecting this litigation.
Because Muhs’ conduct is at the heart of
all the claims in this court and in
Arizona, there is the prospect for
substantial duplicative litigation even
though the defendants in the respective
cases are different.[15]
On May 2, 2012, TKCA and Muhs filed
simultaneous motions for summary judgment.16 All
of the evidence offered in support of the motions for
summary judgment had been developed in the
Arizona Action as no discovery had yet taken place in
this case. On January 17, 2013, the court denied
TKCA’s motion for summary judgment and granted
Muhs’ motion in part.17 Muhs was granted summary
judgment on TKCA’s unjust enrichment claim and
fraud claim and on portions ofTKCA’s breach of
contract and trade secrets claims.18
The court thereafter deferred any further
scheduling in this case until the Arizona Action was
completed. The proceedings in the Arizona Action
were finally completed on January 30, 2015. The
Arizona court concluded

15

Id. at 4.

16

Docket Nos. 85 and 91.

17 SEALED Order re Motions for Summary Judgment at
53, Docket No. 195.
18

Id. at 53-54.

59a
that PHP misappropriated TKCA’s bid
proposal, [Statements of Work] and
labor rates in violation of the fArizona
Uniform Trade Secrets Act]. PHP
profited from its misappropriation to
TKCA’s detriment and is ordered to pay
TKCA the sum of the profits TKCA
would have received under the DoS
contract.... It is further ordered that
PHP pay TKCA the calculated research
and development cost[s].... It is further
ordered that PHP pay exemplary
damages pursuant to A.R.S. §44-403(B)
in an amount double awarded to TKCA
for its lost profit and research and
development costs. In addition, with
respect to the common law claims, TKCA
is awarded its lost profits and punitive
damages.... It is also ordered that TKCA
submit its applications for the amount
awarded in sanctions (reasonable fees
and expenses) and for reasonable
attorney’s fees pursuant to A.R.S. § 44404 and A.R.S. § 12.349.[19]
The Arizona court’s conclusion was based on findings
that Muhs worked with PHP to compete for the DoS
contract, that Muhs provided TKCA documents to
PHP, and that Muhs worked on PHP’s DoS Dash 8
proposal.20 The Arizona court entered judgment
against PHP in the amount of $20,295,782.58.21
Under Advisement Ruling at 59, Attachment A,
Authenticating Affidavit of Peter Scully, Docket No. 288.
19

20

Id. at 4-11.

21

Id. at 60.

60a
TKCA now moves for summary judgment on all
of its remaining claims against Muhs on the grounds
that Muhs is collaterally estopped from relitigating
TKCA’s claims against him. In the alternative, TKCA
moves for entry of a default judgment as a sanction.
TKCA also moves for an award of attorney fees and
costs.
Discussion
Summary judgment is appropriate when there
are no genuine issues of material fact and the moving
party is entitled to judgment as a matter of law. Fed.
R. Civ. P. 56(c).
“For an issue in a separate action to have
preclusive effect under the doctrine of collateral
estoppel, the party against whom the issue is being
asserted must have been a party to the earlier action.”
Stewart v. Elliott, 239 P.3d 1236, 1240 (Alaska 2010).
“But if one was not a party to the earlier action, that
non-party may nonetheless be bound if in privity with
the party in the earlier action.” Id.
“In addition to the party/privity requirement,
collateral estoppel requires that the judgment be final
and on the merits; that the precluded issue be
identical in both actions; and that the issue be
essential to the final judgment in the first action.” Id.
at 1241-42. “In addition, ... the issue to be collaterally
estopped must have been ‘actually and fully litigated
in the first action.’ In other words, the precluded
party must have had ‘a fair opportunity procedurally,
substantively, and evidentially to contest the issue.’”
Chilton-Wren v. Olds, 1 P.3d 693, 697 (Alaska 2000)
(quoting Murray v. Feight, 741 P.2d 1148, 1153
(Alaska 1987)).

61a
There is no dispute that the Arizona judgment
is final and on the merits. There is also no dispute
that the issues in this action are identical to those in
the Arizona Action and that these issues were
essential to the final judgment in the Arizona Action.
The dispute here focuses on whether Muhs was in
privity with PHP.
Under Alaska law, “[p]rivity exists where ‘the
non-party (1) substantially participated in the control
of a party’s presentation in the adjudication or had
an opportunity to do so; (2) agreed to be bound by
the adjudication between the parties; or (3) was
represented by a party in a capacity such as trustee,
agent, or executor.’” Stewart, 239 P.3d at 1241
(quoting Powers v. United Servs. Auto. Ass’n, 6 P.3d
294, 297-98 (Alaska 2000)). “Privity ‘is a shorthand
way of expressing assurance that the non-party has
had adequate notice and opportunity to be heard, and
that its rights and interests have been protected.” Id.
(quoting Alaska Foods, Inc. v. Nichiro Gyogyo Kaisha,
Ltd., 768 P.2d 117, 121 (Alaska 1989)). “In effect,
privity assures that it is fair to legally bind the nonparty to the actions of the party in the earlier action.”
Id.
As set out above, Muhs represented to this
court that the issues in this case and the Arizona
Action were almost identical, and he expressly stated
that if TKCA were to prevail in the Arizona Action, he
would be collaterally estopped from arguing
differently in this court. In other words, Muhs
represented that he was agreeing to be bound by what
happened in the Arizona Action. Muhs, however,
argues that he was not aware of the breadth and
potential effect of his former counsel’s statements to

62a
this court. Muhs offers his declaration in support of
this argument. Muhs avers that he
was told and I believed that nothing that
was done, agreed to, or said in the
Arizona Matter would damage my case
in Alaska. I was told and believed I
would still be able to defend myself in
Alaska, including conducting discovery,
but some parts of the Arizona Matter
might be used in Alaska as evidence.[22]
Muhs further avers that he “recognize[s] that my
former attorneys made statements regarding the
applicability of the Arizona Action to this matter, but
I was unaware of the scope, breadth and potential
effect of those statements.”23 Muhs also avers that he
never knowingly agreed to be bound by
the results in the Arizona Action and
thereby take away my ability to argue
my case in Alaska. Everything I agreed
to and anything I signed, was done
because I was told it was necessary for
the trial in Arizona to move forward. I
would not have agreed to or signed
anything that I knew would take my
ability to defend myself away.[24]
Muhs also avers that he “retained the legal services
of Dickstein Shapiro ... to represent me in my role as
Muhs Declaration at 3, ¶ 5, Exhibit 1, Defendant’s
Response in Opposition to Plaintiff TKC Aerospace, Inc.’s Motion
for Summary Judgment, Docket No. 292.
22

23

Id. at 4, ¶ 9.

24

Id. at 5, ¶ 15.

63a
solely a witness in the Arizona Action.[25] Although
for a time Dickstein Shapiro was my counsel in this
matter, it was always my understanding that I was
being represented as a witness.”26
Muhs argues that his declaration makes clear
that he never intended to relinquish his rights to a
trial or to conduct discovery in this matter. Muhs
points out that while “courts look with favor on
stipulations designed to simplify, shorten or settle
litigation, or to save costs, they “will not give such
stipulations a forced construction” or “construe [a]
stipulation to waive rights not plainly intended to be
relinquished.’’ DeNardo v. Calista Corp., 111 P.3d
326, 332 (Alaska 2005) (citations omitted). Thus,
Muhs argues that his attorneys’ statements should
not be construed to mean that he relinquished his
rights to a trial or to conduct discovery in this case.
Muhs also argues that his counsel’s statements
should give way to his due process rights. Muhs
contends that the Supreme Court has made clear that
sometimes application of collateral estoppel violates
due process.
He cites to Blonder Tongue
Laboratories, Inc. v. University of Illinois Foundation,
402 U.S. 313 (1971), in support of this contention.
There, the Court observed that

25 This averment is in direct conflict with the fact that
three Dickstein Shapiro lawyers applied for permission to
appear and participate as co-counsel. for Muhs in this case.
Docket Nos. 23-25.

Muhs Declaration at 2, 13, Exhibit 1, Defendant’s
Response in Opposition to Plaintiff TKC Aerospace, Inc.’s Motion
for Summary Judgment, Docket No. 292.
26

64a
[s]ome litigants-those who never
appeared in a prior action-may not be
collaterally estopped without litigating
the issue. They have never had a chance
to present their evidence and arguments
on the claim. Due process prohibits
estopping them despite one or more
existing adjudications of the identical
issue which stand squarely against their
position.
Id. at 329. Muhs argues that this is a case in which
due process should prevent resolving this matter
through collateral estoppel because TKCA is asking
the court to enter judgment against him in excess of
twenty million dollars without allowing him the
opportunity to develop evidence. Muhs also argues
that to bind him to the outcome of the Arizona Action
would violate his due process rights because while he
had involvement in the Arizona Action, it was only as
a witness and not as a party. As a witness, he
contends that he never had the right to call his own
witnesses, conduct discovery, or otherwise assert a
defense. Thus, he argues that he never received a fair
hearing on the claims asserted against him by TKCA
and that he should be allowed such a hearing now.
Muhs now argues that while the discovery conducted
by PHP in the Arizona Action might have been similar
to discovery Muhs would conduct in this matter, it
was not identical. For example, Muhs avers that he
will seek discovery from and call as witnesses “Mike
Weems, Brian Blake, Ron Lee and Robert Kessler[,]”27
who were presumably not witnesses in the Arizona
Action. Muhs also contends that he will retain
27

Id. at 3, 11. 10.

65a
experts in the area of government contracts in order
to demonstrate the effect of TKCA’s decision to not bid
on the Dash 8 solicitation and that he will also seek
discovery of documents from the DoS to demonstrate
that TKCA’s decision not to bid had little to do with
his actions. Muhs reminds this court that the Alaska
Supreme Court has “recognized that it is not always
possible to resolve a case through collateral estoppel,
even if that case arises from the same underlying
facts and theory as prior litigation.” Powercorp
Alaska, LLC v. Alaska Energy Auth., 290 P.3d 1173,
1182 (Alaska 2012). And he insists that this is one of
those times.
This court disagrees.
Muhs is equitably
estopped from now asserting that he did not
understand that he was agreeing to be bound by
whatever happened in the Arizona Action.
Alaska recognizes two separate estoppel
doctrines. The elements of equitable
estoppel are the assertion of a position
by conduct or word, reasonable
reliance thereon by another party, and
resulting prejudice. Neither ignorance
nor reliance, however, are essential
elements of quasi estoppel.
Quasi
estoppel appeals to the conscience of the
court and applies where the existence of
facts and circumstances mak[es] the
assertion of an inconsistent position
unconscionable.
This court has
instructed trial courts to consider the
following
factors
in
determining
whether the doctrine of quasi estoppel is
applicable: whether the party asserting

66a
the inconsistent position has gained
an advantage or produced some
disadvantage through the first position;
whether the inconsistency was of such
significance as to make the present
assertion unconscionable; and, whether
the first assertion was based on full
knowledge of the facts.
Wright v. State, 824 P.2d 718, 721(Alaska 1992)
(internal citations omitted). Either doctrine applies
here. Equitable estoppel applies because TKCA
reasonably relied on Muhs’ numerous assertions that
the Arizona decision would bind the parties in this
case and TKCA would be prejudiced if it were to have
to retry this case now.
Quasi estoppel also applies because Muhs
gained an advantage by representing that he would
be bound by the Arizona Action and allowing him to
change course now would be unconscionable. Muhs’
former counsel formally appeared for him and thus
“was authorized to speak and act for him.” Lane v.
Ballot, 330 P.3d 338, 342 (Alaska 2014). Muhs’
counsel represented to this court that Muhs agreed to
be bound by whatever happened in the Arizona
Action. The court simply must be able to rely upon
commitments of counsel made on behalf of their
clients in answers, motion papers, and procedural
matters such as the interrelationship between the
Arizona Action and this case. If parties are free to
question or challenge decisions made by counsel in
the course of litigation after the court has received
and relied upon representations of counsel, the court’s
ability to effectively manage litigation would be very
substantially degraded. Indeed, there would need to

67a
be a wholesale revision of the way in which the court
and counsel for parties interact.
In short, Muhs agreed to be bound by the
decision in the Arizona Action and thus he was in
privity with PHP. Because Muhs was in privity in
with PHP, Muhs is collaterally estopped from
relitigating TKCA’s claims against him.28
If the court decides that collateral estoppel
applies here, which it has, Muhs argues that it should
only apply to liability and that he should still have an
opportunity to conduct discovery as to whether
TKCA’s damages were proximately caused by his
conduct. Muhs contends that given the enormity of
the judgment that TKCA seeks to have entered
against him and the fact that TKCA already has a
judgment in excess of $20 million against PHP, he
should be permitted to conduct discovery to ensure
that damages are not assessed against him for the
actions of PHP or for conduct for which TKCA has
already been compensated.
Muhs, however, represented to this court that
“the alleged damages [in the two actions] are the
same”;29 that “the liability and damage components of
the two actions are more than ‘sufficiently parallel’;30
that the “damages are essentially identical in both
Because the court concludes that Muhs agreed to
bound by the outcome of the Arizona Action, the court need not
consider TKCA’s argument that Muhs substantially participated
in the control of PHP’s defense. The court also need not consider
TKCA’s alternative motion for sanctions.
28

29 Memorandum of Law in Support of Defendant’s
Motion for a Temporary Stay at 4, Docket No. 62.
30

Id. at 12.

68a
cases;”31 and that “[a] resolution of the Arizona Action
in TKCA’s favor will dispose of any remaining liability
and damage questions in the Alaska Action....”32
Thus, Muhs’ contention that the damages that were
decided in the Arizona Action might not be
attributable to him is meritless. Muhs is collaterally
estopped from relitigating both liability and damages,
and TKCA is entitled to summary judgment as to both
liability and damages.
TKCA also contends that it is entitled to its
attorney fees and expenses. First, TKCA argues that
Muhs is liable for the attorney fees and expenses that
it has incurred in this case. The court will entertain
TKCA’s motion for an award of attorney fees and
expenses incurred in connection with this case. Such
motion shall be filed on or before November 23, 2015.
Second, TKCA argues that Muhs is liable
under his employment agreement for its attorney fees
and expenses incurred in the Arizona Action. Muhs’
employment agreement provides:
If Executive breaches any of the
covenants set forth in Paragraph 6, 7
or 8 of this Agreement, Executive agrees
to pay all costs (including reasonable
attorney’s fees) incurred by the
Company in establishing that breach
and in otherwise enforcing any of the
covenants or provisions of this
Agreement.[33]
31 Reply Memorandum of Law in Support of Defendant’s
Motion for a Temporary Stay at 6, n.3, Docket No. 75.
32

Id. at 9-10.

33

Exhibit A at 10, 19, Verified Complaint, Docket No. 1.

69a
TKCA contends that this provision is broad enough to
encompass its attorney fees and costs in the Arizona
Action and argues that had it not established that
Muhs breached his agreement in the Arizona Action,
it would have had to do so here. Thus, TKCA insists
that Muhs is liable for the Arizona attorney fees
($4,596,865.06) and taxable costs ($113,321.37).
TKCA has offered no authority that suggests
that Muhs’ employment contract should be
interpreted to include attorney fees directed at
establishing Muhs’ liability but incurred in litigation
in which he was not a named party. The court had
substantial doubt that Muhs’ employment contract is
broad enough to cover such fees. With what is
presently before it, the court denies TKCA’s request
for fees incurred in the Arizona Action. The court will,
however, reconsider the matter if TKCA can offer any
authority to support its contention that it is entitled
to the fees incurred in the Arizona Action.
Next, there is the matter of Muhs’ stay request.
Muhs argues that if the court decides that TKCA is
entitled to summary judgment, it should stay the
current matter until the appeal filed by PHP in the
Arizona Action is decided.34 If PHP’s appeal is
successful, in whole or in part, the judgment on which
TKCA is basing its current motion for summary
judgment will be vacated in whole or in part. If this
were to happen, Muhs argues that an incongruous
result would occur: the judgment against .PHP would
be vacated and yet the judgment against him would
still exist.
PHP filed Chapter 11 bankruptcy on September 18,
2015, so any appeal is presumably now stayed.
34

70a
The court is not inclined to leave this matter
open until an Arizona appeal and bankruptcy
proceeding are concluded, but there are other ways for
the parties to deal with the problem which would
arise if the Arizona judgment were to be reversed. For
example, a protective notice of appeal could be filed in
this case and held in abeyance pending resolution of
the Arizona appellate proceedings. Or, the parties
could agree that judgment in this case be reopened if
an Arizona appeal is successful, agree not to execute
on this court’s judgment, and this court could retain
jurisdiction of this matter for purposes of postjudgment proceedings in the event that the Arizona
judgment were to be reversed. The parties can and
should consider an appropriate post-judgment
agreement with respect to the foregoing matters,
which the court will take up at the same time it is
finalizing a judgment in this case.
Finally, there is the matter of the relief to
which TKCA is entitled. What follows is this court’s
tentative view of what the final judgment in this case
should be:
As to TKCA’s claims under Count
I (breach of contract), Count II (breach of
implied covenant of good faith and fair
dealing), Count III (breach of fiduciary
duty), and Count V (tortious interference
with prospective economic benefit),
TKCA is entitled to judgment against

71a
Muhs for lost profits in the amount of
$2,883,055.86.35
As to TKCA’s Count IV (unjust
enrichment) and Count VI (fraud), the
court has entered summary judgment in
favor of Muhs,36 and these claims are
dismissed with prejudice.
As to TKCA’s Count VII (Alaska
Trade Secret Acts), TKCA is entitled to
judgment against Muhs in the amount
of:
a.

Lost Profits: $2,883,055.86

b.

Research and Development:
$3,882,205.00

c.

Exemplary
$13,530,521.7237

Damages:

TKCA is entitled to taxable costs
of $
and attorney fees and nontaxable costs in the amount of $
.
The judgment shall bear interest
at
% per annum from the date of this
judgment until paid.
The court retains jurisdiction of
this case for purposes of reviewing the
court’s order of
TKCA’s prayer for relief did not include a request
for punitive damages.
36
Docket No. 195.
37
Per AS 45.50.915(b).
35

72a
and this judgment in the event that the
judgment in favor of TKCA in the
Arizona Action is reversed on appeal.
Conclusion
TKCA’s motion for summary judgment is
granted. TKCA is granted summary judgment as to
its remaining claims against Muhs. As set out above,
TKCA may serve and file a motion for attorney fees
and costs incurred in this action. And, TKCA shall
serve and file a proposed judgment on or before
November 23, 2015. Muhs shall respond on or before
December 7, 2015; and any reply by TKCA shall be
served and filed within seven days of Muhs’ response.
DATED at Anchorage, Alaska, this 22nd day of
October, 2015.
/s/ H. Russel Holland
United States District Judge

73a
[ENTERED: January 30, 2015]
Michael K. Jeanes, Clerk of Court
*** Electronically Filed ***
02/02/2015 8:00AM
SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CV 2011-018889

01/30/2015
CLERK OF THE COURT
C. Keller
Deputy

HON. SALLY SCHNEIDER DUNCAN
T K C AEROSPACE INC
v.

BRIAN D MYERS

PHOENIX HELIP ARTS INC, et al.
SHARON A URIAS
HOWARD R CABOT
UNDER ADVISEMENT RULING
This case involves statutory and common law
claims brought by Plaintiff, TKCA Aerospace, Inc.
(“TKCA”), against Defendant, Phoenix Heliparts, Inc.
(“PHP”), for misappropriation of trade secrets under
A.R.S. § 44-401 et. seq., the Arizona Uniform Trade
Secret Act (“AUTSA”), intentional interference with
business expectancy, unfair competition, and
conversion.1 More specifically, TKCA alleges that
PHP has filed counterclaims against TKCA that are not the
subject of this ruling.

1

74a
PHP colluded with a TKCA employee, Charles Muhs
(“Muhs”) to misappropriate protected, confidential
and proprietary information to compete for and
secure a government contract that would have
otherwise been awarded to TKCA but for PHP’s
misconduct. PHP argues that TKCA’s failure to
submit a bid precludes TKCA’s claims. PHP also
maintains that the information it misappropriated
and used in its bid proposal was publicly available
through a Freedom of Information Act (“FOIA”)
request or other public means, i.e., the internet.
TKCA seeks relief under AUTSA in the form of headstart damages, research and development costs, and
lost profits and also seeks relief for the common law
claims including a request for punitive damages.
In addition to addressing the claims raised by
TKCA in its Complaint, this ruling also addresses the
misconduct that PHP engaged in during trial which
expanded the proceedings from a trial projected to last
four days to one that exceeded 40 days and included a
hearing under Zimmerman v. Shakman, 204 Ariz.
231, 62 P.3d 976 (App. 2003)(“Zimmerman”).2
For ease of reference, the parties and significant
witnesses involved in this case are as follows:
x

TKCA – Plaintiff Aerospace Contractor
o

Sam Boyle – TKCA President

o

Charles Muhs – Former TKCA VicePresident for Business Development

The Zimmerman hearing exrunined whether PHP engaged in
misconduct; if so, whether the misconduct was material; if so,
whether the misconduct was prejudicial; if so, who was at fault:
PHP, its counsel or both.
2

75a

x

x

o

Tim Summerrow – TKCA Director of
Airborne Programs

o

Race McCleery – TKCA Chief Financial
Officer

PHP – Defendant Aerospace Contractor
o

Tina Cannon – PHP President

o

Darin Cannon – PHPs Vice President of
Operations and Tina Cannon’s husband

o

Don Nichols – Part owner of PHP

o

Ed Brown – Part owner of PHP

Communication Concepts, Inc. (CCAZ) – PHP’s
outside information technology (“IT”) provider
o

x

Robert Jones – CCAZ employee

Bombardier, Inc. – Canadian Civil Aircraft
Manufacturer
o

Jonathan Cree – Bombardier representative

x

Doug Asslet – Director of Maintenance for the
Department of State (“DoS”) Bureau of
International Narcotics and Law Enforcement
Affairs–TKCA’s primary point of contact

x

Dennis Allen – TKCA Damages Expert

x

Thomas Day – TKCA Computer Forensics
Expert

x

Dr. Dov Frishberg – PHP Damages Expert

x

Stroz Friedberg, LLC – PHP Computer
Forensics experts

76a
o

Kenneth Mendelson – Stroz Friedberg
representative

x

Knowledge International – A United Arab
Emirates (“UAE”) company and Charles Muhs’
putative employer

x

EAI – The UAE parent-company of Knowledge
International

x

Dickstein Shapiro, LLC – PHP Counsel
o

Victoria Kummer – PHP counsel

x

Sharon Urias – Local counsel retained to assist
Dickstein Shaprio

x

Air Nostrum – A Spanish Airline whom
Bombardier acted as an agent for in the sale of
its Dash 8 fleet.

x

Theo Von Wyl – An independent contractor
TKCA had used in Spain to inspect and
monitor Air Nostrum’s Dash 8’s before delivery
I.

FACTS
A. Facts Common to all Claims

This court finds and relies upon, but is not
limited to, the following facts in its ruling.
TKCA is an Alaskan corporation specializing in
aircraft procurement, support, and logistics. TKCA
Compl., ¶ 1. In 2005, Charles Muhs signed a two-year
contract to serve as TKCA’s Vice President. Ex. 194
TKCA_PHP 000001. In 2007, Muhs entered into a
new agreement pursuant to which he would become
the Vice President of Business Development. Ex. 1.

77a
The contract included a clause that prohibited Muhs
from disclosing confidential information to any third
party or competing with TKCA for six months after
his employment terminated. Ex. 1. Section 7 of Muhs’
employment contract with TKCA provides that the
executive will not “disclose to any third party or entity
any trade secrets or other proprietary or confidential
information” without the company’s written consent.
Ex. 1C at TKCA_PHP_000009-10. The contract
defined company trade secrets as “compilation[s] of
information or data related to or concerning
Company’s business, contract strategies ... [or] existing
contracts and contracts under negotiation ...” Id. This
contract represents the type that TKCA required all
of its executive employees to sign. TKCA’s employee
handbook also included a section on confidentiality
regarding company information. January 11, 2012 Tr.
34:4-7. As Vice President of Business Development,
Muhs had access to TKCA’s confidential and
proprietary information, as well as trade secrets.
During Muhs’ employment, he was personally,
directly, and significantly involved in securing several
large contracts between TKCA and DoS. January 11,
2012 Tr. 40:21 – 42:20. In September 2009, TKCA
subcontracted with PHP to fulfill a Department of
State order for the purchase and retrofit of MD-530
helicopters. Ex. 52 at ¶ 27. Muhs was the primary
liaison for TKCA’s business with PHP. PHP is an
Arizona corporation licensed, authorized, and
conducting business in Maricopa County. Ex. 52 at ¶
2. Prior to its work on the MSN 560, PHP’s sole
expertise was in MD helicopter maintenance. The
company had never performed work on a fixed-wing
aircraft. March 12, 2012 Tr. 95:4-20.

78a
From December 2009 to February 2011, DoS
issued solicitations for six Dash 8 aircraft. Each time,
DoS selected TKCA as the successful bidder. January
11, 2011 Tr. 39:20 – 40:3; 40:21 – 42:20. The original
solicitation issued by DoS did not specify the type of
aircraft a contractor should use. Instead, based on its
fixed-wing experience, research and planning, TKCA
selected the Dash 8 as the aircraft best suited to meet
DoS’s immediate and long-term needs. January 11,
2012 Tr. 44:4 – 18. The Dash 8 is a large, fixed-wing
turbo prop aircraft manufactured by Bombardier, the
world’s largest civil aircraft manufacturer. Ex. 172.
There is a limited supply of Dash 8 aircraft because
Bombardier no longer manufactures them. January
11, 2012 Tr. 40:4-20. Over time, TKCA purchased six
Dash 8 aircraft from Bombardier to fulfill DoS
solicitations. Id. at 44:19 – 45:20. To satisfy DoS and
to secure its position as the successful bidder, TKCA
invested significant time, money and resources
modifying the Dash 8 aircraft.
Upon learning of DoS’s requirements, Muhs
would contact Bombardier to select a suitable Dash 8.
January 11, 2012 Tr. 37:20 – 39:19, 40:4-10, 44:19 –
45:20, 62:12-19; Ex. 30 at 17:11 – 18:9. After entering
into a letter of intent with Bombardier, TKCA would
submit a proposal to DoS identifying the aircraft and
describing how it planned to modify the Dash 8 to
meet DoS needs. January 11, 2012 Tr. 44:19 – 45:6,
46:17 – 48:11, 68:23 – 69:3; Ex. 30 at 17:18 – 18:9; Ex.
31 at 69:25 – 70:22.
On March 28, 2011, Muhs unexpectedly
resigned without cause to pursue employment with
Knowledge International, a UAE company. Ex. 2.
Muhs assured TKCA that his new duties would not be

79a
competitive with TKCA. Id. Three weeks later, Muhs
agreed to continue part-time for TKCA while working
for his new employer. In breach of his contractual
obligations, Muhs then began to work closely with
PHP to secure aircraft and develop a bid for a possible
DoS solicitation by providing it with the necessary
business relationships, trade secrets, and confidential
information.
On August 5, 2011, DoS issued a solicitation
specifically for a seventh Dash 8 aircraft and an
option for an eighth. Ex. 29 at 1. On September 9,
2011, PHP submitted its Proposal to DoS in response
to the Solicitation. Ex. 133 and 888; January 17, 2013
Tr. 74:2 – 77:10. DoS awarded PHP the contract.
PHP’s and Muhs’ illicit alliance directly and adversely
impacted TKCA’s ability to prepare and submit a
successful bid in response to the DoS solicitation. On
September 26, 2011, TKCA filed a lawsuit in the
United States District Court for the District of
Alaska, suing Charles Muhs for breach of contract.
Ex. 53. On October, 20, 2011, TKCA filed this action.
B. Facts Relevant to Common law
and Statutory Claims
1. PHP and Muhs worked
together to compete for the
DoS contract
On April 22, 2011, Doug Asslet, Muhs’ contact
at DoS, called him to request market research on any
available Dash 8’s. March 12, 2012 Tr. 148: 20149:14. Muhs immediately contacted Jonathan Cree
at Bombardier about any available Dash 8’s. Id. at
149:16-20. Cree emailed Muhs specifications on the
MSN 560, 582, and 586 and identified the MSN 560

80a
as the best option based on its specifications and
price. Ex. 85. On the same day, Muhs forwarded the
specifications to Doug Asslet and Race McCleery. Ex.
287. On May 27, 2011, Bombardier sent Muhs, as a
TKCA representative, a signed letter of intent (“LOI”)
for the sale of the MSN 560. Ex. 12. If signed by
TKCA, the LOI would have bound TKCA and
Bombardier. January 11, 2012 Tr. 68:23 – 69:25; Ex.
31 at 69:25 – 70:22. Without TKCA’s knowledge and
consent, Muhs sent the LOI to Tina Cannon, PHP’s
President, resulting in the unauthorized disclosure of
information about customer’s needs, the aircraft that
met those needs, as well as sale’s pricing, terms, and
conditions. Ex. 240; January 11, 2012 Tr. 66:4 – 69:14.
On May 31, 2011, Muhs emailed Doug Aslett of
DoS: “I’ve done some market research on the
available Dash 8s. Attached you will find a draft LOI
for two aircraft for your review.” Ex. 15 at
TKCA_PHP_KI_164. Muhs and Tina Cannon then
emailed each other, following up on the Muhs-Aslett
email, about the TKCA LOI:
Cannon to Muhs: “Chuck, I noticed that
they (Bombardier) sent it (the LOI) to
the TKCA e-mail address and to you at
TKC? If your [sic?] around later I do
need to talk to you. Tina”
Muhs to Cannon: “Tina, that is what the
letter said but it was sent to my
Knowledge International email address.
TKCA has not gotten it yet. Regards,
Chuck”
Cannon to Muhs: “Oh, it looked really
strange. I returned your call. If your

81a
[sic?] available, I give you a call in about
10 minutes if not we can talk in the
morning.”
Ex. 15; January 11, 2012 Tr. 159:3 – 163:22; March
13, 2012 Tr. 139:23 – 143:9; March 15, 2012 Tr. 99:9
– 102:12, (Brackets not in the original). Tina Cannon
denied looking at the attachment, which was the
TKCA LOI. March 15, 2012 Tr. 97:19-21; 99:24 –
100:1; 100:9-12. This court finds Tina Cannon’s
testimony strains credibility on this point and many
others. Tina also testified that she knew that Muhs
‘‘was bound by a noncompete with TKCA.” March 15,
2012 Tr. 85:20-86:11. Because TKCA never learned of
the LOI, it did not respond and the LOI lapsed.
January 11, 2012 Tr. 66:1 – 69:21, 160:11 – 163:22.
On July 1, 2011, PHP and Bombardier entered into a
LOI for the sale of MSN 560. Ex. 4. PHP knew DoS
had awarded TKCA contracts for the previous six
aircraft. March 15, 2012 Tr. 86:8-22.
Muhs continued to act as PHP’s liaison. He
introduced Tina and Darin Cannon to his contacts at
Bombardier, Air Nostrum, and to Theo Von Wyl.
Bombardier was the sales agent for Air Nostrum, a
Spanish aviation company that was selling its fleet of
Dash 8s as it transitioned to a different type of
aircraft to serve its passengers. January 11, 2012 Tr.
41: 8-18. TKCA had developed a close relationship
with representatives from Bombardier. Id. at 43:2545:13. Theo Von Wyl is an independent contractor
who performed preliminary inspections for TKCA on
the Dash 8’s it previously sold to DoS. March 13, 2012
Tr. 168:7 – 169:10. TKCA had also developed a close
relationship with Theo Von Wyl. January 11, 2012 Tr.
178: 18-24. Muhs recommended that PHP use Theo

82a
Von Wyl to provide oversight at Air Nostrum. March
13, 2012 Tr. 168:11 – 169:9. PHP named Theo Von
Wyl’s as its representative providing project oversight
at Air Nostrum in the DoS proposal. Ex. 133 at PHP
003343.
Throughout the bid drafting process, Muhs and
the Cannons continuously consulted each other. A
chain of emails dated August 8, 2011 provides an
example of their communications and their
consciousness of TKCA’s role as a competitor, which
serves to underscore why Muhs and the Cannons
went to such great lengths to conceal their efforts
from TKCA. In the highlighted email exchange,
Darin, Tina, and then later Muhs discuss the aircraft
selection process for the DoS Dash 8 solicitation. Ex.
120. Darin and Tina communicated with each other
about a Dash 8 that had been in a hard landing
accident, and they expressed concern that Doug
Asslet, DoS’s point of contact, would not accept the
aircraft. Later that day in an email Darin sent to
Muhs and Tina, he stated, “I don’t think the contract
distinguished this. It’s a million plus cheaper and may
give TKCA an advantage.” Id. Darin Cannon testified
that he wrote “may give TKCA [an] advantage”
because he was conscious of TKCA as a competitor for
this solicitation. March 12, 2012 Tr. 107:5 – 108:13.
2. Muhs provided, and PHP used
TKCA documents
On
June
2,
2011,
Muhs
uploaded
approximately 1600 TKCA documents onto PHP’s
FTP server. March 14, 2012 Tr. 4:10 – 6:2; Ex. 283.
After Muhs stopped uploading these documents, he
informed Tina and Darin Cannon that he

83a
“downloaded some files to the FTP [server] on both
the Dash 8 and 1900D,” and that ‘‘there are Initial
Provisioning Lists that are included in both files.” Ex.
420; July 26, 2012 Tr. 151:22 – 153:4. Initial
Provisioning Lists (IPL) identify the parts and
equipment needed for a project. Tina Cannon claims
she never knew Muhs uploaded documents to the FTP
server, and denies seeing any TKCA documents.
April 24, 2013 Tr. 59:1-10. Ten days later, Muhs met
with PHP’s Owners, Ed Brown and Don Nichols, and
the Cannons in Costa Mesa, California, for a business
development meeting. Muhs gave a presentation
titled “Business Development Process Prepared by
Charles Muhs in June of 2011 for Phoenix Heliparts.”
March 12, 2012 Tr. 132:1-24; January 14, 2013 Tr.
58:16 – 61:23; Ex. 430. In the meeting, Muhs
identified Dash 8’s as a business opportunity target.
Ex. 430 at PHP 44253. Later that month, in an email
with the subject line of “Dash 8 Program,” Don
Nichols wrote Muhs and stated “Chuck you are the
man of the moment and without you we’d never think
of entering this program.” Ex. 258; March 15, 2012 Tr.
136:3- 137:13. At trial Muhs testified that while he
was still under contract with TKCA he ‘‘took the
TKCA proposal, put it under PHP for GAL, yes, and
they used that.” March 13, 2012 Tr. 97:11-12.3

“GAL” refers to Global Aerospace Logistics, LLC, which is a
company based in Abu Dhabi, the capital of the UAE. PHP
maintains that Muhs and the Cannons were actually working on
a “GAL proposal” and not the DoS solicitation. The GAL proposal
will be discussed in more detail below but it bears noting that
this Court finds the GAL proposal to be a fraud, and at no time
did Muhs give confidential Dash 8 information to PHP with any
intent other than to assist with the DoS proposal.

3

84a
On August 17, 2011, Muhs sent the Cannons
an email with the subject line “First Draft” and told
the Cannons he would “send more stuff.” Ex. 455.
Tina Cannon responded: “Looks good! Freaks me out
seeing TKCA’s name though.” Ex. 455. Tina Cannon
clearly understood that she was intentionally and
knowingly appropriating TKCA’s trade secrets and
confidential and proprietary information. Another
version of the August 17, 2011, “First Draft” email
contained an attachment titled “PHP DoS Dash 8-315
Proposal v1_0.docx.” Ex. 1045. Five days later Muhs
forwarded to the Cannons emails between TKCA and
Bombardier containing almost 200 pages of TKCA’s
Initial Provisioning Recommendation (IPR) for Dash
8 aircraft. Ex. 6; March 13, 2012 Tr. 69:19-25. Much
like IPLs, IPRs contain a detailed list of parts and
equipment TKCA believes will be necessary to
complete the contract. TKCA negotiated this IPR with
Bombardier in connection with TKCA’s sale of the
sixth Dash 8 to DoS. Id.; January 12, 2012 Tr. 8:25 –
13:22. PHP used the information in the IPR to
complete the PHP proposal by seeking a price quote
from Bombardier for the parts on the list. Ex. 124.
On August 25, 2011, Tina Cannon sought a
quote from Bombardier on the “Initial Provisioning
Recommendation” list necessary for inclusion in its
proposal to DoS. Ex. 124 at PHP 1954-1955; April 23,
2013 Tr. 132:2-3. Tina Cannon needed this pricing
information and list of required spare parts to
complete PHP’s proposal on time. Ex. 124.
Bombardier responded in pertinent part: “Since you
have a very specific list of parts that appear to have
come from a document supply to a separate company
I would like to be cautious and make sure that those
are the correct parts for the aircraft you are

85a
provisioning for, current configuration and current
pricing.” Ex. 124 at PHP 1953; Tina Cannon
confirmed to Bombardier that this transaction was
similar to the six previous Dash 8s sold to DoS. Ex.
124 at PHP 1949-1952. Bombardier followed up with
Tina Cannon by saying: “We need to re-run the
document to make sure this list is accurate ... [t]o
generate a new document to support your request will
take our IP team 2 weeks.” Ex. 124 at PHP 1949-1952;
April 23, 2012 Tr. 133:4 – 134:1. Tina Cannon
responded: “Could you please just quote the list as
given. We cannot wait 2 weeks. However, after
quoting the list as is could you then provide the rerun?” Ex. 124 at PHP 1949-1950. At trial, Tina
Cannon admitted she used TKCA’s IPR in the
proposal PHP submitted to DoS. April 23, 2012
Tr.140:14-23. PHP’s use of the TKCA IPR provided
PHP with past IPL proposal information. Absent this
information, PHP would have been unable to respond
timely to the DoS Solicitation.
There are more examples of the thoughtless
and brazen manner in which PHP engaged in
misconduct. For instance, identical typographical
errors and language exclusive to TKCA appeared in
both PHP’s proposal and TKCA’s March 2011
proposal.4 PHP’s proposal also contained the Blue
The PHP Proposal and the TKCA Proposal have the same typo
under Aircraft Market Research – “Performance on unimproved
runways, hot and high performance necessary for the meeting
the condition within the theatre of operations ....” [The
unnecessary ‘‘the” before “meeting” appears in both documents].
Ex. 133 at PHP 003353; Ex. 9 at TKCA_PHP 983.
“Manufactures” should be ‘‘manufacturers” in both proposals.
Ex. 133 at PHP 003366; Ex. 9 at TK.CA_PHP 994. The word
“Proposes” is improperly capitalized in both proposals. Ex 133 at

4

86a
Falcon Tracker Data and Evaluation Notices that
appeared in the draft form of TKCA’s sixth Dash 8
proposal. April 25, 2012 Tr. 19:23 – 23:13; April 26,
2012 Tr. 40:3-57:5. In addition, PHP copied large
portions of the proposal that TKCA had selected out
of Bombardier technical manuals. Ex. 66; March 13,
2012 Tr. 105:10 – 106:2. Bombardier only gives
technical information of that kind to customers and
prospective vendors. January 11, 2012 Tr. 55: 14-22.
DoS requires prospective vendors to provide “past
experience” as part of the bid process. PHP had no
prior fixed-wing aircraft experience but fallaciously
claimed past experience delivering Dash 8 aircraft,
and highlighted Muhs’ involvement as overseer and
“Director of Special Programs.” Ex. 133 at PHP
003343. PHP poached TKCA’s trade secrets,
confidential and proprietary information and past
performance to position itself competitively in the bid
process.
An Evaluation Notice (“EN”) is a request by
DoS to a contractor for a technical clarification
relating to a contractor’s proposal. January 12, 2012
Tr. 18:18- 23:5; Ex. 19. DoS generates these notices as
part of the dialogue between the DoS contracting
officer and a prime contractor such as TKCA. Ex. 19.
The DoS ENs are not publicly available. January
12,2012 Tr. 23:1 -23:4. Appendix E to PHP’s proposal
is an EN provided by Bombardier to TKCA and DoS
during one of the prior TKCA Dash 8 sales. March 13,
PHP 003379; Ex. 9 at TKCA_PHP 1007 Two different acronyms
for the same organization (“INL/A” and “INL-A” for
International Narcotics and Law Enforcement Office of
Aviation) mistakenly appear in both proposals, in the same
sections. Ex. 133 at PHP 003377-78, 3380; Ex. 9 at TKCA PHP
1005, 1007, 1009.

87a
2012 Tr. 114:20 – 115:20; Ex. 133 at PHP 3479. In this
EN, Bombardier responded to a DoS request
regarding the operating characteristics of a Dash 8
aircraft at 58 degrees Celsius. March 13, 2012 Tr.
117:6-9. TKCA labeled every page of the EN as
“strictly confidential.” March 13, 2012 Tr. 117:10-13.
Muhs testified that he gave this EN to PHP. March
13, 2012 Tr. 118:5-10. PHP used this EN in its
proposal to DoS. March 13, 2012 Tr. 118:5-10; Ex. 133
at PHP 003480 – 84. TKCA provided ENs regarding
the “Extra Baggage Compartment” and “Beta
Lockout” in the TKCA Proposal. Ex. 19. PHP included
these two ENs in its proposal to DoS. Compare Ex. 19
and Ex. 133 at PHP 003488-99 and 3510-12. The DoS
solicitation for the seventh Dash 8 did not require the
“Extra Baggage Compartment” or “Beta Lockout.” Ex.
29. Nevertheless, PHP’s proposal included these ENs
because PHP blindly copied TKCA’s prior proposal
without taking the time to ensure that its proposal
satisfied DoS’s solicitation.
PHP also misappropriated and used at least
two of TKCA Statements of Work (“SOWs”).5 January
12,2012, Tr. 29:24-30:1. TKCA produces and submits
SOWs along with its proposals in response to
government issued RFPs. January 12, 2012 Tr. 28: 46. TKCA had submitted one in connection with a prior
Dash 8 contract and the other as a part of the UH-1
proposal in which TKCA had used PHP as a
subcontractor. Exs. 21 and 22. The SOWs enable the
government to see how TKCA plans to meet the
TKCA executive, Summerrow examined PHP’s Dash 8 SOW
and testified that “it appears our statement of work has been
taken as a draft and used to produce this document.” PHP was
afforded an opportunity to test this claim but did not question
Mr. Summerrow on this point. January 12, 2012 Tr. 29:24 – 30:1.

5

88a
requirements of the RFP by identifying TKCA’s
subcontractors and the terms of their work. The
SOWs mirror the requirements established in the
RFP and provide additional technical and managerial
instructions on how to execute the work. Id. at 31 :69. Different aircraft may need different modifications
to satisfy the requirements of the RFPs. Accordingly,
TKCA developed individualized SOWs. Indeed, TKCA
hires employees who work solely on drafting and
refining SOWs. Their efforts produce a work product
unique to TKCA. TKCA crafted each SOW to give the
company a competitive advantage. Id. at 31:14-22.
Notably, the government does not always award a
contract to the lowest bidder. The quality of the work
is equally important. Through the SOWs, a contractor
can demonstrate how its proposed solution will result
in the best product. Id. at 31:21-22. When PHP
misappropriated TKCA’s SOWs, PHP reduced its
overhead costs and increased its competitive
advantage by avoiding the costs and expenses
associated with developing SOWs. January 12, 2012
Tr. 30:1-11. On August 17, 2011, Muhs sent an email
to the Cannons with a subject line of “SOW to
vendors.” Ex. 456. The email contained an attachment
with “INL/A Dash 8 AC integrator” as its file name.
The document itself was titled “STATEMENT OF
WORK FOR AIRCRAFT MODIFICATIONS ON
BOMBARDIER DHC 8-300 AIRCRAFT QUICK
RESPONSE CONTRACT.” Id. Muhs admitted that he
violated his employment contract when he disclosed
TKCA’s SOWs to PHP. January 14,2013 Tr. 114:18 –
115:3, 116:1-4.
TKCA gives its SOWs to subcontractors to
describe the work they will perform. January 12, 2012
Tr. 28: 4-6. Before delivering an SOW, TKCA requires

89a
subcontractors to sign a nondisclosure agreement.
January 11, 2012 Tr. 95:8; 128:24 – 130:60. TKCA
marks every page of an SOW as confidential before
releasing the document to a subcontractor. Exs. 21
and 22. TKCA took similar precautions with its Dash
8 proposal. Every page refers to this restricted data
notice placed on the front of the document. The notice
provides:
This proposal, quotation, plan or manual
includes data that will not be disclosed
outside the Government and will not be
duplicated, used, or disclosed-in whole or
in part- for any purpose other than to
evaluate or implement this proposal,
quotation, plan or manual for the benefit
of TKC Aerospace, Inc. If, however, a
contract is awarded to this offeror or
quoter as a result of-or in connection
with the submission of this data, the
Government will have the right to
duplicate, use, or disclose the data to the
extent provided in the resulting
contract. This restriction does not limit
the Government’s right to use
information contained in this data if it is
obtained from another source without
restriction. The data subject to this
restriction are contained in sheets so
identified. Ex. 9 at 1.
Uncontradicted trial testimony substantiates
TKCA’s claim that PHP used TKCA labor rates and
other proprietary information to prepare its proposal.
See, e.g., an August 17, 2011 email between Muhs,
Tina and Darin Cannon with an attached file named

90a
“DHC 8-315 Costing Sheet by CLIN.xlsx.” July
26,2012 Tr. 164:16 – 167:1;6 On August 22,2011,
Muhs gave PHP a copy of TKCA’s pricing information
and a list of required spare parts from TKCA’s sale of
the sixth Dash 8 to DoS. Both of the attached
documents include the prefix “Q300 TKCA
Aerospace” in their file names. Ex. 6; March 13, 2012
Tr. 69:7-25; March 14, 2012 Tr. 53:9-54:2. When PHP
misappropriated TKCA’s labor rates, the General
Service Administration (“GSA”) had not posted the
rates so they remained confidential until the GSA
posted them in November, 2011.7 October 9, 2013 Tr.
18:18 – 23:5; October 9, 2013 Tr. 79:9 – 90:25; 94:7 –
95:1; Ex. 1123. TKCA’s labor rates were not public
information at any time prior to November 2011.
TKCA’s March 2011 Proposal identified 28 labor
categories with 10 corresponding labor rates. Ex. 395
at TKCA_PHP 6862. PHP’s proposal uses 28 identical
labor categories with different corresponding labor
rates in nearly all categories. Ex. 133 at PHP 003403,
003405. Even though the hours projected for labor
differ, both parties still list the hourly rate of a
Program Manager at $91.77. See Ex. 395 at
TKCA_PHP_006862 with Ex. 133 at PHP 003403.
3. Muhs worked on the PHP
proposal
DoS initially required that contractors submit
their proposals by September 2, 2011. DoS extended
See, e.g. Ex. 574. TK.CA neglected to move this exhibit into
evidence. However, Summerrow’s testimony substantiates this
fact.

6

The GSA schedule allows companies like TKCA to post their
labor rates as a means of attracting prospective customers.
October 9, 2013 Tr. 85: 8-12.

7

91a
the
deadline
until
September
9,
2011.
Communications, between Tina Cannon and Muhs
show that Muhs worked on PHP’s DoS proposal up
through the extended submission deadline. Indeed,
reviewing all of the Cannons’ and Muhs’ activities in
August and September, 2011, establishes that they
diligently worked together to meet the DoS deadline
and not a deadline for a fabricated GAL proposal. On
August 23, 2011, Tina Cannon stated to Don Nichols
and Ed Brown that ‘‘we have been working on the
Dash 8 proposal that is due September 2nd.” Chuck
Muhs is cc’d on the email. Ex. 460; January 14, 2013
Tr. 127:12-25. Then on September 2, Muhs emailed
the Cannons, “Subject: Latest Version Dash 8,”
“Attach: PHP DoS Dash 8-315 Proposal v1_6.docx”:
“Here is the latest version for your files. Trying to
finalize before departure to UAE.” Ex. 469; July 27,
2012 Tr. 61:3 – 62:8. PHP failed to produce this
attachment. July 27, 2012 Tr. 61:3 – 62:8; January 14,
2013 Tr. 136:3 – 138:9. Tina Cannon responded to
Muhs [Exhibit 469] with an email stating in the
subject line: “Thank you” and then adding: “...I will go
through the Dash 8 proposal and get back to you
ASAP.” Ex. 470; January 14, 2013 Tr. 140:3 – 141:17.
Tina Cannon testified on this point and claimed that
Muhs had made an error in naming the file. July 27,
2012 Tr. 61:1 – 62:12. Muhs testified that he was
actually working on formatting PHP’s DoS Dash 8
proposal. January 14, 2013 Tr. 136:3 – 21. In another
email dated Friday, September 2, 2011, Muhs tells
Tina Cannon, “[t]hanks so much for the hospitality
and friendship ... need to win at least one of these!”
Ex. 471; January 14, 2013 Tr. 142:17 – 143:17.
Early on Tuesday, September 6, 2011, Muhs
emailed Darin and Tina Cannon stating that he was

92a
“[w]orking on the pricing and Gantt Chart. That’s
about it.” Ex. 473; January 14, 2013 Tr. 144:17 –
146:6; July 27, 2012 Tr. 64:25 – 65:11. This version of
the September 6 email references “PHP DoS Dash 8315 Proposal v1_7.docx” as an attachment. “Docx”
indicates the attachment was a Word document.
Neither PHP nor Muhs has produced this
attachment. (Exhibit 474, another version of this
same email, bears the subject “Dash 8 Proposal-Final”
but does not reference an attachment). On September
7 (9:32pm), Muhs informed Tina Cannon that he was
“able to get another $250,000.00 [c]redit from
Bombardier on the aircraft which should cover the
overhaul of the MLG [main landing gear]. I’ll forward
you a copy of the discount for your files.” Ex. 483 at
PHP 44299; January 14, 2013 Tr. 154:13-22. At 10:44
p.m. on September 7, Muhs forwarded to Tina and
Darin Cannon an email exchange with Jonathan Cree
of Bombardier, time stamped 9:32pm, where Cree
wrote, “Hi Chuck, [h]ave been talking with Rod with
regard to the current DOS tender and Rod has been
able to find and approve some funds that we can put
against the PA. A discount/price reduction of
$250,000 will be made available for aircraft 560 being
bid by Phoenix Heliparts to the US DoS.” Ex. 267;
June 17, 2013 Tr. 103:12 – 104:10. Tina Cannon’s
email of September 8, 2011 (Ex. 267) to PHP’s owners
confirms that Muhs included the discount in PHP’s
DoS Dash 8 proposal: “I think Chuck and I have the
Dash 8 Proposal nailed down, I will be sending it in
today and the UH-1 proposal. Please see below, we
have received a $250K discount on the dash 8.”
“Below” refers to the Cree-Muhs email of September
7. Ex. 267. Tina Cannon notified Muhs eight minutes
after PHP submitted its proposal to DoS. Ex. 128;

93a
March 14, 2012 Tr. 64:55 – 65:11. Tina Cannon
emailed Ed Brown, cc’ing Darin Cannon and Don
Nichols: “...I guess TKC asked DoS for another
extension this morning and they were told no. Sam is
mad!!!!!” Ex. 128.
4. TKCA Efforts to Develop its
Proposal
TKCA invested considerable resources in
researching DoS’s turboprop needs, identifying an
aircraft that could meet those needs, and preparing
proposals that resulted in the award of DoS contracts.
January 11, 2012 Tr. 43:25 – 44:19; January 12, 2012
Tr. 121:1–122:7; Exs. 136 and 151. Muhs’ salary and
bonuses accounted for a substantial portion of that
investment. Ex. 154.
Muhs helped secure and
oversaw the work related to fulfilling all six Dash 8
contracts. This work was a “big part” of his duties.
March 13, 2012 Tr. 153:4 – 156:25. In the last year of
his employment, TKCA paid Muhs $400,000 for his
role in directing the program. March 12, 2012 Tr.
138:6 – 139:2.
Preparing successful proposals required TKCA
to undertake a company-wide effort involving the
President, the Chairperson, the CFO, the Controller,
contracts managers, the director of airborne
programs, consultants, and the director of
engineering. January 11, 2012 Tr. 48:12 – 49:8. Muhs
led the TKCA team that drafted several sections of
the proposal, compiling specifications from several
technical manuals. March 12, 2012 Tr. 140:2-15;
March 13, 2012 Tr. 87:1-7. TKCA’s March 9, 2011 bid
proposal for the sixth DoS Dash 8 aircraft represents
six years of time, money and effort that TKCA devoted

94a
to developing and refining its secret, proprietary and
confidential work product. January 11, 2012 Tr. 29:11
– 34:14; 42:21 – 44:8; 68:3 – 69:6. The proposal
included significant original draftsmanship, the
distillation of an estimated 89,000 words from both
proprietary documents (sources of TKCA’s own
making and those made available to it through its
business relationships8) and some information
available in the public domain.9 Ex. 406; April 25,
2012 Tr. 19:17 – 22. Accounting for thousands of
personnel hours, preparing the sixth Dash 8 proposal
and its predicesors cost well over one million dollars.
January 11, 2012 Tr. 175:9 – 177:16; January 12,
2012 Tr. 121:1 – 122:7. Ex. 151. The Dash 8 DoS
contracts TKCA won with its proposals accounted for
$72,191,281 in total revenue and a profit of
$6,315,903. Ex. 890 at exhibit B. TKCA’s damage
expert, Dennis Allen, reported on the past earnings
and future losses TKCA suffered as a result of PHP’s
misconduct. This court finds that Dennis Allen is a
qualified and reliable expert and adopts most of Mr.
Allen’s findings with respect to TKCA’s damages.
The evidence makes clear that preparing
technical solutions for government contracts is
complicated. A contractor cannot simply take
requirements from an RFP and plug them into a bid
proposal. January 11, 2012 Tr. 169:20 – 170:18. Often
when a government entity issues a RFP, the agency
This kind of information includes the flight manuals for the
Dash 8 aircraft. Bombardier only provides this kind of
information to qualified customers, or prospects they have done
business with in the past. January 11, 2012 Tr. 55:14-22.

8

Even though the proposal contained information available to
the public, TKCA applied its expertise to this information to
determine what it should include in its bid.

9

95a
states what it wants in broad terms and leaves the
details to the bidding contractors to develop proposals
that meet the identified needs. Id. The contractor
then crafts unique solutions and proposes specific
modifications and components necessary for the
project. Id. at 170:19 – 171:25. In this case, once a
contractor locates a suitable aircraft for the project,
the contractor can start innovating modifications,
locating necessary components, reaching out to
experienced subcontractors, and narrowing down
project costs. This process can take thousands of
personnel hours to complete and can differ drasticly
depending on the condition of the particular aircraft
selected for the bid. Id. at 175:9 – 176:17.
Significantly, early in its contracting relationship
with DoS, TKCA identified the Dash 8 aircraft as a
proposed solution to a DoS solicitation over other
avalible aircraft. Id at 44:4-18. TKCA spent hours
working closley with DoS modifying the aircraft and
adjusting the proposal to meet DoS’s needs. Id at
43:11 – 18. TKCA representatives testified that
drafting a proposal is an ongoing and continuous
process. The Sixth Dash 8 proposal represented a
culmination of all of TKCA’s work on prior Dash 8
contracts including the leasons learned from the
company’s other bid-related failures and sucesses.
January 24,2013 Tr. 38:15 – 39:10.
C. Facts Relevant to Sanctions,
Punitive,
and
Exemplary
Damages- Destruction of Evidence
This ruling cannot adequately account for or
describe the full magnitude of PHP’s misconduct. Just
as brazenly as PHP intentionally and knowingly
misappropriated TKCA’s trade secrets, confidential

96a
and proprietary information, it sought as brazenly to
destroy evidence of its misconduct even after the trial
in this matter had started. The court has selected
material and relevant facts that represent the type
and scope of behavior that warrant relief.
In considering whether to impose sanctions for
the destruction of evidence or award punitive or
exemplary damages, the court focused on PHP’s
willful and malicious misconduct. This analysis
would not be complete without also mentioning
Dickstein’s extreme carelessness in managing
electronic discovery and maintaining electronic
devices and its disregard for timely fulfilling its
disclosure obligations. However, only PHP’s acts and
omissions have any bearing on the court’s decision to
award exemplary and punitive damages. Dickstein
and its client’s relative degrees of culpability are
discussed in detail below when the court considers
whom it will sanction and to what extent for the
serious discovery violations that occurred in this case.
1. Destruction of Evidence
Tina Cannon received a litigation hold letter
from Dickstein Shapiro on September 30, 2011,
informing her that TKCA requested third party
discovery from PHP in its lawsuit against Muhs.10 Ex.
691; October 8, 2013 Tr. 97:23 – 98:20. On October 20,
2011, TKCA filed this lawsuit. Two weeks later Darin
Cannon installed Drivescrubber 3 on his work

Although this hold letter related to another matter, the
Cannons knew of the looming litigation with TKCA.
10

97a
laptop.11 Ex. 582 ¶56 at TKCA_9862, ¶58 at
TKCA_9863.
On February 24,2012, after trial was
underway, TKCA’s counsel emailed PHP’s counsel a
copy of the subpoena it planned to serve on PHP’s IT
provider, CCAZ. Ex. 1177. Due to an error identifying
the correct entity, CCAZ never received the first
subpoena.12 The following day PHP counsel informed
Tina Cannon of the subpoena. Ex. 1035; June 24,
2013, Tr. 101:23 – 112:3. Tina Cannon responded to
counsel about the subpoena on the same day. Ex.
1035. Both emails had the subject line “RE: TKCA v.
PHP: CCAZ.COM LLC subpoena.” Id. Two days later,
on February 26, Darin Cannon requested that CCAZ
look into products that would ensure documents
deleted from his personal computer could not be
recovered. October 8, 2013 Tr. 76:12 – 78:1. On
February 26, 2012, Darin Cannon sent his contact at
CCAZ, Robert Jones, a link to the software that he
eventually had Jones use to wipe the server. Ex. 676.
Later that day, Darin Cannon instructed CCAZ to run
the Eraser13 program on PHP’s system hard drive
(PHP’s FTP server).14 CCAZ ran the program and
11 Drive Scrubber, Eraser, and CCleaner are computer programs
that erase evidence of deleted files from computer systems,
preventing recovery. Ex. 625 ¶45 at PHP 107139

Even though the subpoena had an incorrect corporate name,
PHP and its counsel knew the identity of the intended recipient.
Eventually CCAZ received a corrected subpoena.
12

13 This program overwrites information on deleted flies and
prevents recovery of the deleted information.

This is the same server Muhs uploaded around 1600 TKCA
documents to, including the draft proposal for the sixth Dash 8
aircraft. The FTP server has no connection to the Cannon’s
personal computers. It is a remote server for data storage.
14

98a
overwrote evidence of deleted files on PHP’s server.
January 16, 2013 Tr. 18:8-24; Ex. 582 17:13 – 22:1.
Jones testified that he would not have run the Eraser
program on the FTP server if he had known about the
subpoena. October 8, 2013 Tr. 56:14 – 57:3. PHP
asserts that it wiped its servers in an effort to solve
vaguely described computer malfunctions and remove
viruses from Darin Cannon’s personal computer.
None of the complaints about the personal computers
or servers justifies such extreme measures. CCAZ,
through Jones, testified that the tools PHP used did
not serve Darrin Cannon’s stated goals. October 8,
2013 Tr. 75:25 –76:21. The timing of PHP’s request
to CCAZ is not a coincidence. PHP’s acted with the
intent to destroy relevant evidence. Specifically, this
court finds that PHP elected to wipe its server
because it knew of the CCAZ subpoena and wanted to
avoid exposing its egregious misconduct.
After trial started and after questions surfaced
regarding questionable and missing electronic
evidence, the parties retained forensic computer
experts to examine PHP’s electronic evidence, server,
and other electronic devices. TKCA retained Thomas
Day and PHP retained a forensic imaging company,
Stroz Friedberg (“Stroz”). Kenneth Mendelson
supervised the services Stroz provided PHP. The day
before Stroz technicians arrived at PHP’s
headquarters to conduct court-ordered forensic
imaging, Darin Cannon purchased a license for
CCleaner. Ex. 582 at TKCA PHP 009860. Darin
Cannon installed and ran CCleaner on his laptop
before
Stroz
imaged
it.
Ex.
582
at
TKCA_PHP_009861; July. 26, 2012 Tr. 80:20 – 84:6.
Further forensic investigation showed that CCleaner
had been run on Tina Cannon’s computer to delete

99a
and overwrite data one month earlier on March 19,
2012.15 Ex. 582 at TKCA_PHP_009856; July. 26,
2012 Tr. 72:16 – 73:16. Importantly, the Cannons
wiped their computers after receiving a litigation hold
letter and after trial started. The court has rarely, if
ever in a civil matter, witnessed a party engage in
such flagrant misconduct and act with such complete
disregard for the truth and such profound disrespect
for the law. This court finds that Darrin Cannon
installed and ran CCleaner with the intent to delete
any evidence that PHP had misappropriated TKCA’s
trade secrets and proprietary and confidential
information and also to conceal PHP’s efforts to delete
relevant and material evidence of its misconduct.
When TKCA’s expert, Thomas Day, arranged
to evaluate PHP’s server, laptops and other electronic
evidence, Stroz, did not provide him a mirror image of
the electronic data even though the parties had
entered into an elaborate series of protective orders
that included a layer of protection for experts’ eyes
and attorneys’ eyes only. As a consequence, TKCA’s
expert had to conduct a more limited analysis at the
office of PHP’s experts. Ex. 582 ¶¶17-20 (explaining
the agreement between the parties about inspecting
the images at PHP’s expert’s offices), and ¶¶29-43
(describing the bad computer hardware and
inadequate working conditions for inspecting the
Tina Cannon refused to offer any testimony commenting on
why CCleaner was run on her computer other than that she did
not physically do it. July 27, 2012 Tr. 96:8 – 97:1. Tina was also
unable to offer any explanation for PHP’s failure to produce
thousands of emails and documents related to the Dash 8
opportunity. Nor was she able to provide an explanation for why
so many email attachments to and from Muhs could not be
recovered. Id. at 97:8 - 98:4.
15

100a
records). PHP had exclusive control of the missing,
lost, or destroyed evidence and insisted on
maintaining tight control of the computer images
even after the court ordered their production. Id. at
¶ 17-18, 30. PHP should have produced the
information as part of routine discovery. The fact that
the stonewalling continued even after the court issued
its orders is inexcusable.
2. Laptops and Other Devices
Muhs gave Dickstein a laptop on October 13,
2011. June 24, 2013 Tr. 32:1 – 36:10. Dickstein has no
written record of its receipt of that laptop. June
24,2013 Tr. 32:17 – 33:18. Contrary to Dickstein’s
assertion, the email contained in Ex. 1164 makes no
reference to Muhs’ “old Mac”, or any other laptop.
Dickstein offered as proof of its efforts to record
receipt of Muhs’ electronic devices a single email sent
to Victoria Kummer. The relevant part of the email
reads, “ALS will run a file report on both the thumb
drive and larger hard drive tomorrow Friday, Otober
13, 2011.” Ex. 1164 at PHP 122684-122685. Dickstein
offered no additional documentation. Ex. 1164 is
insufficient to show that Dickstein properly
safeguarded the devices entrusted to its care. Muhs’
declaration dated November 12, 2011, did not
mention delivery of any electronic media or devices to
Dickstein. Ex. 114. Dickstein apparently did not
record the laptop’s serial number or any other
identifying information. Dickstein also did not
maintain a chain of custody for the laptop after it took
possession of the device.
Dickstein also knew and had possession of
Muhs’ external hard drive before TKCA filed this

101a
lawsuit. Dickstein took possession of Muhs’ external
hard drive on October 13, 2011. Ex. 1164; June 24,
2013 Tr. 32:17 – 33:18. Dickstein and PHP did not
identify the external hard drive or an additional
thumb drive in the first disclosure statement served
on November 18, 2011. Other than Ex. 1164,
Dickstein offered no evidence providing a further
description of these devices. June 24, 2013 Tr. 32:17 –
33:18.
On April 13, 2012, and August 7, 2012, this
court ordered all communications from all relevant
parties disclosed regardless of the source or device. “If
they had laptop [sic], home desktop computers, other
computers from which they were working on workrelated matter [sic], that’s ... discoverable.” April 13,
2012 Telephonic Tr. 8:7-17; August 7, 2012
Telephonic Tr. 9:15 to 10:8. Despite the April 13
telephonic conference, Dickstein did not disclose
electronic information from Muhs’ external hard drive
until after the August 7 telephonic conference with
the court. Only then did TKCA learn the electronic
devices existed. TKCA’s counsel confronted Dickstein
about Muhs’ possession of relevant electronic media.
Dickstein sent this response on December 21, 2012:
“[Muhs] removed all TKCA documents
from his computer and put them onto an
external hard drive after completing the
delivery of MSN 589, in order to rid
himself of them, and he handed that
hard drive to us (Dickstein Shapiro) in
October 2011. That hard drive remained
in Dickstein’s possession until we turned
it over to Stroz Friedberg for them to
image in connection with their searches

102a
of Muhs’ various media this past
summer, and it remains with Stroz
Friedberg to this day. The TKCA
documents that have been produced
from Muhs’ media came from that
external drive, which has been out of his
possession since early October 2011.”
Ex. 1112.
Forensic imaging and analysis of that external
hard drive show multiple folders with last access
dates of November 1, 2011. Ex. 1044. These folders
included “Outlook for Mac Archive,” documents from
the TKCA’s Alaska suit against Muhs, and TKCA’s
aircraft delivery of Dash 8 MSN589. The following
files bear a “Last Accessed Date” ofNovember 1, 2011:
“Outlook
for
Mac
Archive.olm,”
“Litigation
Dickson[sic] Shapiro.pdf,” “MEMO OF POINTS &
AUTHORITY IN SUPPORT OF PI APP.pdf,”
“VERIFIED COMPLAINT.pdf,” and “TKCA Aircraft
Delivery Dash 8 MSN 589-final.pdf.” June 24, 2012
Tr. 82:9 – 83:20; Ex. 1044. Dickstein kept no record of
who accessed the device. Ex. 1044. Forensic analysis
of the hard drive produced evidence of backdated files.
The hard drive contained legal documents served to
Muhs on September 27, 2011, but bore a file created
date of August 20, 2011. Id.; Ex. 582 at ¶¶105-106. A
Dickstein document created September 29, 2011 also
bore a file created date of August 20, 2011. June 24,
2012 Tr. 64:12 – 65:6. Despite possessing the external
hard drive from the outset of this matter, Dickstein
failed to produce its contents until the end of
November 2012.
On June 18, 2013, Dickstein made the court
aware of a thumb drive Muhs gave the law firm in

103a
October of 2011. June 18, 2013 Tr. 5:7- 8:23. This
disclosure occurred more than one and one-half years
after TKCA filed its lawsuit, well after electronic
devices and data surfaced as a significant issue and
at the end of a trial that had exponentially exceeded
the parties’ repeated estimates. The email reflecting
Dickstein’s receipt of a “thumb drive” does not
identify the thumb drive by make, model or serial
number. Ex. 1164. Because Dickstein failed to make
a record of or disclose the thumb drive Muhs had
previously turned over there is no way to determine
whether the ‘‘thumb drive” identified in Ex. 1164 is
the same thumb drive that Dickstein disclosed it had
on June 18, 2013.
There were three known laptops and one
unidentified laptop used by Muhs during the time
period relevant to this lawsuit: Muhs’ “old Mac,” “new
Mac,” the “loaner,” and the unidentified laptop.
September 13, 2013 Tr. 148:5- 152:16. Muhs testified
that he deleted the “old” Mac’s user partition at his
new employer’s direction sometime in the middle of
August 2011. Id. Muhs’ took possession of the “new
Mac” on October 1, 2011. Ex. 1024; June 17, Tr. 2013
135:6 – 17.
Muhs testified that he received a “loaner”
laptop from his new employer’s parent company, EAI,
on August 24, 2011 and returned it before September
20, 2011. June 17, 2013 Tr. 33:9. PHP and Dickstein
never retrieved the “loaner” laptop from EAI. Muhs
first disclosed the existence of the “loaner” laptop on
September 13, 2012. June 17, 2013 Tr. 38: 18 – 39:3.
At the time, he thought that the laptop was a Mac. Id.
In an email dated August 29, 2011 (cc’d to Muhs),
Darin Cannon instructed Robert Jones to connect

104a
“Chuck’s new laptop” to the PHP network. Ex. 925.
PHP asserts that CCAZ configured the “loaner”
laptop to PHP’s network on August 31, 2011. January
15, 2013 Tr. 21:8 – 28:25. In response to Darin
Cannon’s email, CCAZ sent an invoice for connecting
a Sony laptop to PHP’s network. Ex. 935; January 16,
2013 Tr. 4:8 – 12:13 and 15:19 – 17:22. During that
period, Muhs continued to send emails originating
from MacOutlook, indicating the presence of an
unidentified laptop, or that the user partition on the
“old Mac” was still intact. PHP and Dickstein never
imaged the “loaner” laptop. January 15, 2013 Tr. 29:18. PHP never clarified for the court from which laptop
Muhs sent the MacOutlook emails. The court finds
that PHP and Muhs intentionally made it difficult, if
not impossible, for TKCA and the court to track Muhs’
use of any specific device to avoid exposing their
misconduct.
D. Facts Relevant to PHP’s GAL
Defense
In its defense, PHP claimed that it planned to
submit a proposal for a Dash 8 opportunity with
GAL.16 PHP argued that it had no intention of
competing with TKCA because TKCA did not compete
in the UAE market. PHP further claimed if Muhs
disclosed and PHP used any TKCA trade secrets, that
PHP used the information to develop the GAL and not
the DoS proposal. PHP also posited that the timing of
the two solicitations was merely coincidental.
Notwithstanding assertions to the contrary, PHP
plainly diverted Bombardier’s LOI for the sale of a
Dash 8 in order to submit a bid to DoS. Muhs advised
16

See footnote 3.

105a
the Cannons of his discussions with his contact at
Bombardier about securing “Preferred Supplier”
status in connection with the DoS INL-A. Ex. 423.
January 14, 2013 Tr. 40:17-41:2. PHP completed a
“know your customer” (KYC) form to qualify as a
“Preferred Supplier.” On June 9, 2011, Tina Cannon
asked Muhs to review the KYC form before sending it
to his contact at Bombardier. Ex. 425. When PHP
submitted the form to Bombardier, it identified DoS
as the end buyer for the MSN 560. Ex. 3 at
TKCA_BOMBARDIER_31. The following day
Bombardier contacted Muhs about reviewing PHP’s
KYC. Ex. 427. Bombardier treated Muhs as a PHP
contact.
When the Cannons and Muhs met with PHP’s
co-owners, Ed Brown and Chris Nichols, in Costa
Mesa, California in June, 2011 to pitch business
development opportunities, none of the materials
referenced a GAL proposal, but the DoS Dash 8
solicitation figured prominently in the materials and
discussions. In email exchanges leading up to the
meeting, no one refers to the UAE or GAL. Exs. 255,
429, and 430 at PHP 44250.
PHP submitted a single copy of its GAL
proposal into evidence. Ex. 129. PHP claims Muhs
uploaded the proposal to the FTP server sometime in
June or July, 2011. The GAL proposal first appeared
on PHP’s servers on September 30, 2011, with the file
name PHP GAL Dash 8-315 Proposal v1_8.docx. Ex.
582 at TKCA_PHP_9874. This draft proposal makes
references to material and entities specific to DoS and
TKCA: this includes seven references to INL-A, an
agency of DoS; Dos beta lock-out requirements
specific to DoS and derived from TKCA’s prior EN;

106a
identical paint schemes identified by DoS; and an
FAA Flight Certification (UAE aircraft are subject to
European Aviation Safety Agency rules). Id. at PHP
964. 978, 990, and 993. The GAL proposal also
contains references and ratings of aircraft derived
from information PHP did not receive until August
26, 2011. Ex. 253 at PHP 1960. Specifically the
“accident/incident” report on the MSN 556, which also
appears in the PHP DoS proposal. Compare Ex. 132
at PHP 3354-3356, and Ex. 253 at 1960-1961.
Forensic evaluation showed the GAL proposal had a
“Last Printed Date” of September 2, 2011 but a “Last
Saved Date” of July 29, 2011. Ex 625 at PHP 107145.
PHP experts stated that a “Last Printed Date” would
necessarily change the document’s last saved date,
and that discrepancies like this could indicate
document backdating. Id. at PHP 107145 and 107146.
TKCA’s expert Thomas Day concluded that metadata
tampering occurred and the GAL file had been
backdated. Ex. 582 at TKCA_PHP_009874; Ex. 661 at
5-8. Metadata attached to the GAL proposal shows a
file creation date of September 30, 2011, but a last
written date of over a month earlier on August 23,
2011. Ex. 582 at TKCA_PHP_009874.
PHP submitted a small number of emails to an
unknown and redacted recipient with a GAL address.
Ex. 76-82. The email chains are brief and contain few
references to the Dash 8 opportunity. Compared to
the surviving emails between PHP and Muhs about
the DoS Dash 8 contract, these emails are shockingly
sparse in content and few in number. Tina Cannon
could not recall exchanging a single email between
herself and Muhs regarding the GAL opportunity.
March 15, 2012 Tr. 155:6-17. During trial, Tina
Cannon and Chuck Muhs provided improbable

107a
explanations when confronted with overwhelming
evidence of PHP’s efforts to secure the award of the
DoS contract. Tina Cannon testified that she
deliberately misled PHP co-owners, Nichols and
Brown, about the true purpose of securing the MSN
560 aircraft because, according to Cannon, the
company was having cash flow problems and she did
not think Nichols and Brown would support the UAE
opportunity. March 14, 2012 Tr. 162:9 – 164:25. In an
email dated June 29, 2011, Muhs explained to the
Cannons and a Bombardier representative that “DOS
has got to get the contract awarded prior to the end of
September with delivery before the end of the year.”
Ex. 4 at TKCA_BOMBARDIER_000078. March 14,
2012 Tr. 12:14 – 14:8. At trial, Muhs testified that he
wanted to create an impression that DoS was the end
buyer. Id.
In order to believe Muhs’ and the Cannons’
trial testimony, the court would have to accept that
sophisticated business executives routinely lie to
their business partners as well other contracting
parties. Such a proposition strains all credibility. In
addition, the court cannot envision any scenario in
which a company would have little-to-no evidence of
its efforts to enter a new market or to draft a proposal
for a first-time multi-million dollar project.
II.

LEGAL DISCUSSION
A. Standing

Arizona’s Constitution does not contain a
provision analogous to the Federal Constitution’s
“case or controversy” requirement. State v. Bar
Enterprise, 649 P.2d 978, 980 fn.2 (Ariz. 1982). The
Arizona Supreme Court has found that principles of

108a
judicial restraint govern questions of standing. Id.
The function of judicial restraint in this context
operates to prevent courts from issuing mere advisory
opinions, deciding moot cases, and ensures that cases
develop fully in an adversarial proceeding. Armory
Park Neighborhood Ass’n v. Episcopal Cmty. Servs. in
Arizona, 712 P.2d 914, 919 (Ariz. 1985). “The issue in
Arizona is whether, given all the circumstances in the
case, [the party] has a legitimate interest in an actual
controversy.” Id.
Arizona law does not require that a party act in
futility. Minderman v. Perry, 437 P.2d 407, 410 (Ariz.
1968), (The Supreme Court did not enforce a
contractual agreement between husband and wife to
will property to minor son when the son predeceased
parents). Nor can Arizona statutes be read to require
a futile act. Pinal Vista Properties, L.L.C. v. Turnbull,
91 P.3d 1031, 1036 (Ariz. Ct. App. 2004); and Hosea
v. City of Phoenix Fire Pension Bd., 229 P.3d 257, 263
(Ariz. Ct. App. 2010).
Despite the fact that TKCA failed to submit a
bid, this is not a moot case. TKCA suffered actual
harm from PHP’s misappropriation, unfair
competition, and interference with business
expectancies. Because of the advantage PHP now has
from its own past performance as well as TKCA’s, it
will be a competitive threat in the marketplace.
Absent PHP’s misconduct, TKCA would have
submitted a bid, and all evidence indicates that DoS
would have awarded it the contract. Because of the
circumstances and the stakes at issue in these
proceedings, both parties had a sufficient interest in
the controversy to litigate this matter fully. It does

109a
not violate principles of judicial restraint to entertain
TKCA’s claim.
Furthermore, any attempt by TKCA to bid
would have been an exercise in futility. Because Muhs
withheld the Bombardier LOI for the MSN 560,
TKCA could not acquire the aircraft. Jonathan Cree
compared the MSN 560, 582, and 586, identifying the
MSN 560 as the best option from a specifications and
price standpoint. Ex. 85. The record shows that no
other competitive aircraft were available in the used
fixed-wing market. PHP’s own bid proposal makes
this clear. Ex. 133 at PHP 00354-55. Any Dash 8
TKCA could have secured would have made TKCA’s
bid significantly less competitive than a bid including
the MSN 560. Once PHP tied up the MSN 560, PHP
effectively eliminated TKCA as a competitor because
the remaining Dash 8’s were unsuitable for a
competitive bid.17 TKCA did not need to incur
needless expense and waste valuable time drafting
and submitting a doomed proposal to give it standing
to bring this lawsuit.
B. Liability
For the reasons set forth below, this court finds
that PHP willfully and maliciously misappropriated
TKCA’s trade secrets – the TKCA Proposal, TKCA’s
pricing information/labor rates, and TKCA’s SOWs-in
violation of the Arizona Uniform Trade Secrets Act,

PHP’s proposal identified the MSN 560 as the best option and
explained that its location and structural damage precluded
other available aircraft from serving as PHP’s primary selection.
Ex. 133 at PHP 003354 – 003355.
17

110a
A.R.S. § 44-401 et seq. (AUTSA).18 “To establish a
claim for misappropriation oftrade secrets, the
claimant must first prove a legally protectable trade
secret exists.” Calisi v. Unified Fin. Servs., LLC, 302
P.3d 628, (Ariz. Ct. App. 2013).
1. Trade Secrets
Whether a trade secret exists is a mixed
question of law and fact. Id. at 631. AUTSA defines
‘‘trade secret” as “information, including a formula,
pattern, compilation, program, device, method,
technique or process” which satisfies a two-part test.
A.R.S. § 44-401(4). First, the information must
“derive independent economic value, actual or
potential, from not being generally known to, and not
being readily ascertainable by proper means by, other
persons who can obtain economic value from its
disclosure or use.” A.R.S. § 44-401(4)(a). Second, the
holder must exercise reasonable efforts to maintain
the information’s secrecy. A.R.S. § 44-401(4)(b).
a. Novelty and Independent
Value
Implicit in the first prong of AUTSA is a
requirement of novelty. “[N]ot only must the subject
matter of the trade secret be secret, it must be of such
a nature that it would not occur to persons in the
trade or business.” Enterprise Leasing Co. v. Ehmke,
3 P.3d 1064, 1069 (Ariz. Ct. App. 1999) (“Enterprise”)
TKCA does not argue that its network of subcontractors, the
May 27, 2011 LOI from Bombardier, or the ENs are trade
secrets, and therefore this court will not entertain a discussion
on their merits. Even had TKCA maintained such a position this
court would not have found that they qualified as trade secrets
under AUTSA.
18

111a
(citing Wright v. Palmer, 464 P.2d 363, 366 (Ariz. Ct.
App. 1970)). “[T]he subject matter of a trade secret
need not rise to the level of novelty necessary to
qualify for a patent, but must be sufficiently novel
that it is not readily ascertainable to the competitors
in an industry.” Enterprise, 3 P.3d at 1069 (citing
Kewanee Oil Co. v. Bicron Corp., 416 U.S. 470, 476
(1974)). If an “idea is so common or widely known that
it lacks all novelty, uniqueness and originality, it
necessarily lacks the element of privacy required to
make it legally cognizable as a trade secret.”
Enterprise, 3 P.3d at 1069 (citing Cockerham v. KerrMcGee Chemical Corp., 23 F.3d 101, 105 (5th Cir.
1994)).
A compilation of information merits trade
secret protection when it results in a slight
advancement over common knowledge. Enterprise, 3
P.3d at 1070. In Enterprise, the court looked to
the common law definition of trade secrets for
guidance to determine whether a trade secret exists,
specifically: “(1) the extent to which the information
is known outside of the business; (2) the extent to
which it is known by employees and others involved
in its business; (3) the extent of measures taken by
the business to guard the secrecy of its information;
(4) the value of the information to the business and its
competitors; (5) the amount of effort or money
expended by the business in developing the
information; and (6) the ease or difficulty with which
the information could be properly acquired or
duplicated by others. Restatement of Torts § 757 cmt.
b.” Enterprise, 3 P.3d at 1069, fn. 6. The court, in
Enterprise, noted that by definition “a trade secret
may consist of a compilation of information that is
continuously used or has the potential to be used in

112a
one’s business and that gives one an opportunity to
obtain an advantage over competitors who do not
know of or use it.”19 Id. at 1068. Despite the fact that
“matters of general knowledge cannot be
appropriated as secret,” combining elements from
multiple sources of public knowledge in an original
way can create a competitive advantage for its
composer and amounts to a trade secret. Id. at 1069.
In order to determine whether or not a compilation is
considered a trade secret under AUTSA, the end
product must be the “effective, successful and
valuable integration of those public elements.” Id. at
1069-70. A document comprised from readily
available sources is not a trade secret if it does not
“[represent] a selective accumulation of detailed,
valuable information... that naturally would not occur
to persons in the trade or business.” Calisi, 302 P.3d

In Enterprise, an employee, subject to a nondisclosure
agreement, had access to confidential and proprietary
information regarding his employer’s, Enterprise Leasing Co.’s
(“Enterprise”), business strategy and financial data. When the
employee left Enterprise, he took confidential documents with
him and used the confidential information to compete with his
former employer.
Enterprise brought a claim for
misappropriation of trade secrets for the employee’s use of the
company’s worksheets. The employee defended himself on the
ground that the worksheets were composed of public
information, and did not constitute a trade secret. The court
noted that when individual elements of the documents were
taken out of context, the employee’s defense might work. But,
taken together and in context the information represented
substantial market research and advancement over the original
work product. “The Worksheet includes market attributes; office
appearance and traffic flow-exterior and interior; personnel
attributes; leadership attributes in delegation, planning,
organization and management; car condition and preparation...”
Enterprise, 3 P.3d at 1068, fn. 5.

19

113a
at 630.20 Evidence of time, money, and other resources
expended on developing public information is
necessary to prove that it cannot be readily duplicated
by a competitor and provides a demonstrable
competitive advantage. Id. at 632.
Whether or not government bid proposals
qualify as trade secrets within the meaning of AUTSA
is a matter of first impression. There is limited
guidance from other jurisdictions on this specific
question. A Pennsylvania Federal District Court
applying Illinois law, addressed this issue in the
context of Illinois’ adoption of The Uniform Trade
Secret Act (“UTSA”). In First Health Group Corp. v.
Nat’l Prescription Adm’rs, Inc., 155 F. Supp. 2d 194
(M.D. Pa. 2001), a Pennsylvania District Court
concluded that Illinois’ version of UTSA protected
Frist Health’s government bid proposal. The court
found that the proposal was a compilation of elements
that individually did not merit protection, but taken
as a whole and in context constituted a trade secret.
Id. at 225. Even though government bid proposals do
not have a special status or receive special protection
under UTSA or AUTSA, there is also no reason not to
apply the same rigor in analyzing whether a bid
proposal qualifies for the same protection as any other
contested information.

Upon leaving United Financial Services (UFS) and taking up
work for a competing firm, Calisi mass emailed over 2000
potential clients, several of which were clients of UFS. UFS sued
Calisi for misappropriation of trade secrets, namely the list of
UFS clients. The court found that UFS had done nothing to
collect and develop their client list and personal information
beyond what was readily available to a competing firm.
20

114a
The same problem exists when considering
whether SOWs qualify for trade secret protection
under AUTSA. There is little guidance on the subject
so the court turned to related areas of law. In
particular, courts have found that exemption 421
under FOIA and The Trade Secret Act overlap and,
therefore, FOIA cases are instructive when deciding
whether AUTSA protects TKCA’s SOWs. More
specifically, in Honeywell Tech. Solutions, Inc. v. Dep’t
of Air Force, 779 F. Supp. 2d 14,20 (D.D.C. 2011), the
court noted that “[f]or disclosure purposes, the Trade
Secrets Act’s scope is ‘at least co-extensive with that
of Exemption 4 of FOIA.’” Citing CNA Fin. Corp. v.
Donovan, 830 F.2d 1132, 1151 (D.C.Cir.1987), cert.
denied, 485 U.S. 977 (1988).22 The court added, when
considering whether a contractor’s SOW was
exempted from disclosure under FOIA, the Trade
Secrets Act prohibits disclosure of information
covered by Exemption 4. In Honeywell Tech.
21 Trade secret and confidential or privileged information
qualified for FOIA Exemption 4 when its disclosure would likely
1) “impair the Government’s ability to obtain necessary
information in the future; or 2) ...cause substantial harm to the
submitter’s competitive position.” National Parks &
Conservation Ass’n v. Morton, 498 F.2d 765, 770 (D.C. Cir. 1974).

See also Venetian Casino Resort, L.L.C. v. E.E.O.C. 530 F.3d
925, 931(C.A.C.D. 2008) (“We have long held the Trade Secrets
Act ... is ‘at least coextensive with ... Exemption 4 of FOIA.’ CNA
Fin. Corp. v. Donovan, 830 F.2d 1132, 1151 (D.C.Cir.l987). The
upshot is that, unless another statute or a regulation authorizes
disclosure of the information, the Trade Secrets Act requires
each agency to withhold any information it may withhold under
Exemption 4 of the FOIA. Bartholdi Cable Co., Inc. v. FCC, 114
F.3d 274, 281 (D.C.Cir.l997)”); See also Canadian Commercial
Corp. v. Department of Airforce, 514 F.3d 37, (C.A.D.C.
2008);McDonnel Douglas Corp. v. U.S. Dept. of the Air Force, 375
F.3d 1182 (C.A.D.C. 2004).
22

115a
Solutions, Inc. v. Dep’t of Air Force, Honeywell had
competed for and won an Air Force contract to service
a satellite support network. A third party filed a FOIA
request seeking disclosure of the contract and bid
proposal material, including the SOW Honeywell
prepared in response to the solicitation. Honeywell
objected to disclosure of the SOW citing its
proprietary and confidential nature under FOIA. The
Honeywell court relied, in part, on The Trade Secret
Act when analyzing exemption 4 under FOIA. This
court finds that to the extent that exemption 4 under
FOIA protects TKCA’s SOWs from disclosure, the
SOWs also qualify for protection under AUTSA.
Labor rates and other pricing information may
also be protected as trade secrets under AUTSA. Like
other questions raised by this case, Arizona law does
not provide clear answers, making it necessary to look
to other jurisdictions for guidance. Courts have
routinely held that pricing information qualifies as a
trade secret where its economic value depends on
secrecy. See PepsiCo, Inc. v. Redmond, 54 F.3d 1262,
1270 (7th Cir. 1995)(Pepsi’s marketing, pricing and
distribution information found to be a trade secret);
Black, Sivalls & Bryson, Inc. v. Keystone Steel
Fabrication, Inc., 584 F.2d 946, 952 (10th Cir.
1978)(“confidential data regarding operating and
pricing policies can also qualify as trade secrets”);
Brocade Comm. Sys. V. AJO Networks, Inc.,873 F.
Supp.2d 1192, 1214 (N.D. Cal. 2012)(pricing
guidelines ‘‘routinely given trade secret protection”).
In Sw. Stainless, LP v. Sappington, 582 F.3d 1176,
1189 (10th Cir. 2009), the court found that, under
Oklahoma’s trade secret act, pricing information was
a trade secret. The Oklahoma legislator’s version of
UTSA is identical to the Arizona Act in how it defines

116a
trade secrets. Okla. Stat. tit. 78, § 85. The same rubric
applies to pricing information as to all other
categories of trade secrets. Courts look to see if the
information itself actually gives its holder a
competitive edge and derives value from not being
generally known. When a business has its
competitor’s confidential pricing information the
business can anticipate the competitor’s moves and
project bids. Pepsi Co, Inc., 54 F.3d at 1265; Keystone
Steel Fabrication, Inc., 584 F.2d at 952. This court
finds other courts’ reasoning persuasive. Accordingly,
the court will apply the same standards to pricing
information as it does to all other categories of trade
secrets.
i. Novelty of Proposal for the
Dash 8
TKCA’s March 9, 2011 bid proposal for the
sixth DoS Dash 8 aircraft represented the cumulative
effort of six years of development, refinement and
experience. January 11, 2012 Tr. 29:11 – 34:14; 42:21
– 44:8; 68:3-69:6. The proposal consisted of hundreds
of hours of original draftsmanship and the distillation
of an estimated 89,000 words from both proprietary
documents (sources of TKCA’s own making and those
made available to them through their business
relationships23) and information in the public domain.
Ex. 406; April 25, 2012 Tr. 19:17-22. Accounting for
personnel hours and out-of-pocket expenses,
preparing the sixth Dash 8 proposal and its
predicesors cost upwards of one million dollars.
This kind of information includes the flight manuals for the
Dash 8 aircraft. Bombardier provides this kind of information
only to qualified customers, or prospects they have done business
with the company in the past. January 11, 2012 Tr. 55: 14-22.
23

117a
January 11, 2012 Tr. 175:9 – 177:16; January 12,
2012 Tr. 121:1 – 122:7. Ex. 151. TKCA produced a
final product that was the “effective, successfull and
valuable integration of those public elements”
alongside original proprietary information that the
company combined to create an original document
Unlike the information at issue in Calisi, there is no
question that TKCA invested time, effort, and money
to create a valuable asset not readily reproducible by
its competitors.
TKCA created a novel proposal, consisting of a
compilation, protectable as a trade secret under
AUTSA. TKCA’s bid included selective public
information combined with information unique to
TKCA.24 The fact that TKCA included information
available to the public when drafting its proposal does
not change the compilation analysis under Enterprise.
The process by which TKCA selected and
incorporated information from publicly avalible
information goes well beyond the “slight
advancement” in common knowledge required by the
court. The advancement TKCA possesed as a result of
selection and development provided the company
with the competitive advantage necessary for trade
secret protection. PHP argues that TKCA never had
a competitive advantage because no other 8(a)
companies25 bid for the first Dash 8 contracts. This
argument is unpersuasive. The first four aircraft were
part of an Indefinate Delivery, Indefinate Qualintity
(IDIQ) contract with DoS. January 11, 2012 Tr. 42:9
24 This includes the TKCA Blue Falcon Tracker Data, previous
Dash 8 proposals.

8(a) is a designation DoS uses to indicate a minority owned
small business.
25

118a
– 20. When DoS issues an IDIQ it works with a
company to develop a product that meets its needs,
and then issues that company a task order for the
aircraft. January 11, 2012 Tr. 42:2-8. From the
beginning of the relationship DoS intended to move
the program out of the IDIQ phase and into a
standard competitive model. Id. at 42:9-20. Knowing
that the program would eventually move in this
direction, TKCA had every incentive to continue
devloping a bid proposal in keeping with a
competitive process. DoS did eventually open the
program for competitive bidding from other 8(a)
companies, and then, with the seventh aircraft, to the
broader category of small businesses.
Like the proposal at issue in First Health,
TKCA’s bid is a kind of compilation covered by this
State’s version of UTSA. Portions of the proposal,
taken out of context, are public knowledge as PHP
claims. However, TKCA’s selction, integration, and
refinement represent a substantial effort resulting in
an advancement well beyond common knowledge.
Together, and in context, TKCA’s compilation is
sufficiently novel.
ii. Independent
Economic
Value of TKCA’s Proposal
Mere secrecy and novelty does not make
something valuable. Value can be inferred when the
holder “show[s] that the information confers upon it
an economic advantage over others in the industry.”
Enterprise, 3 P.3d at 1070, citing Rivendell Forest
Products, Ltd. V. Georgia-Pacific Corp. 28 F.3d 1042,
1046 (10th Cir. 1994). The bid TKCA submitted had

119a
“economic value, actual [and] potential”26 as
demonstrated by the $72 million in revenue Dash 8
contracts generated for the company and the money
invested in its development, which includes Muhs
salary. The proposal’s potential value is clearly
evidenced by the subsequent DoS RFP, and PHP’s
ability to secure the contract using TKCA’s
information. TKCA’s proposal also has inferred value
because PHP could have invested the same amount of
time and money developing a bid, but PHP spared
itself the expense by misappropriating TKCA’s
confidential and proprietary information.
iii. TKCA’s Statements of Work
are novel and possess
independent value
TKCA presented evidence that proves the
novel nature of its SOWs. The SOWs were products of
original draftsmanship unique to each subcontractor.
TKCA employed individuals to write SOWs in
response to bid solicitations to explain contractual
obligations to subcontractors as well as to define the
project elements for DoS’s review. The SOWs are
analogous to the Worksheets determined to be trade
secrets in Enterprise; they instruct subcontractors on
personnel attributes, planning, organization and
management, and preparation.
As discussed above, the Dash 8 contracts
resulted in $72 million in revenue for TKCA. Much
like the value of the Dash 8 proposal, the actual and
potential value of TKCA’s SOWs is tied to the
company successfully securing the award of a series
of DoS contracts and positioning itself to bid
26

A.RS. § 44-401(4)(a).

120a
successfully on future contracts. The SOWs’ value is
inferred from the competitive advantage it gives to
TKCA. Enterprise, 3 P.3d at 1069-70. Because of the
time, effort, and money expended on the creation of
SOWs, TKCA had an advantage over competitors who
had not previously developed one for a DoS Dash 8
solicitation. New comers like PHP would have to
invest substantial time and money creating their own
work product. Misappropriating another company’s
SOWs saves on the overhead cost of competing for a
contract, giving the misappropriating party an
advantage. The SOWs represent an orchestrated
effort by TKCA to secure business opportunities, and
under the totality of circumstances, this court finds
that the SOWs have independent economic value as a
part of that effort.
iv. TKCA Labor Rates
TKCA’s labor rates are novel because they are
unique to TKCA. At the time PHP acquired the
information, the public did not have access to it. In
Pepsi, Sappington, and Black, the courts found that
pricing information has independent value because of
the competitive edge it gives companies by not being
generally known or available. The Black court
reasoned that value can be “reasonably inferred”
when the misappropriating company possessed the
information and secured the business opportunity.
The court determined that the company’s success
might have been partially due to having the
information. Black, 584 F.2d at 952. This court finds
that TKCA’s labor rates had “independent economic
value, actual or potential, from not being generally
known to, and not being readily ascertainable by
proper means by, other persons who can obtain

121a
economic value from its disclosure or use.” A.R.S. §44401(4)(a). Regardless of how much of a competitive
edge the labor rates gave TKCA, these rates were an
integral part of the company’s successful Dash 8
proposals.
b. Secrecy
Including confidentiality provisions in high
level employee contracts is a reasonable measure to
secure trade secret information from public
dissemination. In order to meet the second prong of
AUTA’s definition, it must be shown that the holder
of a trade secret has taken “reasonable efforts” to
maintain its secrecy, “absolute secrecy is not
required.” Enterprise, 3 P.3d at 1070; citing K-2 Ski
Co. v. Head Ski Co., 506 F.2d 471, 474 (9th Cir.1974).
Any requirements demanding a higher level of
secrecy would act as a disincentive to business
development and deprive the holder of any
competitive advantage. In Enterprise, the company
did not forgo trade secret protection by giving
confidential and proprietary information to its
employees. Id., citing Metallurgical Indus. Inc. v.
Fourtek, Inc., 790 F.2d 1195, 1200 (5th Cir. 1986). The
court found that the anti-disclosure provisions
contained in the company’s employment contracts
and handbook represented reasonable efforts to
maintain secrecy. Enterprise, 3 P.3d at 1070.
Measures taken within the company to
maintain confidentiality are insufficient if the
information is disclosed without qualification to
outside parties. In Sw. Stainless, LP v. Sappington,
582 F.3d 1176, 1189 (10th Cir. 2009), the court found
that, under Oklahoma’s trade secret act, the pricing

122a
information at issue was not a trade secret despite
reasonable measures taken to maintain its
confidentiality. Precautions included requiring
employees to sign a nondisclosure agreement,
password requirements to access company files, and
regular reminders to employees about the
confidential nature of company information. Id.
However, the company submitted price quotes to
customers and vendors without any notice of
confidentiality. Id. at 1190. The court determined that
even though the information in question met the Act’s
requirements in every other regard, its unqualified
disclosure to customers removed it from the realm of
trade secrets and protection under the Act. Id. at
1189.
TKCA made reasonable efforts to maintain the
secrecy of its confidential information including its
SOWs, labor rates, and bid proposals. These efforts
also include, but are not limited to, employment
contracts signed by Muhs and other TKCA executives,
employee handbook commentary on confidential
information, restricted data notices on documents,
and nondisclosure agreements with subcontractors.
Contrary to PHP’s argument, the labor rates did not
become public knowledge until TKCA submitted the
rates for the GSA schedule in November 2011. By
securing information in its transactions with its
subcontractors, TKCA took the steps necessary to
avoid the result reached in Sappington. Furthermore,
in Enterprise the court found that these kind of
precautions satisfied A.R.S. § 44-401(4)(b)’s secrecy
requirement. Enterprise, 3 P.3d at 1071.

123a
2. Misappropriation
“Misappropriation” means either:
(a) Acquisition of a trade secret of another by a
person who knows or has reason to know
that the trade secret was acquired by
improper means;
(b) Disclosure or use of a trade secret of another
without express or implied consent by a
person who either:
i.

Used improper means to
knowledge of the trade secret.

acquire

ii. At the time of disclosure or use, knew or
had reason to know that his knowledge
of the trade secret was derived from or
through a person who had utilized
improper means to acquire it, was
acquired under circumstances giving
rise to a duty to the person seeking relief
to maintain its secrecy or limit its use or
was derived from or through a person
who owed a duty to the person seeking
relief to maintain tis secrecy or limit its
use.
iii. Before a material change of his position,
knew or had reason to know that it was
a trade secret and that knowledge of it
had been acquired by accident or
mistake.27

27

A.RS. § 44-401(2)

124a
a. PHP Misappropriated TKCA’s
Dash 8 Proposal
i. PHP formed an agency
relationship with Muhs
PHP formed an agency relationship with
Muhs, and this court attributes his actions to the
company. The agency relationship further satisfies
AUTSA’s requirement that the misappropriating
party “[a]t the time of disclosure or use, knew or had
reason to know that his knowledge of the trade secret
was derived from or through a person who had
utilized improper means to acquire it.” A.R.S. § 44401(2)(b)(ii). An agency relationship can derive from
either actual or apparent authority. Ruesga v.
Kindred Nursing Centers, L.L.C., 161 P.3d 1253, 1261
(Ariz. Ct. App. 2007). Express contract or “proof of
facts implying such contract or ratification thereof’’
establish actual authority. Corral v. Fid. Bankers Life
Ins. Co., 630 P.2d 1055, 1058 (Ariz. Ct. App. 1981).
Apparent authority exists when ‘‘the principal has
intentionally or inadvertently induced third persons
to believe that such a person was its agent although
no actual or express authority was conferred on him
as agent.” Ruesga v. Kindred Nursing Centers, L.L.C.,
161 P.3d 1253, 1261 (Ariz. Ct. App. 2007), quoting
Premium Cigars Int’l, Ltd. v. Farmer-Butler-Leavitt
Ins. Agency, 96 P.3d 555, 565, quoting Curran v.
Indus. Comm’n, 752 P.2d 523, 526 (Ariz. Ct.
App.1988). “Agency is susceptible of proof as is any
other fact and may be established from the
circumstances, such as the relation of the parties to
each other and to the subject matter, their acts and
conduct.” Phoenix W. Holding Corp. v. Gleeson, 500
P.2d 320, 325-26 (Ariz. Ct. App. 1972).

125a
TKCA did not present evidence of a contract
establishing an agency relationship between Muhs
and PHP. However, there is no doubt that Muhs had
actual authority to act on behalf of PHP. Muhs acted
as the liaison with Air Nostrum, Bombardier, and
DoS on PHP’s behalf. PHP configured his personal
laptop for its company network. Ex. 925; January 15,
2013 Tr. 21:8 – 28:25. Muhs presented PHP with a
business development plan that specifically identified
the DoS Dash 8 as a potential target. March 12, 2012
Tr. 132:1-24; January 14, 2013 Tr. 58:16 – 61:23; Ex.
430. PHP owners acknowledged that without Muhs’
help they would not have attempted to bid on the
Dash 8 contract. Ex. 258; March 15, 2012 Tr. 136:3 –
137:13. Muhs never made an effort to correct PHP
when he was included and referenced in emails about
the DoS Dash 8 proposal. PHP included compensation
for Muhs’ work on the proposal in it its 2011 budget.
March 15, 2012 Tr. 85:20 – 86:7; Ex. 1017; February
14, 2013 Sealed #2 Tr. 33:11 – 35:23. Muhs took part
in drafting PHP’s proposal, and collaborated closely
with Tina and Darin Cannon on proposal specifics and
pricing information. Finally, PHP identified Muhs as
its project manager for the Dash 8 program in the DoS
proposal. Ex. 10 at PHP 001694. This court finds that
based on Muhs’ involvement with PHP in developing
the proposal and his efforts to broker its relationships
with necessary suppliers, Muhs had actual authority
to act on PHP’s behalf in this matter. The
circumstances, relation of the parties to one another
and the subject matter, and their conduct further
confirm a finding of agency. In sanction for PHP’s
deliberate destruction of evidence, this court also
draws any necessary inferences to establish an
agency relationship in the absence of an express

126a
contract. Because of the agency relationship between
Muhs and PHP, this court will attribute Muhs’ acts to
PHP.
ii. PHP’s GAL proposal is not
a defense
It strains all credibility for PHP to raise the
GAL proposal as a defense. In light of the voluminous
discovery and dearth of any material evidence that
substantiates the existence of the GAL proposal, this
court gives little to no weight to the evidence PHP
presented with respect to this defense. The court
questions the authenticity of some of the documents
due to evidence of backdating and finds that that the
meager number of marginally relevant emails
produced by PHP to an unknown recipient do little to
convince the court. The court further finds suspicious
that PHP could not produce earlier drafts of what
appears to be the 8th version of the GAL proposal.
What possible realistic explanation exists for not
retaining all, or at least some, earlier versions of a
document as important as a first-time proposal to
enter a new market as a fixed-wing aircraft prime
contractor? PHP claims it completed the work on the
GAL proposal by the end of July 2011. However,
evidence of backdated computer files and metadata
tampering show a created date of September 30, 2011.
If true, the proposal was created after TKCA served
Muhs with the complaint in the Alaska lawsuit for
breach of contract. Beyond tending to prove the
disingenuous nature of the GAL proposal, the
backdating calls into question the veracity of any
email communication between Muhs and the
unnamed GAL representative which provided some of
the limited evidence that supported PHP’s defense.

127a
PHP’s communications with Bombardier, DoS,
Muhs and in-house indicate that PHP and Muhs
created the GAL proposal in connection with and in
anticipation
of
litigation.
Significantly,
no
communication exists between PHP and Bombardier,
or Air Nostrum that ever references GAL or the UAE.
PHP incredibly claims that many of these references
to a DoS contract reflect mistakes or admitted lies to
representatives of valued business partners like
Bombardier and members of the Cannons’ own
company. Muhs’ testified to these facts at trial. Tina
Cannon could not recall a single email between Muhs
and herself regarding the GAL opportunity. Even had
PHP presented more evidence establishing the GAL,
the effort would have been unproductive, as this court
would strike it as a sanction for PHP’s egregious
discovery violations.
iii. The Freedom of Information
Act does not render TKCA’s
March Proposal publicly
available
When TKCA submitted its Dash 8 bid proposal
to DoS, a federal agency, it placed those documents
and the information contained therein under the
control of several federal statutes. See, e.g., the
Freedom of Information Act (5 U.S. C. § 552) and the
Trade Secret Act (18 U.S.C. § 1905). Accordingly,
unlike some AUTSA claims, which exclusively rely on
interpreting Arizona’s statutes and case law, this
court, has considered federal law and regulations
when necessary.
Under the AUTSA, information cannot
constitute a trade secret if it is “readily ascertainable

128a
by proper means” by those who can benefit from its
disclosure or use. A.R.S. § 44-401(4)(a). The Freedom
of Information Act provides an avenue for lawful
public access to information from the government,
and may therefore prevent trade secret protection
under Arizona law in some circumstances. FOIA
places an obligation on government agencies to make
information available to the public and sets forth
methods of disclosure for certain categories of
information. 5 U.S.C. § 552(a); Chrysler Corp. v.
Brown, 441 U.S. 281, 291-92 (1979). “Agency”
includes “any executive department, military
department ... or other establishment in the executive
branch of the Government.” 5 U.S.C. § 552(f)(1). An
agency’s mandate to disclose is not absolute, however.
FOIA provides several exemptions that relieve an
agency’s obligation to comply with a FOIA request. 5
U.S.C. § 552(b). These exemptions should be
construed narrowly, as the purpose of FOIA is to
pierce the veil of administrative secrecy. Dep’t of the
Air Force v. Rose, 425 U.S. 352, 361 (1976). PHP
claims a FOIA request would have made TKCA’s
information available to it and other competitors
thereby depriving it of trade secret status deserving
protection under AUTSA. This court finds PHP’s
argument unpersuasive.
FOIA’s fourth exemption precludes trades
secrets and commercial or financial information from
mandatory disclosure ‘‘when obtained from a person28
and privileged and confidential.” 5 U.S.C.
The Supreme Court has clarified that a ‘‘person” under FOIA
is any non-government entity, rendering the “person”
requirement a non-issue in all but the most exceptional cases.
Fed. Open Mkt. Comm. of Fed. Reserve Sys. v. Merrill, 443 U.S.
340, 360 (1979).
28

129a
§ 552(b)(4). The exemption is discretionary but
becomes a bar to disclosure when combined with other
statutes, specifically 18 U.S.C. § 1905 (the Trade
Secret Act). Chrysler, 441 U.S. at 295. The Trade
Secret Act (“TSA”) criminalizes government
disclosure ‘‘to any extent not authorized by law” of
trade secrets and other confidential information29
made known to the government employee or agent
during the course of their duties. FOIA and TSA are
co-extensive with one another. 9 to 5 Org. for Women
Office Workers v. Bd. of Governors of Fed. Reserve
Sys., 721 F.2d 1, 12 (1st Cir. 1983). Since FOIA
permissively authorizes disclosure of information
under its exemptions, a plain reading of TSA’s
language “not authorized by law” would suggest that
it does not prohibit disclosure merely because it falls
under FOIA’s exemption. Nevertheless, courts have
read the Trade Secrets Act, in light of Chrysler, to
prohibit disclosure of any information falling under
FOIA Exemption 4. Id.; Pacific Architects and
Engineers Inc. v. U.S. Dept. of State, 906 F.2d 1345,
1347 (9th Cir. 1990), (“If, however, release of
requested information is barred by some other statute
or regulation, the agency does not have discretion to
release it. The Supreme Court in Chrysler held that
the Trade Secrets Act... qualifies as a baring
statute.”); Canadian Commercial Corp. v. Department
of Airforce, 514 F.3d 37, 39 (C.A.D.C. 2008); (“We have
long held the Trade Secrets Act, 18 U.S.C. § 1905, a
criminal statute that prohibits Government
“…trade secrets, processes, operations, style of work, or
apparatus, or to the identity, confidential statistical data,
amount or source of any income, profits, losses, or expenditures
of any person, firm, partnership, corporation, or association ...”
18 U.S.C.A. § 1905.
29

130a
personnel from disclosing several types of confidential
information unless “authorized by law,” is “at least
coextensive with ... Exemption 4 of FOIA.”)(citations
omitted).
In National Parks & Conservation Ass’n v.
Morton, 498 F.2d 765, (D.C. Cir. 1974), the court
determined that information was “confidential or
privileged” and qualified FOIA for Exemption 4 when
its disclosure would likely 1) impair the Government’s
ability to obtain necessary information in the future;
or 2) ...cause substantial harm to the submitter’s
competitive position. Id. at 770. Any part of the
information that meets this test may be excised and
the non-confidential portions disclosed. The National
Parks test for determining whether information is
confidential or privileged under Exemption 4 has
been widely accepted in the majority of jurisdictions,
including the 9th Circuit. See, e.g. Watkins v. U.S.
Bureau of Customs and Border Protection, 643 F.3d
1189, 1194 (9th Cir. 2011).
A decade after the D.C. Circuit made their
ruling in National Parks; the court amended the test
in order to afford more protection for confidential
information provided to the government on a
voluntary basis. The D.C. Circuit ruled in Critical
Mass that when trade secrets or commercial and
financial information has been submitted voluntarily,
its confidential status must be determined under
another rubric. Critical Mass asks if the information
“would customarily not be released to the public by
the person from whom it was obtained.” Critical Mass
Energy Project v. Nuclear Regulatory Comm’n, 975
F.2d 871, 879 (D.C.Cir.1992)(en banc ). This standard
encourages the voluntary production of more

131a
information by setting a lower bar for confidentiality.
Critical Mass has not received the wide spread
reception enjoyed by National Parks, and to date has
not been adopted by another Circuit. This court finds
that National Parks is the appropriate test to
determine whether information is confidential under
FOIA. Functionally, any information that meets the
National Parks standard would reach the same result
under a Critical Mass analysis.
Bid Proposals are only exempt from disclosure
to the extent that the information contained therein
falls into a 552(b) exemption. Making any sort of
judgment about whether trade secrets and
commercial or financial information falls under TSA
and FOIA requires a decision on the definition of the
terms in those federal statutes. No existing Arizona
case law provides precedent for this court to follow. A
decision on the terms necessarily determines the
outcome of this defense. The inquiry ends and
disclosure is prohibited if the information requested
qualifies as a trade secret. Pub. Citizen Health
Research Group v. Food & Drug Admin., 704 F.2d
1280, 1283 (D.C. Cir. 1983); Nat’l Parks &
Conservation Ass’n v. Morton, 498 F.2d at 766. A
handful of federal district courts outside Arizona have
adopted a narrow definition of trade secrets within
FOIA and TSA. “A trade secret is an unpatented,
commercially valuable plan, appliance, formula, or
process, which is used for the making, preparing,
compounding, treating, or processing of articles or
materials which are trade commodities.” Pub. Citizen
Health Research Grp, 704 F.2d at 1287, internal
quotations omitted. Under Public Citizen, certain
trade secrets under state versions of UTSA would lose
protection once submitted in a bid to the government.

132a
In order to avoid subverting Arizona law, this court
will interpret the terms as defined within the broad
parameters shared by UTSA and the Restatement of
Torts. See section (II)(1)(a) addressing Novelty and
Independent Value.30 Forty-six states have adopted
UTSA, including Arizona. TKCA’s bid proposal,
SOWs, and labor rates are trade secrets within
AUTSA, UTSA, and the Restatement of Torts. This
court finds that they are trade secrets within the
meaning of FOIA and TSA, and are barred from
disclosure under§ 552(b)(4).
Alternately, this court reaches the same
decision under Exemption 4’s provision for
“commercial or financial” information. Although little
discussion of the terms exists, courts have
consistently held that the “commercial and financial”
should be given their ordinary meaning. Pub. Citizen
Health Research Group v. Food & Drug Admin., 704
F.2d at 1290; Washington Post Co. v. US. Dep’t of
Health & Human Serv., 690 F.2d 252, 266 (D.C. Cir.
1982); Bd. of Trade v. Commodity Futures Trading
Comm’n, 200 U.S. App. D.C. 339, 627 F.2d 392, 403
(D.C. Cir. 1980). The same National Parks test used
to establish the privileged and confidential status of
The Restatement defines a trade secret as “any formula,
pattern, device, or compilation of information which is used in
one’s business and which gives him an opportunity to obtain an
advantage over competitors who do not know or use it.” 4
RESTATEMENT OF TORTS § 757 cmt. b (1939). The Uniform
Trade Secrets Act closely tracks the language of the Restatement
and includes any “information, including a formula, pattern,
compilation, program, device, method, technique or process,”
that “derives independent economic value, actual or potential,
from not being generally known ... [or] ascertainable by proper
means,” and “is the subject of efforts that are reasonable under
the circumstances to maintain its secrecy.” A.R.S. § 44-401(4).
30

133a
trade secret information applies. A party claiming
that the information is confidential need not show
actual competitive harm; evidence showing actual
competition and the likelihood of substantial
competitive injury is sufficient. GC Micro Corp. v. Def
Logistics Agency, 33 F.3d 1109, 1115 (9th Cir. 1994);
citing Gulf & Western Indus. v. United States, 615
F.2d 527, 530 (D.C. Cir. 1979). This court finds that
TKCA’s bid proposal, SOW, and labor rates are
“commercial or financial” information and that the
record shows TKCA suffered actual competitive harm
from the information’s disclosure.
The final relevant FOIA exemption is
§ 552(b)(3), which exempts from mandatory
disclosure information required by another statute
to be withheld from the public. TKCA argues that
the Procurement Integrity Act (“PIA”), 41 U.S.C.
§ 2102(2012)) is such a statute. §2102(a)(1) limits
exemption to proposal information before the award
of the “contract to which the information relates.” A
plain reading of this section would not prohibit
disclosure since DoS had already awarded TKCA the
fourth Dash 8 contract. However, when considered in
conjunction with the Federal Acquisition Regulations
(“FAR”) §3.104-4, further parameters are placed on
what government agencies may not discloses under
41 U.S.C. § 2102. FAR §3.104 implements the PIA and
prohibits the “release of information after award of a
contract or cancellation of a procurement if such
information is contractor bid or proposal information
or source selection information that pertains to
another procurement.” 48 C.F.R. § 3.104-4(f)(3). Muhs
began funneling TKCA’s trade secrets to PHP after
DoS asked him to conduct market research on
available Dash 8’s. This is a clear indicator that DoS

134a
was considering another procurement solicitation.
Under Exemption 3, TKCA’s bid proposal would have
been barred from disclosure under FOIA by 41 U.S.C.
§ 2102(a)(1) and 48 C.F.R. § 2.104-4(f)(3) for its
relevance to another procurement. PHP’s FOIA
defense fails because a FOIA request would not have
otherwise made available to PHP the documents the
company acquired from Muhs.
iv. PHP Knew or had Reason
to Know that TKCA’s
Proposal was Acquired by
Improper Means and used
it in Preparation of its own
Proposal.
“Improper means includes theft, bribery,
misrepresentation, breach or inducement of a breach
of a duty to maintain secrecy or espionage through
electronic or other means.” A.R.S. § 44-401(1)(internal
quotations omitted). Testimony at trial and numerous
emails exchanged between the Cannons and Muhs
show that PHP knew Muhs was providing the
company TKCA’s proprietary and confidential
information. Specifically the August 17 “First
Draft”/’’1’11 send more stuff’ email that “freak[ed]”
out Tina Cannon when she saw TKCA’s name on the
attachment substantiates this fact. Exs. 455 and
1045. Tina Cannon refused to acknowledge that she
ever looked at the attachment, or that she was
referring to anything she had read when she sent Ex.
455. June 25, 2013 Tr. 175:17 – 178:4. In addition, an
August 22, 2011 email exchange containing TKCA’s
IPR requirements for the Dash 8 provides further
proof. Tina Cannon also knew that Muhs was subject
to a non-compete agreement with TKCA until October

135a
2011, and that using TKCA’s bid proposal would be
wrong. Ex. 6; April 24, 2012 Tr. 6:18-23, 28:10-21.
Muhs gave PHP TKCA’s proposal for the sixth
Dash 8 aircraft, and PHP copied it for use in its final
submission to DoS. March 13, 2012 Tr. 97:11-12. The
presence of the following incongruities and
similarities confirm that PHP used the information
Muhs disclosed; identical typographical errors, “cut
and paste” sections of Bombardier’s technical
manuals, errors only found in earlier TKCA drafts,
and original TKCA source material found nowhere
else. March 13, 2012 Tr. 105:10 – 106:2; April 26, 2012
Tr. 45:3 – 47:5. Portions of Bombardier technical
manuals are relevant here for two reasons. First,
TKCA did not place entire technical manuals in its
proposal, but rather excerpted the relevant portions
to suit its needs. Second, Muhs was unable to offer
testimony at trial as to where the public could access
this information. January 15, 2013 Tr. 91:9 – 92:5.
The court might consider one instance a coincidence
but, under the totality of circumstances in this case,
the court finds that PHP knowingly acquired TKCA’s
proposal by improper means.
As mentioned earlier, Tina Cannon induced
Muhs to violate his non-compete agreement with
TKCA and disclose TKCA trade secrets in further
breach of his employment contract. March 15, 2012
Tr. 85:20 – 86:7. As a start, PHP intended to pay
Muhs no less than $48,000. February 14,2013 Sealed
#2 Tr. 33:11- 35:23; Ex. 1117.Tina testified that she
budgeted $16,600 per-month for the last three months
of 2011 to pay Muhs for his efforts. Id.

136a
Regardless of whether PHP actually saw Muhs’
non-compete agreement, the Cannons knew that
TKCA’s Proposal was a valuable asset. As
experienced business executives, they understood
that Muhs could not freely disseminate TKCA’s
confidential and proprietary information without
authorization, particularly with a “Restricted Data
Notice” referenced on every page. To the extent Tina
Cannon denies knowing that Muhs had no right to
give PHP TKCA’s proposal, this court finds that
denial entirely incredible. This court also finds that
PHP acquired TKCA’s proposal by “improper means”
when the Cannons induced Muhs to breach his
contract. Whether or not PHP ever compensated
Muhs for his work is irrelevant. It is unfathomable
that Muhs, at great personal risk, performed these
services for free. Because PHP and Muhs denied any
misconduct, little evidence exists that documents the
precise terms of their business relationship. However,
the court knows that PHP identified Muhs as a project
manager in its proposal which makes clear that PHP
and Muhs anticipated having an ongoing business
relationship. Ex. 133 at PHP 003343.
b. PDP
Misappropriated
TKCA’s Labor Rates
PHP misstates the facts related to TKCA’s
claim regarding labor rates. TKCA only claimed that
the Proposal had 28 labor rate categories, not that
PHP used 28. All but ten of the labor rates were left
blank in TKCA’s proposal. Ex. 395 at TKCA_PHP
6862. Each one of the labor rate categories used in
TKCA’s proposal appears in PHP’s proposal. Ex. 133
at PHP 003403, 003405. PHP points out that only
three of the hourly rates used in its proposal match

137a
TKCA’s labor rates. PHP incorrectly believes this fact
somehow supports its defense. PHP’s argument
ignores the purpose of protecting this type of
information from misappropriation. Pepsi, Keystone,
and Sappington, all emphasize the preemptory
advantage a company gains from possessessing its
competitors’ pricing information. With this
information, a company can project its competitor’s
bid and undercut it. The fact that PHP only used
three of TKC’s labor rates is, at best, a neutral fact,
but taken together with the other evidence in this
case, this court finds that PHP’s use of any of TKCA’s
labor rates proves it possessed the rates.
PHP argued that it can explain the presence of
matching labor rates and fields based on working
with TKCA in 2010 on the UH-1 and through TKCA’s
public GSA schedule listing. June 25, 2013 Tr. 63:5 –
64:19. Significantly, TKCA provided PHP this
information in connection with the UH-1 project
pursuant to a non-disclosure agreement, and even
then only six of the fields found in PHP’s pricing
proposal were used for the UH-1 project. October 9,
2013 Tr. 84:7-18. PHP could have found the other four
rates only in TKCA’s Dash 8 proposal. Id. Moreover,
GSA did not post TKCA’s labor rates until November,
2011, well after PHP drafted and submitted its bid,
making PHP’s public availability argument factually
impossible.
c. PHP Misappropriated TCKA’s
SOWs
The record establishes the value of TKCA’s
SOWs in terms of development cost, competitive
advantage, and their contribution to the overall
success of TKCA’s bid proposals. Muhs admitted to

138a
giving PHP TKCA’s SOWs for the DoS quick response
contract in violation of his non-disclosure agreement.
His August 17, 2011 emails corroborate his
admission, and in court testimony points to the fact
that PHP used TKCA’s SOWs to create its own
proposal. Ex. 456. TKCA took reasonable efforts to
maintain the confidentiality of its SOWs by marking
them as confidential and requiring subcontractors to
sign a nondisclosure agreement. January 11, 2012 Tr.
95:8; 128:24 – 130:60; Exs. 21 and 22. TKCA
executive, Tim Summerrow, examined PHP’s Dash 8
SOWs and testified that “it appears our statement of
work has been taken as a draft and used to produce
this document.” PHP was afforded an opportunity to
test his claim but did not question Mr. Summerrow on
this point. January 12, 2012 Tr. 29:24 – 30:1. TKCA
has met its burden of proof. The court further infers
PHP’s intent to misappropriate TKCA’s trade secrets
from its willful destruction of evidence. This court
finds PHP liable to TKCA for the misappropriation its
SOWs in violation of AUTSA.
3. Damages
For the reasons stated below, this court finds
that TKCA met its burden of proof establishing
damages for lost profits, business development and
research damages, and exemplary damages in
accordance with A.R.S. § 44-403(B).31 TKCA has
established its entitlement to damages under § 44403(A) by proving PHP’s misappropriation. Once
actual damage is established, a lesser degree of
certainty is required. Short v. Riley, 724 P.2d 1252,
“If willful and malicious misappropriation exist, the court may
award exemplary damages in an amount not exceeding twice any
award made under subsection A.” 44 A.R.S. § 44-403(B).
31

139a
1254 (Ariz. Ct. App. 1986). Furthermore, TKCA has
provided a reasonable basis for determining damages
from the evidence contained in the record.32
As an initial matter, TKCA suffered actual
damages resulting from PHP’s misappropriation.
This court finds that absent misappropriation and
breach of contract by Muhs and PHP, TKCA would
have competed for and won the DoS contract.33 TKCA
provided DoS with all previous Dash 8 aircraft,
established an experienced network of contractors
and suppliers, including Bombardier, and would have
secured the MSN 560. Without Muhs, TKCA’s trade
secrets, and the MSN 560, PHP would not have been
capable of submitting a competitive bid. TKCA’s
failure to bid does not hinder its claim when PHP’s
willful and malicious misappropriation prevented
TKCA from competing. PHP’s expert did not
understand or appreciate this fact fully when he
testified and calculated damages. When Muhs
diverted Bombardier’s LOI for the MSN 560 to PHP
Surowiec v. Capital Title Agency, Inc., 190 F.Supp.2d 997,
1002 (Ariz. 2011), the plaintiff must present a ‘‘reasonable basis
for computing the amount of damage and must do so with such
precision as, from the nature of his claim and the available
evidence, is possible.” Inherently, allotting damages in this case
requires some degree of speculation but absolute certainty is not
required. The circumstances surrounding the parties and the
nature of the market each business operates in necessitates a
reasonable degree of speculation. This approach is bolstered by
W.L. Gore Associates, Inc. v. GI Dynamics, Inc., 872 F.Supp.2d
883, 891 (Ariz. 2013); Telex Corp. v. Int’l Bus. Mach. Corp., 510
F.2d 894, 931 (10th Cir. 1975).

32

Without TKCA’s trade secrets and Muhs’ assistance, PHP
would not have been able to compete for the DoS contract. The
fact that PHP prevailed over other bidders while using TKCA’s
bid proposal indicates that it was a winning proposal.
33

140a
from TKCA, PHP successfully prevented TKCA from
competing meaningfully for the contract. Jonathan
Cree, Bombardier’s representative, had identified the
MSN 560 as the best Dash 8 available on the market
based on aircraft specifications and price. Ex. 85. In
its proposal, PHP identified the MSN 560 as the best
option among an increasingly shrinking pool of
aircraft, and by default the most competitive option.
Ex. 133 at PHP 003354. PHP also cited structural
damage as a problem that ruled out the available
MSN 556.34 With the best aircraft taken off the
market, TKCA had no chance to submit a successful
bid.
TKCA and PHP both put forth wellcredentialed expert witnesses for the damages portion
of these proceedings. However, PHP’s expert, though
knowledgeable in some areas, was not sufficiently
familiar with government contracting and all the
nuances involved in securing and overseeing the
performance of the work involved. During testimony,
PHP’s expert consistently demonstrated a lack of
understanding about the bidding process and the
factual history relevant to calculating damages in this
case.
a. Lost Profits from the Dash
8 Contract
“Reasonable certainty as to the amount of lost
profits can be shown by books of account, records or
“Taking into consideration the fact of the damage and the nonroutine inspection involved, the being [sic] aircraft out of service
for approximately five (5) years and the unknown cost of
maintenance to return the aircraft to service and receive the
required airworthiness certificate, PHP elected not to offer this
aircraft to DoS INLA.” Ex. 133 at PHP 003354 and 003355.
34

141a
previous transactions...” Felder v. Physiotherapy
Associates, 158 P.3d 877, 887 (Ariz. Ct. App. 2007).
TKCA hired outside accountants to run a yearly audit
on its books. January 22, 2013 Tr. 19:20 – 20:10. The
court accepts the reliability of TKCA’s audits and
finds that the audited years “present fairly in all
material respects the financial position of TK.CA.”
Ex. 897 at TKCA_MIKUNDA_761; January 22,2013
Tr. 22:13-26:23. Accordingly, the Court has relied on
TKCA’s financial records when calculating damages.
In 2010 and 2011, DoS awarded TKCA four separate
contracts through which TKCA delivered six Dash 8
aircraft. January 11, 2012 Tr. 39:20 – 40:3; Ex. 993
and 890. TKCA’s gross profit percentage on those
contracts ranged from 7.5% to 9.7% of total contract
value. Ex. 993 at table 1(updated); January 29,
2013 Tr. 91:20 – 96:23.35 TKCA earned a profit of
$3,041,287.90 on its third Dash 8 contract, a profit
margin of 9.0%. Ex. 993 at table 1(update) and table
2(update)36; Ex. 890.04; Ex. 945 at TKCA_PHP_18204.
Much like the August 2011 DoS solicitation in this
case, TKCA’s third contract was for multiple aircraft
and provides a reasonable basis from which to
calculate its lost profits.
TKCA provided the court with a cost estimate
following a nearly identical format to its previous
successful proposals, but used the MSN 560 Dash 8 in
calculating its cost. Ex. 244 at PHP 4239-4240 (Cost
proposal for the third DoS contract). Based on this
35

Dennis Allen testified about his initial profit calculations.

Dennis Allen repeatedly supplemented his findings and
modified his calculations for TKCA’s profits. When calculating
damages, the court has selected a profit margin of 9% as the most
reasonable and reliable figure.
36

142a
proposal, TKCA would have proposed a price of
$32,033,954 in response to the DoS August 2011
solicitation. January 22, 2013 Tr. 46:24 – 47:24; Exs.
932 and 946. Applying the profit percentage as
TKCA’s third DoS Dash 8 contract, TKCA is entitled
to lost profits totaling $2,883,055.86 ($32,033,954 X
9.0%).
b. Unjust Enrichment
A.R.S. § 44-403 permits damages to “include
both the actual loss caused by misappropriation and
the unjust enrichment caused by misappropriation
that is not taken into account in computing actual
loss.” Disgorgement is an alternative to recovery for
lost profits. In the context of UTSA cases, the profits
flowing from misappropriation serve as a measure of
unjust enrichment. Ajaxo, Inc. v. E * Trade Financial
Corporation, 187 Cal. App. 4th 1295, 1305 (Cal. App.
6th Dist. 2010); Pro-Comp Management, Inc. v. R.K.
Enterprises LLC, 372 Ark. 190, 198, 272 S.W. 3d 91
(2008); Sonoco Products Co. v. Johnson, 23 P. 3d 1287,
1289 (Colo. App. 2001). As of the date of PHP’s most
recently produced Dash 8 contract profit and loss
statement (December 31, 2012), PHP reportedly
received $24,658,285 in Dash 8 contract revenues and
anticipate a profit less than TKCA’s. Ex. 989 at PHP
121193. In calculating damages, consistent with § 44403(A), the court will not disgorge PHP of its profits
in lieu of awarding TKCA’s its lost profits.37

It is reasonable to assume that TKCA’s profits from the DoS
contract would have yielded a higher profit margin. TKCA’s
prior experience would ensure that overhead cost were well
below PHP’s
37

143a
c. Research and Development
Cost
The amount of development costs a defending
party saves by misappropriating trade secrets is a
measure for calculating damages. W.L. Gore
Associates, Inc. v. GI Dynamics, Inc., 872 F.Supp.2d
883, 892 (Ariz. 2013). TKCA invested significant time
and financial resources in developing its bid, business
relationships, and past performance. The salaries of
TKCA employees account for some of the investment
cost. From 2005 through 2011, Muhs received a salary
from TKCA totaling $1,450,762. Exs. 890.15 and
890.16. When Muhs left his position as TKCA Vice
President for Business Development, he spent 80% to
90% of his time each year developing TKCA’s fixedwing aircraft business; this included drafting
proposals, and working with DoS representatives on
TKCA’s behalf. January 11, 2012 Tr. 28:9 – 29:2;
35:10-23; 48:12 – 49:1; 50:15-23; January 24, 2013 Tr.
17:13-18; 19:2-14; 25:18 – 26:9; Ex. 982. This
represents a $1,199,688 investment on business
development. January 24, 2013 Tr. 17:13-18; 19:2-14;
25:18-26:9. TKCA’s investments include but are not
limited to the following salaries of full time and
contractor employees between 2005 and 2011:
$688,933 supporting Sam Boyle’s fixed-wing
development and proposal preparation efforts,
$208,357 for Dave Alderman as “systems engineer,”
$113,062 for Mike Nelson to support TKCA’s business
development, $315,023 to Thomas Kind for fixed-wing
business development, and $102,242 to Robert
Kessler as TKCA’s contract manager. Ex. 892.
January 24, 2013 Tr. 24:24 – 26:9, 27:3-23, 27:24 –
28:13, 9:15-30:5, 30:18 – 31:17. TKCA produced and
the court received into evidence the payroll records

144a
establishing the amount that TKCA paid to each
individual who worked on the proposal and business
development. Exs. 890.15, 890.16, and 890.17.
TKCA’s damage expert calculated these investments,
in conjunction with other development expenses,
amount to a total expenditure of $3,882,205. Ex. 892.
PHP misappropriated TKCA’s trade secrets
rather than investing in costly development of its own
work product and immediately benefited from
TKCA’s labor by securing a $35 million contract.
When PHP submitted its bid, not only did it copy
TKCA’s format and information, it used TKCA’s past
performance and business relationships as a selling
point. In the proposal, PHP highlights Muhs role in
overseeing the program and claims a successful Dash
8 delivery in the past 12 months. Ex. 10 at PHP
001694. It appears that PHP disingenuously claimed
Muhs’ prior experience delivering Dash 8’s as its own.
TKCA’s investment over the six years it took for the
company to develop and hone the misappropriated
trade secrets totaled $3,882,205. Ex. 892; January 22,
2013 Tr. 16:15 – 17:3.38 PHP would have had to make
a similar investment of time and money to acquire the
knowledge, technical expertise, relationships, and
business acumen TKCA accrued to produce its bid.
This court awards TKCA damages for its total
Developing and submitting a first bid this complex can cost a
company upwards of $1 million. January 12, 2012 Tr. 121:1 –
122:7. The research and development figure calculated by TKCA
is comprised of 35% proposal preparation efforts, and of 65%
customer, supplier and industry relationship building necessary
to pursue government contracts. PHP plainly claimed Muhs’
prior experience delivering Dash 8’s as its own past performance
because by the time PHP submitted its bid, Muhs was working
for the company.
38

145a
investment in proposal preparation and client
development.39
d. Head-Start Damages
The “monetary recovery for trade secret
misappropriation is appropriate only for the period in
which information [is] entitled to protection as a trade
secret ...” Uniform Trade Secret Act 3 cmt. (amended
1985). This is the head-start period and encompasses
the time it would have taken the misappropriating
party to develop similar information on its own.
Sensormatic Electronics Corp. v. TAG Co. US, LLC,
632 F. Supp. 2d 1147, 1187 (S.D. Fla. 2008) aff’d in
part sub nom.; Remier Lab Suply, Inc. v. Chemlex
Industries, Inc., 94 So.3d 640, 644-45 (Fla. Dist. Ct.
App. 4th Dist. 2012).
Prior to August 2011, PHP had no fixed-wing
aircraft experience. March 15, 2012 Tr. 78:22 – 79:14.
This contract represented PHP’s first attempt to act
as a prime contractor in the fixed-wing market. March
12, 2012 Tr. 95:21-24. The company had no
substantial prior relationships with vendors or
suppliers to support the Dash 8 proposal. PHP part
owner, Don Nichols, let Muhs know that, without his
assistance, PHP would have never thought of
It is appropriate to include the cost of business development
in the value ofTKCA’s proposal despite the fact that business
relationships do not qualify as trade secrets. The court
understands that preparing a successful proposal includes
developing reliable business partners. The business
relationships necessary for the success of the project have actual
value. Without business relationships like TKCA had with, for
example, Bombardier, AirNostrum, and its subcontractors, the
written proposal would not necessarily have materialized or
otherwise been successful.

39

146a
entering the program and that he was ‘‘the man of the
hour.” Ex. 258; March 15, 2012 Tr. 136:3 – 137:13.
Nichols and the rest of PHP’s management clearly
knew that the company had not yet developed the
relationships, information, or expertise necessary to
compete for the August 5, 2011 DoS contract. Using
TKCA as a model for business development in the
fixed-wing market, this court finds that PHP gained
a three-year head start and was able to compete for
and secure a fixed-wing contract long before it would
have otherwise.
A three-year head-start period based on the
time it took for TKCA to develop a profitable fixedwing business model and bid is the appropriate period
for calculating head-start damages. It is reasonable to
assume, based on the evidence, that PHP could have
developed a competitive bid and business model for
the fixed-wing market in that amount of time.40 Tina
Cannon testified that PHP planned to pursue fixedwing aircraft opportunities in the future and that
PHP would rely on its Dash 8 experience. Feb. 14,
2013 Sealed #2 Tr. 37:23 – 38:1. PHP pursued a DoS
1900D opportunity in 2012 until dissuaded by threat
of litigation from TKCA. October 8, 2013 Tr. 22:1-23.
However, TKCA did not present a reasonable method
for calculating PHP’s profits. Additionally, TKCA did
not produce evidence that PHP actually secured
additional DoS contracts during the three-year
window, most of which overlapped with this case’s
trial. TKCA’s expert, Dennis Allen, used three
methods for quantifying PHP’s future profits on this
TKCA’s experience contracting with government agencies for
fixed-wing aircraft provides a reasonable business model to
calculate damages.
40

147a
matter. Ex. 890 at TKCA_PHP_8893; January 25,
2013 Tr. 71:25 – 74:1. All three depend on TKCA’s
past performance as a market norm to project future
revenue and profit margins. PHP’s head-start profits
were calculated using a two-step process which first
established PHP’s profit margin for the period and
then projected PHP’s total revenue. To project PHP’s
profit margin on future DoS contracts, Dennis Allen
averaged TKCA’s profits from its 2010 and 2011 DoS
contracts and arrived at a profit margin of 8.7%. Ex.
890 at TKCA_PHP_8897 (Exhibit A-1); January 25,
2013 Tr. 63: 8 – 64:1. The court agrees with this
method of calculating PHP’s future profit margin.
However, the court does not agree with the method
Dennis Allen used to calculate total revenue for the
head-start period. Specifically, the court finds no
support for his projection of revenue from DoS
contracts. Dennis Allen added together TKCA’s DoS
revenue from 2010 and 2011 to arrive at a single year
average of $40 million to calculate the first year of the
head-start period. January 25, 2013 Tr. 62:21 – 63:3.
He then added a 5% increase in revenue to reach a
total of $42 million for the second year Id. at 63:4-10.
Awarding damages for future profits requires
some degree of speculation. See Electronics Corp. v.
TAG Co. US, LLC, 632 F. Supp. 2d 1147, 1187 (S.D.
Fla. 2008). However, even though it is reasonable to
base some calculations on a sample from a company’s
internal performance figures, the same is not true for
factors outside the company’s control. When Dennis
Allen made his revenue projections, he assumed that
PHP would continue to secure DoS contracts at the
same rate as TKCA without any evidence that DoS
would issue similar solicitations. The availability of
this business opportunity is entirely outside of either

148a
PHP’s or TKCA’s control. It is unreasonable to base
damages off of guesswork and sheer speculation. The
market for DoS acquisition and maintenance
contracts is not like a market for regularly traded
commodities with data points that allow for more
reasonable speculation on future earnings. Dennis
Allen’s method for calculating PHP’s future earnings,
though not without some support, does not provide a
sufficiently reliable basis for this court to award headstart damages. Accordingly, the court finds that
TKCA did not meet its burden of proof and, therefore,
the court will not award TKCA head-start damages.
e. Exemplary Damages
Finally, TKCA seeks exemplary damages
pursuant to A.R.S. § 44-403(B) for the willful and
malicious misappropriation of trade secrets. AUSTA
does not define “willful and malicious” nor does scant
Arizona case law offer insight into the meaning of this
statutory term, but other jurisdictions that have
adopted UTSA provide guidance. The Pennsylvania
Uniform Trade Secret Act defines ‘‘willful and
malicious” as “[s]uch intentional acts or gross neglect
of duty as to evince a reckless indifference to the
rights of others on the part of the wrongdoer, and an
entire want of care so as to raise the presumption that
the person at fault is conscious of the consequences of
his carelessness.” HTS, Inc. v. Boley, 954 F.Supp.2d
927, 959 (D. Ariz. 2013); citing 12 Pa.C.S.A. § 5302;
see Learning Curve Toys, Inc. v. Playwood Toys, Inc.,
342 F.3d 714, 730 (7th Cir. 2003)( the court noted that
willful and malicious misappropriation includes
“intentional misappropriation as well as a
misappropriation resulting from the conscious
disregard of the rights of another.”) Attempts to

149a
conceal wrongful conduct with respect to trade secrets
provide evidence of willful and malicious
misappropriation. HTS, Inc., 954 F.Supp.2d at 95960.41
As previously discussed, the following are just
a few examples that establish PHP willfully and
maliciously engaged in misconduct. Despite knowing
Muhs’ contract with TKCA had a non-compete clause,
the Cannons induced Muhs to misappropriate
TKCA’s trade secrets in order to compete directly with
TKCA. Muhs, on behalf of PHP, withheld vital
information from TKCA so that PHP could establish
a material and temporal advantage in preparing a
successful proposal in response to the DoS
solicitation. Tina Cannon knew that Muhs had
uploaded TKCA proprietary documents to PHP’s
servers and PHP knowingly used the uploaded
documents to prepare its bid. PHP further knew that
using the uploaded documents would harm TKCA.
Also, presenting a fabricated document, namely the
GAL proposal, in support of a fictitious defense
further supports a finding of willful and malicious
conduct.
The evidence establishes that PHP engaged in
the type of misconduct that justifies awarding
exemplary damages. Incredibly, PHP continued to act
in a willful and malicious manner and in bad faith
even after the trial started. The court has rarely
In HTS, Inc. an employee deleted emails pertaining to the
misappropriation of company trade secrets and his intention to
use the documents in competition. This employee copied
company trade secrets from a laptop computer which he had in
his possession for several days after leaving his employment
with HTS. HTS, Inc., 954 F.Supp.2d at 959-60.
41

150a
witnessed such egregious misconduct. Examples
include but are not limited to PHP intentionally
wiping company servers after learning of a subpoena,
erasing company laptops in the evening and early
morning hours before court-ordered forensic imaging
started, presenting a fraudulent GAL proposal, and
backdating computer files before disclosure. Late
production of relevant emails and missing
attachments amounted to far more than any court
could consider acceptable or a mistake. This behavior
constitutes circumstantial evidence of the willful and
malicious state of mind necessary for exemplary
damages under AUTSA. This court further infers
from the scope, nature and extent of the misconduct
that PHP intentionally destroyed evidence that would
have provided additional support for making this
finding.42
This court has the option of awarding
exemplary damages under AUTSA and punitive
damages stemming from TKCA’s common law claims.
Exemplary damages under AUTSA’s willful and
malicious standard require a lower burden of proof
than the proof necessary to award punitive damages
for the common law claims. “Unlike other statutes,
§ 44-403(B) does not adopt the common law or impose
a heightened standard of proof for a punitive damage
award.” Orca Commc’ns Unlimited, LLC v. Noder, 236
Ariz. 180, 337 P.3d 545, 548 (Ariz. Sup. Ct. 2014).
“Clear and convincing evidence establishing an “evil
mind” is required to establish punitive damages.” Id.
Since the weight of the evidence meets the “clear and
In the Zimmerman section of this ruling, the court addresses
additional consequences that result from PHP’s and Muhs’
misconduct. See Section II(D).
42

151a
convincing” requirement, this court awards punitive
damages in the alternative. Even though the amounts
awarded for punitive and exemplary damages can
differ, TKCA cannot receive a double recovery.
Because the maximum amount allowable under A.R.S
§ 44-403(B) is the amount best supported by the
evidence under either theory for recovery, the court
adopts this measure for awarding exemplary and/or
punitive damages.
TKCA has met its burden of proof under
AUTSA, meriting an award of exemplary damages.
A.R.S. § 44-403(B), caps exemplary damages under
the statute at double the total amount of
compensatory damages awarded. The court does not
consider awarding punitive damages a minor matter,
especially the damages awarded in this ruling.
However, considering PHP’s absolute and complete
disregard for the truth, disrespect for the court and
disregard for the opposing party, nothing but the most
severe damages are appropriate. In light of all of the
facts, TKCA has more than met its burden. This court
finds by clear and convincing evidence that PHP acted
in a willful and malicious manner and with an evil
mind and, therefore, awards exemplary damages in
the amount of $13,530,521.72 (double the total
compensatory damages of $6,765,260.86)43.
For the sake of consolidating this discussion in
part, the court notes that under the common law
claims addressed below, counts II and ill, the court
finds alternative grounds for granting punitive
damages. In Arizona, ‘‘punitive damages are awarded
Compensatory damages is comprised of lost profits
($2,883,055.86) plus research and development ($3,882,205).
43

152a
only in the most egregious of cases, where it is proved
by clear and convincing evidence that the defendant
engaged in reprehensible conduct and acted with an
evil mind ....” Security Title Agency, Inc. v. Pope, 498,
200 P.3d 977, 995 (Ariz. Ct. App. 2008) (citations and
quotations omitted). A defendant acts with the
requisite evil mind ‘‘when he intends to injure or
defraud, or deliberately interferes with the rights of
others, consciously disregarding the unjustifiable
substantial risk of significant harm to them.” Security
Title Agency, Inc., 200 P.3d at 995. “The critical
inquiry is whether an award of punitive damages is
appropriate to penalize a party for outwardly
aggravated, outrageous, malicious, or fraudulent
conduct that is coupled with an evil mind.” Id.,
quoting Medasys Acquisition Corp v. SDMS, P.C.,
424, 55 P.3d 763, 767 (Ariz. 2002) (en banc) and
Linthicum v. Nationwide Life Ins. Co, 723 P.2d 675,
680 (Ariz. 1986)(en banc). This court finds by clear
and convincing evidence that PHP engaged in
outrageous conduct and acted with an evil mind
intending to injure TKCA by intentionally interfering
with TKCA’s contracts and opportunities and then
using
TKCA’s
proprietary
information
to
misappropriate those opportunities. Security Title
Agency, Inc., 200 P.3d at 995. TKCA has more than
satisfied its burden of proof to qualify for an award of
punitive damages. In lieu of exemplary damages
under § 44-403(B), this court alternatively awards
TKCA punitive damages in the amount of $5,766,111.
72. Although the court finds a basis to award
exemplary damages under AUTSA and punitive
damages under the common law claims, the court will
only order the payment of the statutory damages

153a
because the conduct giving rise to the award of
exemplary and punitive damages is the same.
This court awards TKCA damages for lost
profits, research and business development, and
exemplary damages under AUTSA an amount
totaling $20,295,782.58. This court further invites
TKCA’s petition for consideration of reasonable
attorney’s fees to be determined at a later date
pursuant to A.R.S. § 44-404.
C. Common Law Claims
TKCA’s claim under AUTSA does not displace
its common law claims in their entirety. Like other
UTSA jurisdictions, AUTSA creates a unified cause of
action, displacing conflicting common law claims
based on misappropriation of trade secrets. However,
it “does not displace common law claims based on
alleged misappropriation of confidential information
that is not a trade secret” under the Act. Orca, 337
P.3d at 546. For the following reasons this court finds
that TKCA has met its burden of proof establishing
PHP’s intentional interference with valid business
expectancies and unfair competition by a
preponderance of the evidence. Because of the nature
of the documents involved, this court finds that TKCA
did not meet its burden on the conversion claim.
1. Interference with
Expectancies

Business

TKCA alleges in count two of its complaint that
PHP intentionally interfered with its business
expectancies in the seventh Dash 8 solicitation. To
establish intentional interference with business
expectancy, a plaintiff must demonstrate:

154a
(a)

existence of a valid ... business
expectancy;

(b)

the interferer’s knowledge of the
... expectancy;

(c)

intentional interference inducing
or
causing
a
breach
or
termination of the expectancy;
and

(d)

resultant damage to the party
whose ... expectancy has been
disrupted.

(e)

In addition, the interference must
be improper as to motive or means
before liability will attach.

Neonatology Assocs., Ltd., v. Phoenix Perinatal Assoc.
Inc., 164 P.3d 691, 693 (Ariz. Ct. App. 2007) (citations
omitted).
As set forth below, this court finds that TKCA
has satisfied all five elements.
i. TKCA
Had
a
“Valid
Business Expectancy” In
the Seventh DoS Dash 8
Solicitation
This court finds that TKCA had a valid
business expectancy in the seventh DoS Dash 8
Solicitation. “A claim for tortious interference with
business expectancy is insufficient unless the plaintiff
alleges facts showing the expectancy constitutes more
than a mere ‘hope.’” Dube v. Likins, 167 P.3d 93, 99100 (Ariz. Ct. App. 2007) (citations omitted). Further,

155a
the intentional interference must be a “[w]rongful
interference [that] rests on improper conduct by the
defendant ... not on whether a breach [or termination
of the expectancy] followed.” Id. citing Bar J Bar
Cattle Co. v. Pace, 763 P.2d 545, 547 (Ariz. Ct. App.
1988).) “To prevail on a claim of tortious interference
with a business relationship, when the relationship is
prospective, there must be a reasonable assurance
that the contract or relationship would have been
entered into but for the interference.” S. Union Co. v.
Sw. Gas Corp., 180 F.Supp.2d 1021, 1048 (D. Ariz.
2002).
This court finds that TKCA had far more than
a “mere ‘hope’” in winning the seventh DoS Dash 8
Solicitation. In the two years before this seventh
Solicitation, TKCA had modified and sold six Dash 8
aircraft to DoS in three different transactions.
Further bolstering TKCA’s “expectancy” is that DoS
had never otherwise purchased Dash 8 aircraft.
Bombardier’s issuance of the TKCA LOI lends further
support to TKCA’s claim that it had a valid
expectancy in the seventh Dash 8 Solicitation. Having
sold TKCA the first six Dash 8s that TKCA modified
and sold to DoS, Bombardier obviously assumed
TKCA would submit another bid. The fact that Doug
Aslett of DoS called Muhs, on the same cell phone
Muhs had conducted TKCA business on for years, also
supports TKCA’s claim of a valid expectancy in the
seventh Dash 8 transaction. January 13,2012 Tr.
138:19 – 139:6.
This court finds that TKCA easily meets that
standard. It is hard to imagine a more compelling set
of facts than those presented here: TKCA sold DoS the
only Dash 8s DoS ever had purchased, TKCA

156a
obtained them all from Bombardier, which issued an
LOI to TKCA for the very aircraft that PHP used in
its proposal; and this all began with a call from DoS
to Muhs, TKCA’s contact with DoS for the first six
Dash 8 transactions, on Muhs’ TKCA cell phone.
ii. PHP Knew ofTKCA’s Valid
Business Expectancy in the
Seventh
DoS
Dash
8
Solicitation
Next, this court concludes that PHP knew of
TKCA’s business expectancy in the Dash 8 contract.
Tina Cannon testified that she knew that TKCA had
sold all of the previous Dash 8 aircraft to DoS. March
15, 2012 Tr. 86:8-22. PHP’s awareness went beyond
knowing of TKCA’s relationship with DoS.
Throughout its preparation of its proposal, PHP
expressed its own expectation of TKCA’s involvement
in the DoS Dash 8 Solicitation. March 12, 2012 Tr.
107:5 – 108:13. In his August 8, 2011 email, Darin
Cannon suggested to Tina Cannon that PHP consider
a cheaper aircraft because that aircraft “may give
TKC advantage.” Id. Darin Cannon testified that he
was “conscious of TKCA as a competitor for this
solicitation.” Tina Cannon’s “Sam is mad” email
further demonstrates this fact. Ex. 128.
This court finds that PHP was well aware of
TKCA’s expectancy in the seventh DoS Dash 8
Solicitation. Furthermore, this court finds that PHP
is chargeable with Muhs’ obvious knowledge of
TKCA’s expectancy because PHP named Muhs in its
proposal and worked closely with him preparing the
PHP Proposal. This court finds that Muhs knew of

157a
TKCA’s expectancy based on his experience with
TKCA during the first six transactions.
iii. PHP’s
Intentional
Interference Terminated
TKCA’s Expectancy
This court finds that PHP intentionally and
improperly interfered with TKCA’s expectancy in the
DoS contract. PHP first learned of DoS’s seventh
Dash 8 opportunity from Muhs before it became
public and while TKCA still employed him as a parttime employee subject to a non-compete agreement.
PHP learned of the availability of MSN 560
because Muhs concealed from TKCA Bombardier’s
LOI and then shared it with PHP, in violation of his
TKCA Employment Agreement ¶ 6.1. Ex. 1. The
agreement required Muhs to disclose to TKCA “any
and all Trade Secrets, Confidential, or Proprietary
Information, or other works to which Executive
becomes privy by reason of his employment with the
Company.” Although the TKCA LOI is not a trade
secret, it was Confidential Information under
paragraph 6.4 of Muhs’ TKCA Employment
Agreement.
It is undisputed that neither PHP nor Muhs
notified TKCA of the existence of the LOI before it
expired (or after). This court finds Muhs intentionally
concealed the LOI from TKCA so that PHP would
have an opportunity to secure the MSN 560. Ex. 240;
January 11, 2012 Tr. 66:4 – 69:14. This court rejects
Muhs’ testimony that somehow Bombardier should
have contacted TKCA directly. Bombardier had no
such responsibility but, in fact, did just that when a
representative reached out to Muhs.

158a
PHP interfered with TKCA’s expectancy by
obtaining from Muhs (in violation of his TKCA
Employment Agreement) and using proprietary
TKCA documents such as the IPL and the ENs. This
court finds that these documents were not TKCA
trade secrets, but are “Confidential Information” as
defined in paragraphs 6.4 and 7 of Muhs’ TKCA
Employment Agreement. Muhs possessed these
documents because of TKCA’s six prior purchases of
Dash 8 aircraft from Bombardier and subsequent resale of those aircraft after modification to DoS.
This court further finds that PHP was aware of
Muhs’ obligations not to disclose these items of
Confidential Information to PHP. Furthermore, this
court finds that PHP knew that it was using TKCA
Confidential Information when it used TKCA’s IPL in
negotiating the PHP LOI with Bombardier and when
it used TKCA’s ENs in the PHP proposal to DoS. See
Brooks Fiber Communications of Tucson, Inc. v. GST
Tucson Lightwave, Inc., 992 F.Supp. 1124, 1131 (D.
Ariz. 1997) (noting that “improper means”
encompasses fraudulent, illegal or inequitable
conduct).
iv. PDP’s
Intentional
Interference Resulted in
Damage to TKCA
This court finds that PHP’s intentional
interference resulted in damage to TKCA, by
effectively denying TKCA the opportunity to bid on
the DoS Dash 8 Solicitation with the MSN 560. This
court finds that MSN 560 was the best Dash 8
available for the DoS Dash 8 Solicitation. PHP
avowed to this fact in its own Proposal. This court

159a
finds that had Muhs not diverted this opportunity and
the TKCA LOI, in particular, to PHP, TKCA would
have secured the MSN 560.
This court further concludes that TKCA has
proven, based on the entire record, that with the MSN
560 TKCA would have submitted a timely proposal to
DoS, and would have had “reasonable assurance” of
succeeding. See S. Union Co. v. Sw. Gas Corp., 180
F.Supp.2d 1021, 1048 (D. Ariz. 2002).
Thus, this court finds that TKCA suffered
‘‘resultant damage” from the termination of its
expectancy in the seventh Dash 8 contract, in the
form of lost profits.
This court concludes that but for PHP’s
wrongful interference that deprived TKCA of the
opportunity to purchase the MSN 560 aircraft, TKCA
was reasonably assured of competing for and winning
the seventh DoS Dash 8 contract award.
As to each element of this count, to the extent
there is any question about the sufficiency of TKCA’s
evidence, this court infers that such evidence would
have existed but for PHP’s destruction of evidence.
2. Unfair Competition
TKCA’s third claim against PHP is for violation
of the common law doctrine of Unfair Competition.
“The general purpose of the doctrine is to prevent
business conduct that is contrary to the honest
practice in industrial or commercial matters.”
Fairway Constructors, Inc. v. Ahern, 970 P.2d 954,
956 (Ariz. Ct. App. 1998), citing House of Westmore,
Inc. v. Denney, 151 F.2d 261, 265 (3d Cir.1945); and

160a
Metropolitan Opera Ass’n v. Wagner-Nichols Recorder
Corp., 199 Misc. 786, 101 N.Y.S.2d 483, 488
(1950)(internal quotations omitted). In Fairway
Construction, Inc., the court placed heavy emphasis
on misrepresentation and confusion in the market
place, saying that ‘palming off’ or ‘passing off’ is the
central tort of the claim. Id. Palming off is the act of
representing to the buyer a counterfeit object as the
product of a competitor. Id. The Fairway court
included the torts of misappropriation, trademark
infringement, and false advertising in its description
of the claim. Id.
Fairway Construction, Inc., relied heavily on
Kaibab Shop v. Deser Son, Inc., 662 P.2d 452, 452-53
(Ariz. Ct. App. 1982), as the prior Arizona case
dealing with “palming off.” In Kaibab, the defendant
produced and sold boots that looked like boots made
by the plaintiff. The court observed that “... palming
off is simply a direct and more flagrant means of
misleading purchasers as to the source of the product.
Both palming off and creating confusion as to source
can easily lap over into misappropriation of the
property or goodwill of a competitor.” Kaibab., 662
P.2d at 454, fn. 1.
TKCA’s “palming off” theory of unfair
competition fails. PHP certainly intended to benefit
from TKCA’s experience and past work. PHP’s bid
proves this fact. The bid highlights Muhs’
involvement, PHP’s use of the same network of
subcontractors, and PHP’s reliance on TKCA’s past
experience through Muhs delivering Dash 8’s.
However, this case is not similar to a case involving a
counterfeiter passing off imitation designer boots.
PHP did not claim to be selling a product produced by

161a
its competitor. To be sure, PHP’s claim of past
performance was dishonest, but the conduct does not
amount to “palming off.” Kaibab specifically mentions
“overlapping,” which seems to indicate that there
must still be an element of confusion as to the source
of the goods on the part of the buyer. DoS is a savvy
participant in the market. There was no chance DoS
would have been confused as to the source of the
product. Any goodwill PHP misappropriated does not
overlap enough, if at all, with the confusion element
necessary to establish unfair competition on a
‘palming off’ theory.
Additionally, TKCA argues this claim based on
the misappropriation of trade secrets. TKCA’s
AUTSA claim displaces the common law claim under
this theory. Since the documents at issue qualify as
trade secrets under AUTSA, they cannot serve as the
basis for a common law claim. Orca, 337 P.3d at 546.
TKCA also argued this claim falls under a
loosely defined and poorly supported theory of
inducement to breach contract. The Arizona Supreme
Court declined to rule on the scope of unfair
competition in Orca. Id. at 547. Instead, the Court
directed the reader to compare Fairway Construction,
Inc., and the Restatement (Third) of Unfair
Competition§ 1 cmt. g (1995) (which was much
broader in scope than Fairway’s description), and
Restatement (Second) of Agency §§ 395, 396 1958)
(which also included an agent’s improper use of
confidential information). Id. Plaintiff’s point is well
taken that the history of the common law claim
emphasizes protection against unfair business
practices, and that due to the nature of human
creativity there are innumerable ways in which this

162a
claim can arise. However, unfair business practices,
according to Fairway, relate to market confusion and
obfuscating the source of goods. Fairway has stood
since 1998, and this court will follow its lead. PHP is
not liable for unfair completion under this theory.
Among the torts Fairway identified at the core
of
unfair
competition,
misappropriation
of
confidential information forms the only surviving
basis for relief on this particular claim. Fairway
Construction, Inc., 970 P.2d at 956. “Misappropriation
involves the unfair taking for profit, at little or no
cost, of property acquired by another through
investment of substantial time and money.” Id. at ,
(Fairway’s misappropriation claim was preempted by
federal copyright law). “It is normally invoked in an
effort to protect something of value that is not covered
either by patent or copyright law ...” Id. at 957, citing
International News Service v. Associated Press, 248
U.S. 215 (1918).
The record firmly establishes, and inferences
drawn from the wanton destruction of evidence
confirms, that PHP acquired by improper means
confidential TKCA information, the EN’s and IPL’s.
The confidential information represents part of
TKCA’s overall investment and preparation for the
bid proposals it submitted to DoS. PHP used the
confidential information to prepare its own bid in
competition against TKCA, profiting from the
information without investing in its development.
TKCA’s AUTSA claim displaces the SOWs, and PHP’s
actions regarding the March 11 Bombardier LOI does
not constitute misappropriation because PHP did not
create or invest in its production. The document was
the sole property of Bombardier. Nevertheless, this

163a
court finds that PHP unfairly competed with TKCA
by misappropriating confidential TKCA ENs and
IPLs.
3. Conversion
TKCA further claims that PHP wrongfully
converted TKCA property for use in its efforts to
secure the DoS solicitation. Specifically, TKCA
asserts that PHP converted its IPL, ENs, LOI, and the
opportunity to bid on the contract.
Arizona has adopted the Restatement’s
definition of conversion: “Conversion is an intentional
exercise of dominion or control over a chattel which so
seriously interferes with the right of another to
control it that the actor may justly be required to pay
the other the full value of the chattel.” Focal Point,
Inc. v. U-Haul Co. of Ariz., 746 P.2d 488, 489 (Ariz.
Ct. App. 1986); Miller v. Hehlen, 104 P.3d 193, 203
(Ariz. Ct. App. 2005); Restatement (Second) of Torts
§ 222A(1) (1965). A claim of conversion lies with
tangible property, or intangible property merged into
a document, like a stock certificate. Miller, 104 P.3d
at 203. After finding each element, a court must
further consider the seriousness of the interference
and whether the offending party must pay full value.
See Restatement (Second) of Torts§ 222A(2).
This court concludes that TKCA’s LOI, the
subsequent opportunity to bid on the DoS contract,
ENs, and IPLs do not constitute chattel within the
meaning of the Restatement. All of the
aforementioned are intangibles, and have not been
merged into a document in the same way as a stock
certificate. TKCA certainly had a business interest in
the LOI, but it did not have a possessory interest.

164a
Bombardier created the document and exercised
control over it. If TKCA had received the LOI, as
Bombardier no doubt intended it to, TKCA would
have been free to sign it, or let it lapse. However,
TKCA could not freely transfer the document and
therefore could not exercise complete dominion or
control over it. Nor did the LOI represent the merger
of an intangible into a document as explained in
Miller. Consequently, the opportunity to bid on the
DoS contract fails as a conversion claim.
The ENs and IPL, though entirely different in
substance from the LOI or business opportunity, fair
no better. Although TKCA drafted both documents for
business use, they are not the kind of intangible asset
that Miller found supported an action for conversion.
TKCA made no showing that intangible property had
been merged into this document, in the same way that
a stock certificate merges with an interest in a
company. For these reasons, TKCA’s claim against
PHP for conversion fails.
4. Damages for Common Law
Claims
In calculating damages under these claims,
this court incorporates by reference the damages
analysis under TKCA’s AUTSA claim. TKCA will not
receive a windfall from identical damages under
AUTSA and the common law. Rather, this analysis
provides an alternative basis for relief including an
award for punitive damages.
The proper measure of damages under TKCA’s
Intentional Interference with Business Expectations
is ‘‘the pecuniary harm resulting from loss of the
benefits of the relation...” Restatement (Second) of

165a
Torts § 766B (1979). PHP’s intentional interference
prevented TKCA from forming a contractual
relationship with DoS and reaping the profits from
that contract. Under these circumstances, this
measure is particularly appropriate because TK.CA’s
prior experience would have resulted in lower
overhead expenses. Naturally, PHP’s costs were going
to be higher and it does not serve the purposes of
equity to reduce TKCA’s recovery because of PHP’s
inexperience. TKCA is entitled to lost profits totaling
$2,883,055.86.
Because of the infrequency with which unfair
competition claims arise in Arizona courts,
instructions are vague for calculating relief for the
misappropriation of confidential or proprietary
information. Fairway found that Plaintiffs would
have been free to argue for “damages plus any
profits realized by defendants through their
misappropriation of Plaintiffs’ design.” Fairway
Construction, Inc., 970 P.2d at 958. However, the
Fairway court gives little guidance for how to
calculate these “damages”. In more recent cases,
claims for misappropriation arise routinely in
circumstances where the claim is inextricably
intertwined
with
statutory
trade
secret
misappropriation and copyright infringement causes
of action; therefore, looking to those lines of cases
provides guidance. Damages in misappropriation
cases can take several forms: the value of plaintiffs
lost profits, the defendant’s actual profits from the use
of the secret ... [or] the development costs the
defendant avoided incurring ...” Bohnsack v. Varco,
L.P., 668 F.3d 262, 280 (5th Cir. 2012)., Citing Univ.
Computing Co. v. Lykes-Youngstown Corp., 504 F.2d
518, 535 (5th Cir. 1974) (finding it the general

166a
practice in trade secret misappropriation cases to look
to copyright infringement for the proper measure of
damages.). Bohnsack states the methods of relief in
the injunctive. Double recovery is not permitted. “The
copyright owner can sue for his losses of for the
infringer’s profits, but not for the sum of the two
amounts ...” Bucklew v. Hawkins, Ash, Baptie & Co.,
329 F.3d 923, 931 (7th Cir. 2003).
TKCA offered no testimony supporting the
specific development cost of its ENs or IPLs. Outside
the context of TKCA’s overall proposal development
costs, no reasonable basis has been established to
value the expenses PHP avoided by misappropriating
TKCA’s ENs and IPLs. Damages cannot be awarded
on that basis. However, but for PHP’s
misappropriation of confidential information, PHP
would not have been able to submit a timely bid,
compete against TKCA, or secure the DoS contract.
TKCA’s estimated profits are higher than PHP’s and
are the correct value of damages. See Damages
analysis under the A UTSA claim. PHP should not
recover less than it reasonably anticipated earning
from the contract because of PHP’s inexperience.
TKCA is entitled to lost profits totaling $2,883,055.86.
The court has previously found support for punitive
damages (See Section II(B)(3)(e)) and awards punitive
damages for the common law claims in the amount
$5,766,111.72.
D. Discovery
Violations:
The
Zimmerman/Culprit Hearing
This court understands the gravity of
considering whether to impose sanctions on a party
and/or counsel for discovery violations or misconduct.

167a
The court also understands its role in safeguarding
the integrity of judicial proceedings. The court finds
in this case that the acts and/or omissions committed
in large part by PHP and, to a lesser extent by
counsel, warrant relief.44
TKCA attempted to alert the court to its
concerns regarding missing attachments to emails,
late disclosure and possible destruction of evidence.
Initially the court minimized the problem not
understanding its full magnitude. Over time,
however, the court could no longer ignore evidence of
misconduct and, therefore, set an evidentiary hearing
pursuant to Zimmerman, Rule 37 Ariz. R. Civ. P.,
A.R.S. § 12-349, and A.R.S. § 12-35045 to determine
Upon considering counsels’ role in this matter, the court has
determined that local counsel for PHP, Sharon Urias, was only
minimally involved directing discovery and its disclosure.
Accordingly, the court finds that Ms. Urias was not responsible
for the discovery abuses and violations that occurred.
44

45 The court has taken into consideration the factors set forth in
A.R.S. § 12-350 when making its finding under A.R.S. § 12-349.
More specifically, pursuant to A.R.S. § 12-350, the court
analyzed, where appropriate:

1. The extent of any effort made to determine the
validity of a claim before the claim was asserted.
2. The extent of any effort made after the
commencement of an action to reduce the
number of claims or defenses being asserted or
to dismiss claims or defenses found not to be
valid.
3. The availability of facts to assist a party in
determining the validity of a claim or defense.
4. The relative financial positions of the parties
involved.

168a
whether discovery violations occurred, who was
responsible and if sanctions are appropriate.
Zimmerman, 62 P.3d at 980. Little could the court
have known that the time spent on the Zimmerman
hearing would eclipse the time spent on the merits of
the case. The court also could not anticipate that the
evidence presented during the Zimmerman hearing
would become so inextricably intertwined with the
court’s findings on exemplary and punitive damages.
The court will first examine PHP’s and Muhs’
conduct and then consider whether Dickstein shares
any responsibility for its client’s acts. Before imposing
sanctions rising to the level of a default judgment for
discovery violations, a court must consider:
1) Whether a discovery violation occurred;
2) Whether the information is material;

5. Whether the action was prosecuted or
defended, in whole or in part, in bad faith.
6. Whether issues of fact determinative of the
validity of a party’s claim or defense were
reasonably in conflict.
7. The extent to which the party prevailed with
respect to the amount and number of claims in
controversy.
8. The amount and conditions of any offer of
judgment or settlement as related to the amount
and conditions of the ultimate relief granted by
the court.
The court understands that when awarding attorneys’ fees as a
sanction, the court must set for the specific reasons for the
findings. Rogane v. Correia, 335 P.3d 1122, 1129 (Ariz. Ct. App.
2014).

169a
3) Whether the opposing party has suffered
any prejudice46; and
4) Whether, and to what extent, a party or
counsel, or both are at fault.47
1. Client
Misconduct:
PBP
engaged in Misconduct in
Violation of Arizona Rules
of
Civil
Procedure
and
Sanctions are Warranted
Arizona Rules of Civil Procedure 26 establishes
the scope, duty and timing of disclosure of relevant
information after a lawsuit is commenced. More
specifically, “[p]arties may obtain discovery regarding
any matter, not privileged, which is relevant to the
subject matter in the pending action....” Ariz. R. Civ.
P. 26(b)(1)(A)(emphasis added). Parties have a
continuing duty to make seasonable disclosures
“whenever new or different information is discovered
or revealed.” Ariz. R. Civ. P. 26.1(b)(2). The rules also
establish the sanctions available when a party
violates the rules. When disclosure has been ordered
and a party does not comply, Rule 37(b)(2)(C) provides
for sanctions that include striking pleadings,
dismissing actions or any part of a proceeding, and
rendering a default judgment against a disobedient
party. In addition, sanctions are available when a
party fails to timely disclose information. Ariz. R. Civ.
P. 37(c). This Rule provides that “[a] party or attorney
46 Roberts 235 P.3d at 272, citing Zimmerman v. Shakman, 62
P.3d at 980.

Roberts, 235 P.3d at 276-77 (Ariz. Ct. App. 2010)(court
addressed joint and several liability when considering Rule 11
sanctions).
47

170a
who makes a disclosure pursuant to Rule 26.1 that
the party or attorney knew or should have known was
inaccurate or incomplete and thereby causes an
opposing party to engage in investigation or
discovery, shall be ordered by the court to reimburse
the opposing party for the cost, including attorney’s
fees of such investigation or discovery. In addition to
or in lieu of these sanctions, the court on motion of a
party or on the court’s own motion, and after affording
an opportunity to be heard, may impose other
appropriate sanctions” including “payment of
reasonable expenses, including attorney’s fees,
caused by the failure.” Ariz. R. Civ. P. 37(c)(1). Rule
37(d) further provides that, “[a] party’s or attorney’s
knowing failure to timely disclose damaging or
unfavorable information shall be grounds for
imposition of serious sanctions in the court’s
discretion up to and including dismissal of the claim
or defense.” Ariz. R. Civ. P. 37(d).
If a party engages in misconduct, the court
understands that it must exercise restraint and
impose only those sanctions necessary to address the
conduct in question and only those sanctions
authorized by the Rules. Courts have imposed a
variety of sanctions. For example, the failure to
disclose the substance of an expert’s testimony in a
medical malpractice action that unreasonably
expanded or delayed the proceedings warranted the
imposition of monetary sanctions. Solimeno v. Yonan,
227 P.3d 481 (Ariz. Ct. App. 2010). When a client
willfully destroys evidence, the court has a great deal
of leeway in determining the appropriate sanction
with a preference for sanctions that still allow
adjudication on the claim’s merits. Allstate Ins. Co. v.

171a
O’Toole, 896 P.2d 254, 257 (1995).48 Evidence of bad
faith and intentional destruction of evidence by one of
the parties can justify a default judgment. Roberts v.
City of Phoenix, 235 P.3d 265, 272 (Ariz. Ct. App.
2010)(quoting Rivers v. Solley, 177 P.3d 270, 272
(Ariz. Ct. App. 2008)); Poleo v. Grandview Equities,
Ltd., 692 P.2d 309, 312 (Ariz. App. 1984) (Internal
quotations omitted). In Roberts, plaintiff sued the City
of Phoenix for its police officer’s targeted
discrimination of patrons leaving gay bars. During
subsequent litigation, the city repeatedly withheld
and destroyed relevant documents after the plaintiff
submitted requests for disclosure. Roberts, 235 P.3d
at 268-69 and 271-72. The Court of Appeals affirmed
the trial court’s order striking the city’s answer and
entering judgment for the plaintiff as a proper
sanction. Id. at 273. When a party destroys evidence,
the party must act willfully and in bad faith for the
court to impose a sanction as extreme as dismissal;
“innocent failure to preserve evidence does not
warrant” this level of sanction. Id.; See also Souza v.
Fred Carries Contracts, Inc., 955 P.2d 3, 5 (Ariz. Ct.
App. 1997). In Souza, Plaintiff purchased a used car
from Defendant. The vehicle had repeated problems
which Defendant failed to remedy and ultimately
resulted in an accident, totaling the car and injuring
48 The courts has considered the following non-exclusive factors
in its ruling on the discovery violations at issue in this case:

(1) the reason for the failure to properly disclose
evidence; (2) the willfulness or inadvertence of a party’s
(or attorney’s) conduct; (3) prejudice to either side that
may result from excluding or allowing the evidence;
(4) the opposing party’s (or attorney’s) action or inaction
in attempting to resolve the dispute short of exclusion;
and (5) the overall diligence with which a case has been
prosecuted. Allstate 896.P2d at 258.

172a
the plaintiff. Souza, 955 P.2d at 5. Defendant moved
the car to a salvage lot where it was destroyed before
either party had an opportunity to inspect it when
litigation began two years later. Id. The Court of
Appeals reversed dismissal because both parties
failed to inspect the car and neither party
purposefully destroyed evidence. Id. Sanctions can
also include drawing adverse inferences and an order
requiring the offending party to pay costs. Zubulake
v. UBS Warburg LLC, 229 F.R.D. 422, (S.D.N.Y.
2004). Importantly, sanctions for discovery violations
including the destruction of evidence must be
reasonable and proportionate to the violations.
Roberts, 235 P.3d at 272.
This case does not involve innocent or
excusable behavior. Indeed, the misconduct reflects
precisely the type of conduct that the Arizona Rules
of Civil Procedure protect against. PHP directly
violated its obligation under Ariz. R. Civ. P. 26.1 (a),
(b) and Ariz. R. Civ. P. 37(c) and (d). PHP withheld
and/or
deliberately
destroyed
relevant
and
discoverable information and substantially interfered
with the integrity of the proceedings. The conduct
included not only delaying disclosure but wiping the
company’s server after receiving a subpoena and key
laptops hours before forensic imaging was scheduled
to begin. This court finds PHP acted willfully and in
bad faith, granting this court broad leeway to craft an
appropriate sanction under Allstate. Unlike Souza,
this case does not involve either innocent or
inadvertent destruction of evidence. This case more
closely resembles Roberts and Rivers where the
party’s deliberate misconduct prevented the
disclosure of unfavorable information. In further
contrast to Souza, a third party did not destroy the

173a
evidence after the parties had an opportunity to
prevent its destruction and inspect it. PHP had
exclusive control over the devices it wiped; TKCA
never had the opportunity to inspect in a timely
manner the servers or computers. The spoliation,
concealment, and fabrication of evidence occurred at
the outset of this matter and continued after trial
commenced. As the court has already mentioned, the
conduct at issue far exceeds the bounds of decency.
Moreover, Muhs acted as PHP’s agent. Therefore, his
conduct is attributed to PHP as well. Muhs failed to
disclose the “loner laptop,” deleted “old Mac’s” user
partition, and helped fabricate the GAL proposal.
Despite the fact that the misconduct in this case
warrants the most severe sanction, striking PHP’s
answer, the court plans to impose less severe
sanctions because sufficient evidence survived to
decide the case on its merits.
It is impossible to know with absolute certainty
how much PHP’s misconduct prejudiced TKCA, but
absolute certainty is not required. Circumstantial
evidence and inferences drawn from the record
support this court’s finding. In sanction, this court
draws adverse inferences from PHP’s misconduct to
fill in evidentiary holes created by spoliation and
finds by clear and convincing evidence that PHP
misappropriated TKCA’s trade secrets and committed
the common law torts of Unfair Competition and
Intentional Interference with a Valid Business
Expectancy.
The court has found that PHP committed
sanctionable discovery violations by withholding and
destroying material evidence that prejudiced TKCA.

174a
2. Attorney Misconduct
The court must still consider whether
Dickstein shares any responsibility for what
happened. The court finds Dickstein bears some of the
blame. The law firm failed to implement basic
safeguards when receiving and handling discovery
turned over by its clients. By the time the court
learned that Dickstein had another undisclosed
device, a Muhs thumb drive, in June of 2013, no one
seemed surprised, least of all the court, based on the
history of late and nondisclosure that plagued the
proceedings. Even though Dickstein kept track of
some of the electronic devices its clients provided the
firm, Dickstein mismanaged the devices and
compromised the integrity of important information.
More specifically, for example, Muhs turned over his
external hard drive to Dickstein on October 13, 2011,
but forensic analysis of the metadata shows a last
access date on some folders of November 1, 2011. Ex.
1044. Dickstein presented no record of who accessed
the folders and provided no reasonable explanation
for its failure to maintain such records. In a case
involving electronic discovery, particularly where
“anomalies” surface, lawyers need to proceed with
extreme caution handling and maintaining evidence.
Importantly, “[a] party’s discovery obligations do not
end with the implementation of a ‘litigation hold’-to
the contrary, that’s only the beginning. Counsel must
oversee compliance with the litigation hold,
monitoring the party’s efforts to retain and produce
the relevant documents. Proper communication
between a party and her lawyer will ensure (1) that
all relevant information (or at least all sources of
relevant information) is discovered, (2) that relevant
information is retained on a continuing basis; and

175a
(3) that relevant non-privileged material is produced
to the opposing party.” Zubulake, 229 F.R.D. at 432.
In Zubulake, the court added that “[c]ounsel must
take affirmative steps to monitor compliance so that
all sources of discoverable information are identified
and searched.” Id.
Notwithstanding Dickstein’s negligence, the
court remains convinced that Dickstein did not
engage in intentional and willful misconduct;
however the court cannot ignore the firm’s regular
disregard for complying with the rules, specifically
untimely disclosure. See Ariz. R. Civ. P. 37(c).
Moreover, lawyers have a responsibility to protect the
integrity of judicial proceedings. In this case, it
appears that the lawyers lost sight of the difference
between fulfilling their obligation to advocate
ethically for a client and blind advocacy in disregard
of counsels’ obligations as officers of the court. Of
great concern is the fact that Dickstein never wavered
representing its client, at times an admirable trait,
even after PHP’s egregious misconduct started to
surface. Understandably, mistakes happen even more
than once in a complex proceeding. However, once the
full magnitude of PHP’s and Muhs’ misconduct
started emerging, the law firm had an obligation to
take remedial action to protect the administration of
justice up to and including moving to withdraw from
representing its client. Because of PHP’s and
Dickstein’s actions, these proceedings were needlessly
protracted and resulted in both parties amassing
uncontainable discovery costs. Despite all the
difficulties with discovery in this case, there is no
evidence connecting Dickstein to PHP’s willful
destruction of evidence.

176a
3. Asserting the GAL Defense
did not violate Rule 11, but
continuing to argue the GAL
Defense violated A.R.S. § 12349.
Rule 11 requires a reasonable inquiry into the
facts before filing a motion or pleading. Ariz. R. Civ.
P. 11 (a). “[I]n any civil action . . . the court shall
assess reasonable attorney fees, [and] expenses . . .
against an attorney . . . if the attorney . . . does any
of the following: (1) Brings or defends a claim
without substantial justification; (2) Brings or
defends a claim solely or primarily for delay or
harassment; (3) Unreasonably expands or delays the
proceeding; (4) Engages in abuse of discovery.” Ariz.
Rev. Stat. Ann. §12-349(A). “[W]ithout substantial
justification means that the claim or defense is
groundless and is not made in good faith.” Ariz. Rev.
Stat. Ann. § 12-349(F). The court must factually
determine by a preponderance of the evidence that an
asserted defense was “groundless, in bad faith and
harassing.” Phoenix Newspapers, Inc. v. Dep’t of Corr.,
State of Ariz., 934 P.2d 801, 808 (Ariz. Ct. App. 1997).
A lawyer is obligated to provide an “honest, uninflated
appraisal” of the case even when doing so negatively
affects his client. James, Cooke & Hobson, Inc. v. Lake
Havasu Plumbing & Fire Prot., 868 P.2d 329, 334
(Ariz. Ct. App. 1993) (Judge Gerber concurring)
(There, defendant’s attorney violated Rule 11 for
filing an answer denying a debt he knew to be
factually true at the time.). When questioning the
veracity of a motion or pleading, the court applies an
objective standard to determine what the lawyer
knew or should have known. Id. An asserted defense
cannot be “insubstantial, frivolous, groundless or

177a
otherwise unjustified.” Id. at 332. In determining the
reasonableness of an asserted claim, the court should
consider the “situation existing, the facts known, the
amount of time available for investigation, the need
for reliance upon the client or others for obtaining
facts, the plausibility of the claim, and other relevant
factors.” Boone v. Superior Court In & For Maricopa
Cnty., 700 P.2d 1335, 1341 (Ariz. 1985). Attorneys
must continually evaluate their case based on the facts
available so as not to pursue frivolous or unsupported
claims. Standage v. Jaburg & Wilk, P.C., 866 P.2d 889,
898 (Ariz. Ct. App. 1993), (The court did not find the
lawyer necessarily acted in bad faith in filing a
frivolous malpractice claim on his clients behalf. The
attorney’s conduct became sanctionable when he failed
to “review and reevaluate his client’s position as the
facts of the case developed.” Id. at 897). The court
“evaluate[s] an attorney’s conduct under an objective
standard of reasonableness.” Cooke 868 P.2d at 332.
Dickstein did not violate Rule 11 of Arizona
Civil Procedure by asserting the GAL defense in the
original answer to TKCA’s complaint. Unlike Cooke,
Dickstein was not aware of the facts indicating that
its client’s claim was unsubstantiated when the law
firm filed an answer. Nor had any prior court made
findings of facts that formed the basis of the claims
like in Standage. Even though Dickstein had access
to the electronic data that PHP subsequently deleted,
a lawyer has an obligation to conduct an investigation
that is reasonable under the circumstances. Ariz. R.
Civ. P. 11 (a). A lawyer cannot possibly possess all
relevant information at the beginning of a lawsuit.
Dickstein could not have reasonably been expected to
have reviewed hundreds, indeed thousands of
documents, forensically imaged and examined its

178a
clients’ servers and laptops and read innumerable
emails before answering TKCA’s complaint. Rule 11
does not create such an unrealistic standard or impose
such a burden. Initially, Dickstein reasonably relied
on PHP’s affidavits and statements when preparing
to defend the lawsuit. However, as time passed and
new evidence came to light, Dickstein could no longer
justifiably continue to advance the GAL defense.
The record reflects a complete absence of
reliable evidence substantiating the authenticity of
the GAL proposal. Indeed, as the trial progressed,
evidence to the contrary mounted. During trial, the
court learned that the GAL proposal appeared to be
backdated, that the document contained typographical
errors identical to TKCA’s misappropriated proposal,
and that the proposal also contained information
unique to DoS. In addition, over time the wanton and
repeated destruction of evidence came to light. When
a client testifies, like Tina Cannon, that she lied as
part of the defense, a lawyer might want to, indeed
must, reconsider the client’s veracity when considering
the evidence under the totality of circumstances.
Would a reasonable lawyer have continued to advance
the GAL defense in this situation? The court finds
that any reasonable attorney would have questioned
the defense and found it lacking. Dickstein neglected
its duty to continually evaluate and reevaluate its
client’s case based on all the facts available. This
court finds that Dickstein continued to argue the
frivolous GAL defense in bad faith, violating Ariz.
Rev. Stat. Ann. § 12-349(A)(1). This court further
finds Dickstein also violated § 12-349(A)(2) for failing
to reevaluate the case when, over time, the evidence
made clear that it was objectively unreasonable to
continue asserting the GAL defense.

179a
4. Dickstein violated Rule 37 by
failing to disclose Muhs’
devices
“A party or attorney who makes a disclosure
pursuant to Rule 26.1 that the party or attorney knew
or should have known was inaccurate or incomplete
and thereby causes an opposing party to engage in
investigation or discovery, shall be ordered by the
court to reimburse the opposing party for the cost,
including reasonable attorney’s fees of such
investigation or discovery. In addition to or in lieu of
these sanctions, the court on motion of a party or on
the court’s own motion, and after affording an
opportunity to be heard, may impose other
appropriate sanctions.” Ariz. R. Civ. P. 37(c). “A
party’s or attorney’s knowing failure to timely disclose
damaging or unfavorable information shall be
grounds for imposition of serious sanctions in the
court’s discretion up to and including dismissal of the
claim or defense.” Ariz. R. Civ. P. 37(d). The court can
only dismiss a claim or defense if the offending
conduct was by the party; conduct by the lawyer is not
sufficient. Poleo, 692 P.2d at 312.
As discussed above, in Laptops and other
Devices (section (I)(C)(2)), Dickstein failed to disclose,
evidently lost track of, and then found one of Muhs’
thumb drives in a file over one year after its receipt.
June 18, 2013 Tr. 5:7 – 8:23; June 24, 2013 Tr. 84:4 –
85:11. Because of Dickstein’s poor record keeping,
there is no way to tell whether this is the thumb drive
referenced in Ex. 1164, or another thumb drive
delivered to the firm on a different date. Moreover,
Dickstein’s haphazard disclosure of other devices and
their contents demonstrates conscious awareness of

180a
them as shown by Victoria Kummer’s December 21,
2012 email concerning the external hard drive Muhs
gave Dickstein in October 2011. “...[H]e handed that
hard drive to us (Dickstein Shapiro) in October 2011.
That hard drive remained in Dickstein’s possession
until we turned it over to Stroz Friedberg for them to
image in connection with their searches of Muhs’
various media this past summer ...” Ex. 1112.
Forensic imaging of that external hard drive
contained documents relevant to this litigation and
showed signs of metadata tampering and backdating.
Ex. 582 at ¶¶105-106; June 24, 2012 Tr. 64:12 – 65:6.
Despite possessing the device at the time of
disclosure, Dickstein admits it was not included in
initial discovery. Dickstein reply to motion for
sanctions 58:6-7. Last access dates show that someone
had seen or accessed the relevant material on that
hard drive prior to the commencement of litigation
but after Dickstein took possession of it in October
2011. June 24, 2012 Tr. 82:9 – 83:20; Ex. 1044.
Earlier disclosure of the external the hard
drive, and “old” mac may have alerted TKCA and the
court to the spoliation issues sooner and helped prove
Muhs wrongfully possessed TKCA’s files. Earlier
disclosure may have even prevented the destruction
of some of the records. While the missing evidence
may not have answered all the questions in this case
or revealed the extent of PHP’s efforts to conceal its
misconduct, the deleted user partition on the “old
Mac” and the TKCA files on the external hard drive
would have certainly helped TKCA establish its
claims. Dickstein argues that even though it did not
disclose the existence or its possession of Muhs’ “old
Mac,” external hard drive, and flash drive, the firm
did “promptly [begin] scanning the devices and

181a
producing documents from them.” Dickstein reply to
motion for sanctions 58:6-7. Dickstein’s argument has
no merit considering that Dickstein knew the devices
existed but failed to disclose them for almost one year
after the trial had started.
Examining the facts in the light most favorable
to Dickstein, the court still finds that the firm should
have disclosed the devices far earlier than it did. By
March 2012, the court and TKCA had started raising
questions about spoliation and the backdating of
material documents. The parties retained forensic
experts to image laptops and servers in April 2012 in
attempt to locate evidence of spoliation and
backdating. Dickstein should have at least disclosed
the external hard drive, “old” mac, and thumb drive
referenced in Ex. 1164 well before the forensic
imaging started. Based on all of the misconduct, the
court further finds that the deleted user partition in
Muhs’ “old Mac” is inherently suspect. Dickstein has
no reasonable explanation for why it delayed
disclosure. When Dickstein disclosed the devices in
December 2012, the firm, by then, had knowingly
withheld evidence for 8 months that would have
negatively impacted PHP and would have necessarily
helped TKCA. The court finds there is no excuse for
such conduct. Sanctions are warranted when
considering all of the facts and circumstances.
5. Dickstein’s initial Rule 11
motion was filed absent
reasonable inquiry into the
facts and is sanctionable
Finally, TKCA argued that Dickstein should be
sanctioned for its initial Rule 11 motion filed
November 2011. This court agrees. An attorney’s

182a
signature on its motion or pleading is an affirmation
that “after reasonable inquiry” the claims are
grounded in fact and not for improper purposes like
harassment or delay of litigation. Ariz. R. Civ. P.
11(a). Just like with the GAL defense, Dickstein had
an obligation not to file a motion or pleading that it
knew “or should have known, by a reasonable
investigation of fact and of law that an asserted
defense is insubstantial, frivolous, groundless or
otherwise unjustified.” Cooke, 868 P.2d at 332-33. The
same reasonableness standard applies here. Like
counsel in Standage, who filed a complaint despite
possessing knowledge of facts disproving its
contentions, Dickstein filed a Rule 11 motion for
sanctions while in possession of documents that, at a
minimum, demonstrated the potential validity of
TKCA’s complaint. Unlike the GAL defense, which
would have required Dickstein to investigate the
matter beyond a reasonable degree to ascertain its
validity, a reasonable attorney’s investigation into the
material provided by Muhs would have made
Dickstein aware of a Rule 11 motion’s frivolous
nature. A reasonable investigation would have shown
that Muhs was in possession of TKCA trade secrets.
In the alternative, Dickstein failed to amend the
motion when it learned of facts that destroyed the
motion’s validity like counsel in Standage. The
deletion of the user partition on the “old Mac” in
concert with the rest of PHP’s misconduct should have
put Dickstein on notice that it should withdraw or
amend its original Rule 11 motion. There is no
objectively reasonable explanation for Dickstein’s
behavior with respect to the Rule 11 motion.
Dickstein’s appears to have avoided learning the
truth about its client’s veracity which the court can

183a
only describe as the civil law equivalent of deliberate
ignorance.49 The court cannot imagine how
experienced lawyers failed to evaluate the evidence
more objectively especially as the evidence
consistently exposed the magnitude of their client’s
misconduct.
For pursuing a Rule 11 motion in bad faith as
well as violating A.R.S. § 12-349 and pursuant to Rule
37, this court finds that an appropriate sanction is for
Dickstein to share with PHP a portion of the
reasonable attorney fees and expenses incurred by
TKCA as a direct result of the misconduct. The court
further finds that PHP is responsible for 80% of the
fees and expenses because not only did the company
act in a willful and malicious manner but it bears the
bulk of the responsibility for having violated the
rules. Dickstein will pay the remaining 20% of the
reasonable fees and expenses incurred for its
violations of the rules.
III.

CONCLUSION

This court finds that PHP misappropriated
TKCA’s bid proposal, SOWs, and labor rates in
violation of AUTSA. PHP profited from its
misappropriation to TKCA’s detriment and is ordered
to pay TKCA the sum of the profits TKCA would have
received under the DoS contract in accordance with
the discussion above. It is further ordered that PHP
pay TKCA the calculated research and development
cost as described above. It is further ordered that PHP
Knowledge can be established when the defendant was aware
of the high probability of misconduct, but acted with conscious
purpose to avoid learning the truth of the matter. State v. Fierro,
206 P.3d 786, 788 (Ariz. Ct. App. 2008).
49

184a
pay exemplary damages pursuant to A.R.S. § 44403(B) in an amount double awarded to TKCA for its
lost profits and research and development costs. In
addition, with respect to the common law claims,
TKCA is awarded its lost profits and punitive
damages as set forth above. It is also ordered that
TKCA submit its applications for the amount
awarded in sanctions (reasonable fees and expenses)
and for reasonable attorney’s fees pursuant to A.R.S.
§ 44-404 and A.R.S. § 12-349.
Accordingly,
With respect to TKCA’s AUTSA claims,
IT IS ORDERED awarding TKCA damages as
follows:
(1) Lost Profits: $2,883,055.86 ($32,033,954 x
9.0%)
(2) Research and Development: $3,882,205
(3) Exemplary
Damages:
$13,530,521.72
(double the total compensatory damages of
$6,765,260.86)
(4) Reasonable attorneys’ fees
Total AUTSA Damages: This court awards
TKCA an amount totaling $20,295,782.58 for
lost profits, research and business development
and exemplary damages and TKCA’s
reasonable attorneys’ fees.
Alternatively, with respect to TKCA’s common
law claims, specifically intentional interference

185a
with valid business
competition,50

expectancies

and

unfair

IT IS ORDERED awarding TKCA damages as
follows:
(1) Lost Profits: $2,883,055.86 ($32,033,954 x
9.0%)
(2) Punitive Damages: $5,766,111.72
With respect to Zimmerman, Ru1e 37, Ru1e 11,
and A.R.S. §12-349.
IT IS ORDERED awarding TKCA sanctions
as follows:
1) PHP shall pay 80% of the reasonable fees
and expenses as set forth in this ruling
2) Dickstein shall pay 20% of the reasonable
fees and expenses as set forth in this ruling
IT IS FURTHER ORDERED that TKCA
shall file its application for reasonable fees and
expenses consistent with this order under AUTSA,
and as sanctions, no later than March 2, 2015. PHP
shall file its response no later than April 6, 2015.
TKCA shall file its reply no later than April 30, 2015.
IT IS FURTHER ORDERED scheduling oral
argument on May 15,2015 at 1:30 p.m. in a courtroom
that shall be determined.
IT IS FURTHER ORDERED that PHP shall
be permitted to pursue its counterclaims effective
immediately.
To avoid double recovery, the court is ordering payment of
damages only under AUTSA.
50

